<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2020
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION
                               __________

                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS

                   NITA M. LOWEY, New York, Chairwoman

  BARBARA LEE, California		   HAROLD ROGERS, Kentucky
  GRACE MENG, New York			   JEFF FORTENBERRY, Nebraska
  DAVID E. PRICE, North Carolina	   MARTHA ROBY, Alabama
  LOIS FRANKEL, Florida
  NORMA J. TORRES, California

 
 
 

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Steve Marchese, Craig Higgins, Erin Kolodjeski, Dean Koulouris,
       Jean Kwon, Marin Stein, Jason Wheelock, and Clelia Alvarado
                            Subcommittee Staff

                               __________

                                  PART 3

                                                                    Page
Oversight of United States Agency for International Development 
Programs and Policies.............................................    1
Department of State Budget Request for Fiscal Year 2020...........  131
United States Efforts to Counter Russian Disinformation and Malign 
 Influence........................................................  261
Management Challenges and Oversight of Department of State and 
  United States Agency for International Development 
  Programs........................................................  345


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________


          Printed for the use of the Committee on Appropriations


















   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2020
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION
                               __________

                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS

                   NITA M. LOWEY, New York, Chairwoman

  BARBARA LEE, California		   HAROLD ROGERS, Kentucky
  GRACE MENG, New York			   JEFF FORTENBERRY, Nebraska
  DAVID E. PRICE, North Carolina	   MARTHA ROBY, Alabama
  LOIS FRANKEL, Florida
  NORMA J. TORRES, California

 
 
 

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Steve Marchese, Craig Higgins, Erin Kolodjeski, Dean Koulouris,
       Jean Kwon, Marin Stein, Jason Wheelock, and Clelia Alvarado
                            Subcommittee Staff

                               __________

                                  PART 3

                                                                    Page
Oversight of United States Agency for International Development 
Programs and Policies.............................................    1
Department of State Budget Request for Fiscal Year 2020...........  131
United States Efforts to Counter Russian Disinformation and Malign 
 Influence........................................................  261
Management Challenges and Oversight of Department of State and 
  United States Agency for International Development 
  Programs........................................................  345


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

          Printed for the use of the Committee on Appropriations


                    U.S. GOVERNMENT PUBLISHING OFFICE

39-682                      WASHINGTON : 2020


















                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio			      KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana		      HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York		      ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut		      MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina	      JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California	      KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia	      TOM COLE, Oklahoma
  BARBARA LEE, California		      MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota		      TOM GRAVES, Georgia
  TIM RYAN, Ohio			      STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland	      JEFF FORTENBERRY, Nebraska
  DEBBIE WASSERMAN SCHULTZ, Florida	      CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas			      JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine		      DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois		      ANDY HARRIS, Maryland
  DEREK KILMER, Washington		      MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania		      MARK E. AMODEI, Nevada
  GRACE MENG, New York			      CHRIS STEWART, Utah
  MARK POCAN, Wisconsin			      STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts	      DAN NEWHOUSE, Washington
  PETE AGUILAR, California		      JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida			      JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois		      WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

                 Shalanda Young, Clerk and Staff Director

                                   (ii)

 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2020

                              ----------                              

                                      Wednesday, February 27, 2019.

    OVERSIGHT OF UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT 
                         PROGRAMS AND POLICIES

                                WITNESS

AMBASSADOR MARK GREEN, ADMINISTRATOR, UNITED STATES AGENCY FOR 
    INTERNATIONAL DEVELOPMENT (USAID)

                 Opening Statement of Chairwoman Lowey

    The Chairwoman. The subcommittee on State, Foreign 
Operations, and Related Programs will come to order.
    I welcome you all, especially our new members. [Laughter.]
    The Chairwoman. I don't know. This is not a good sign.
    But I will mention them anyway because they would want us 
to acknowledge them, Ms. Torres; Ms. Frankel--I think she lost 
her voice, too--Mrs. Roby; and my friend, the former chairman 
and ranking member, Mr. Rogers. I look forward to a very 
productive year.
    Administrator Green, thank you so much for joining us. I am 
constantly impressed by you and the wealth of experience of our 
development professionals.
    USAID helps the world's most vulnerable people, assists in 
the recovery of millions from natural disasters and conflict, 
and supports democracy and the rule of law. These development 
efforts are the front line of our national security.
    This is a tumultuous time around the world.
    Globally, democracy is in crisis. The right to free and 
fair elections, freedom of the press, and the rule of law are 
under assault.
    Yemen is on the edge of catastrophe as the world's worst 
humanitarian crisis, with 20 million civilians facing 
starvation. The second-largest Ebola outbreak ever recorded 
rages in a fragile Democratic Republic of the Congo, resulting 
in more than 500 deaths so far, including nearly 100 children.
    Political turmoil in Venezuela continues. More than 3 
million people have already fled, and some 25,000 more flee 
every day in what has been called Latin America's worst ever 
refugee crisis.
    In Burma, since 2017 some 700,000 Rohingya Muslims have 
fled their homes in the northern Rakhine province to escape 
persecution and violence.
    And in Syria more than 6 million people are internally 
displaced, and the vast majority of the 5.6 million refugees in 
neighboring countries live below the poverty line.
    It is clear that our humanitarian and development efforts 
are needed now more than ever. For USAID to succeed in leading 
these efforts the agency must have sufficient resources and 
staffing to nimbly and effectively respond.
    But several of this administration's policies have 
hamstrung your agency, reducing response time and preventing 
the U.S. from partnering with some of the most capable and 
experienced implementers. Perhaps no better example is the 
administration's expansion of the global gag rule and the Kemp-
Kasten determination against UNFPA.
    These terrible policies undermine our effectiveness and 
make it much harder to reach people who need us most.
    I can clearly remember, my friend, Administrator Green, and 
I just have to take a break from these notes because we all 
have experiences that we will never forget. I remember visiting 
a place where abortion was legal, and I think of this woman 
with all the little babies following her, and I think today if 
she were taken to a clinic and that clinic dared to provide any 
kind of guidance on abortion they would be out of business, and 
this woman would not be able to get any guidance at all.
    I know you are in a difficult position in this 
administration, but if I wanted to take the time I could 
probably give you another half dozen or more examples where 
birth control is health. It is survival. And to put these 
clinics out of business if they are threatened with providing 
full direction on Women's health is an abomination.
    So, my friend, these self-inflicted wounds compromise the 
quality of our efforts and are a disservice to the American 
taxpayer.
    Another example is the administration's suspension of 
assistance during policy reviews and subsequent breaks in 
programming that have led to negative consequences. President 
Trump also appears to have a flawed view of foreign assistance, 
in my judgment, as a reward to our friends and its withdrawal a 
punishment to our enemies.
    Moreover, the administration's approach to multilateral 
engagement, whether it be at the United Nations, the World 
Bank, or elsewhere, has been reactionary and shortsighted. Our 
assistance has direct impacts that alleviate suffering, save 
lives, and enable stability that is essential to our own 
interests.
    In our interconnected world, our national security is 
strongest when development, diplomacy, and defense are all 
well-funded and equally prioritized.
    I want to make it very clear: This subcommittee stands 
ready to work with USAID. To do so effectively will require 
ongoing, open communication, especially on areas where funding 
needs are outpacing available resources.
    Failing to maintain our position as the leader in global 
development and humanitarian assistance will cost lives, risk 
the spread of infectious diseases, and reduce American 
influence around the world. I hope--and I should change that, 
my friend, to: We can count on you and your team to help 
strengthen communication and consultation with us throughout 
the 116th Congress.
    I thank you very much for testifying today, and I look 
forward to our discussion. Before we move to your testimony I 
would like to turn to my friend, Mr. Rogers, the ranking 
member--we just take turns, but I don't want to take any more 
turns in the next year--the ranking member for his opening 
statement.
    And then I want to make it clear I will call on members 
based on seniority of the members who were present when the 
hearing was called to order. I will alternate between majority 
and minority. Each member is asked to keep their questions to 
within 5 minutes per round.
    Administrator Green, we will be happy to place your full 
testimony in the record. If you would be kind enough to 
summarize your oral statement, I want to make sure we leave 
enough time to get to questions, Mr. Green.
    I will turn to Mr. Rogers. That is what happens when you 
don't have a voice. Okay.

                     Opening Remarks of Mr. Rogers

    Mr. Rogers. I thank you, Madam Chairwoman. Congratulations 
on your accomplishment--historic accomplishment--being the 
first female chairman of the full committee.
    The Chairwoman. So maybe there is a kind of plan. Was my 
voice taken away as the first woman? I don't know what is going 
on around here. [Laughter.]
    Mr. Green. No. No, it can't be.
    Mr. Rogers. I know it is going to be difficult to fill both 
the roles of being a full committee chairwoman and this 
subcommittee chair as well, but I am pleased that you are 
staying on and leading the subcommittee, and I look forward to 
working with you and being as helpful as we can along the way. 
You and I have had a great working relationship down through 
the years of time in various roles, and I have found you to be 
very effective, and reliable, and honest, and true, and above-
board. So I appreciate our friendship.
    Ambassador Green, it is a pleasure to welcome you back to 
your old stomping grounds here on the Hill. You spent a good 
number of years--was it four terms--on the Hill, and a member 
of this body. Among your other accomplishments, we appreciate 
your service up here.
    And it is good to see you again for your third appearance 
testifying before this subcommittee as USAID administrator. You 
have demonstrated your willingness to appear when called upon, 
to engage our members in a meaningful conversation about your 
work at USAID. I asked this of you in your first hearing as 
administrator in this very room. I believe you are upholding 
your end of the bargain, and I sincerely appreciate that.
    I would hope this hearing would allow us to discuss the 
president's budget request for fiscal year 2020. If the 
speculation holds true, we are looking at another proposal for 
steep cuts in the international affairs budget being 
recommended in the president's budget, despite being roundly 
rejected by Congress for 2 years in a row now.
    Unfortunately, the budget submission has been delayed until 
mid-March so we will need to have those discussions at another 
time.
    Therefore, today we are going to focus on oversight. USAID 
plays an important role in contributing to our country's 
national security. Across the globe USAID is on the front lines 
promoting democracy, growing economies, reducing disease, 
providing lifesaving humanitarian assistance.
    That is why it is critical to make sure USAID is the most 
efficient and effective agency it can be. Taxpayers should feel 
confident their resources are being invested wisely, and they 
should be proud of what is accomplished overseas on their 
behalf.
    You are fortunate to have a capable inspector general 
keeping an eye on the agency. She and her staff have done 
important work to help you achieve greater transparency and 
increased effectiveness, and I know you take her 
recommendations seriously and have made progress addressing 
them lately.
    But there are some challenges that never seem to get 
resolved. They get written up year after year.
    I will probably return to this topic with a question, but I 
am concerned that the USAID I.G. continues to raise the issue 
of vulnerabilities in financial management. These are the 
fundamentals, basics of tracking each and every dollar.
    I understand you have made some improvement recently, but 
that doesn't mean you should take your foot off the gas. I 
discussed this and other issues in a hearing with the inspector 
general when I became chair of this subcommittee, and I intend 
to follow it until it gets resolved.
    I strongly encourage you and your management team to remain 
focused on making this an agency strength rather than a 
perennial challenge.
    The situation Venezuela, a topic of great interest, of 
course. The Maduro regime has caused desperate conditions in 
Venezuela, has threatened counternarcotics efforts and economic 
development throughout the region.
    In turn, this has forced unprecedented numbers of 
Venezuelans to flee their homes. The outcome of this political 
crisis will have a substantial impact on Latin America for 
decades to come. I know you intend to address this in your 
remarks, so I look forward to hearing your update.
    I hope you will address other important topics, such as 
your agency's role in countering Russian and Chinese influence 
around the world, efforts to suppress our partners in the Near 
East that continue to face turbulent times, and critical 
investments being made in global health security.
    Before I close, I want to thank the men and women of USAID 
for their continued hard work and their commitment. I know the 
shutdown was difficult, sometimes demoralizing for so many 
federal employees, including USAID. I hope their dedication to 
their mission will stay strong, and I look forward to doing 
what we can to support them in that effort.
    I know, Mr. Administrator, that you must be weary. You have 
been on the road--the air, if you will--for many months. I 
understand you were in Colombia recently twice in 4 days, I 
think, so we are glad to have you back here and we hope to give 
you a little rest amidst your troubles.
    I yield back.
    The Chairwoman. Again, Administrator Green, we will be 
happy to place your full testimony into the record. If you 
would be kind enough to summarize your oral statement?
    I want you to do whatever you are comfortable with. I want 
to make sure, though, that we leave enough time to get to 
everyone's questions.
    Mr. Green. Thank you.

                  Opening Remarks of Ambassador Green

    Mr. Green. Thank you, Madam Chairwoman.
    And up front I apologize for my voice. I picked something 
up on one of those travels, and until this morning I actually 
thought I was winning. Now I am not so sure, but I appreciate 
the forbearance of the committee.
    So, Chairwoman Lowey, Ranking Member Rogers, Members, it is 
good to be with you. Thank you for this opportunity.
    I would like to begin this morning by discussing USAID's 
efforts to address a few of our more-pressing humanitarian and 
development situations across the world. As many of you have 
alluded to, at USAID we have urgent work to do, and that work 
has never been more important.
    To name one, I have just returned from Cucuta, Colombia, a 
short distance from the border with Venezuela. There I saw 
firsthand the devastating effects of the Maduro regime's 
corruption, economic mismanagement, and oppression. I heard 
stories of unimaginable suffering: children starving, hospitals 
running out of medicine, and people walking, in some cases 
hundreds of miles over several days, to reach the border in 
search of help.
    Of course, this tragedy is all the worse because Venezuela 
was once one of the region's wealthiest countries. At the 
request of Interim President Juan Guaido, we have been 
prepositioning humanitarian assistance close to the border for 
eventual delivery into Venezuela.
    While in Cucuta last week, I welcomed the arrival of a new 
tranche of humanitarian assistance. Since February 4th, USAID, 
with support from the Departments of Defense and State and 
others, has prepositioned approximately 195 metric tons of 
crucial relief supplies, including emergency medical kits, food 
aid, hygiene kits, and nutritional supplies.
    This past weekend, as I am sure you were watching, this 
past weekend was tragic, as thousands of Venezuelan, Colombian, 
and other humanitarian volunteers sought to transport 
lifesaving food and medical supplies into Venezuela. They were 
met with death, tear gas, rubber bullets, and violence ordered 
by the Maduro regime.
    The United States, over the last couple of years, has 
contributed more than $195 million in funding to support 
Venezuelan migrants and the communities hosting them. We are 
far from alone in that effort: 54 countries now recognize the 
interim presidency of Juan Guaido. Many of our closest allies 
have pledged assistance, and many private citizens have already 
provided assistance to the region.
    However, as I know you agree, in order to fully respond to 
these crises, we need to address their underlying causes. Just 
as we lead the world in humanitarian assistance, we should also 
lead in our commitment to democracy, human rights, and citizen-
responsive governance.
    USAID stands in solidarity with Interim President Guaido 
and those in Venezuela who seek a government that represents 
their interests and is responsive to their needs. So long as 
Maduro and his cronies continue to crush the people of 
Venezuela, their economy, and their hope, we know this crisis 
will continue.
    The people of Venezuela, like those in Cuba and Nicaragua, 
who are also suffering under authoritarianism, deserve freedom 
and a return to the rule of law.
    Some observers talk as though democracy is in irreversible 
decline, but the only way that freedom and democracy will fall 
is if we let them. As President Trump recently said in Miami, 
we can see the day ahead when all the people of Latin America 
will at last be free.
    Members of the subcommittee, we are hard at work in 
addressing another humanitarian crisis, this one of a 
fundamentally different nature. The outbreak of Ebola in the 
Democratic Republic of Congo, where health officials have 
recorded at least 869 confirmed cases and 544 related deaths 
all since 2018, should be of concern to all of us.
    USAID disaster and health experts, part of the U.S. 
Government's Disaster Assistance Response Team, are on the 
ground working side by side with WHO and the Ministry of Health 
in DRC. The team is applying tools and valuable lessons 
learned, developed in the 2014 epidemic response in West 
Africa. The strategy is to break the chain of transmission and 
ultimately end the outbreak.
    It is a complex working environment. Poor access to certain 
areas, security concerns, and community distrust have presented 
remarkable hurdles to our work.
    But despite these challenges, responders are conducting 
their vital work in affected areas, including surveillance and 
case-finding, case management, and raising community awareness 
about transmission. We will continue to monitor and adapt 
accordingly, in coordination with our colleagues from the CDC.
    This response is a priority not only because of our 
commitment to those affected, but also to prevent the outbreak 
from spreading throughout the broader region and, quite 
frankly, beyond.
    Unfortunately, we are experiencing humanitarian crises in 
nearly every corner of the world. And what makes the tragedy of 
the Rohingya even more painful is that, similar to Venezuela, 
it is entirely manmade.
    Bangladesh now holds 1 million Rohingya refugees from 
Burma, as well as the world's largest refugee camp; 730,000 of 
these migrants arrived in the wake of an ethnic cleansing 
campaign conducted by the Burmese security forces that began in 
August 2017.
    I traveled to Bangladesh last May to visit the refugee 
camps and to hear from those who escaped the violence and 
bloodshed. I met with government representatives. I conveyed 
America's gratitude to Bangladesh for hosting the refugees, but 
I also encouraged them to allow humanitarian organizations to 
provide refugees with the full range of support necessary for 
their wellbeing--not just food assistance and health care, but 
access to education, weather-resistant shelter, and livelihood 
opportunities.
    USAID, in close coordination with State, continues to 
provide emergency food and nutrition assistance to refugees in 
Bangladesh. We are also working to ensure their host 
communities are not overly burdened by this significant 
population influx, and we continue to call on the government of 
Burma to take concrete actions to respect the dignity and the 
rights of all Rohingya in Burma to return voluntarily, safely, 
and in a dignified manner.
    Members of the subcommittee, those are just a few of the 
most pressing situations at the forefront of our work. But I 
would also like to say a quick word about USAID's redesign 
process, or transformation.
    When I last appeared before the committee in March of 2018, 
I provided an overview of several planned initiatives. After 
consultations with many of you and your staff, we have since 
launched many of them and we are eager to answer any questions 
that you might have as you look to review our remaining 
Notifications.
    As you have heard me say before, private enterprise is 
perhaps the most powerful force on Earth for lifting lives out 
of poverty, strengthening communities, and building self-
reliance. And so, just in December, we launched the Agency's 
first-ever Private Sector Engagement Strategy. This policy is a 
call to action to increase and strengthen our work with the 
private sector, moving beyond mere contracting and grant-making 
to true collaboration, co-design, and co-financing.
    Another key initiative--and, Chairwoman Lowey, I have to 
thank your unbending leadership on this issue--aims to enhance 
a core aspect of our work: improving learning outcomes, 
especially for marginalized youth and communities in need. One 
aspect of USAID's new Education Policy that I am especially 
excited about is its focus on ensuring that we tailor our 
education programs to the unique needs of each country.
    We are engaging all stakeholders in order to deliver 
quality, sustainable education. This includes universities, 
traditional education institutions, and, where appropriate, 
private sector faith-based organizations, and more. These new 
education strategies will ensure that we are considering every 
innovation to achieve the very best possible learning outcomes.
    Finally, I would like to mention USAID's support for the 
White House-led Women's Global Development and Prosperity 
Initiative, also known as WGDP. On February 7th, I joined 
Ivanka Trump in launching this initiative and announced USAID's 
new fund to support and scale up innovative programs that 
advance women's economic empowerment around the world. This 
fund will have an initial allocation of $50 million and will 
support high-impact proposals including those that support 
training and skills development, expand access to finance, and 
reduce barriers to women's free and full participation in the 
economy.
    Members of the subcommittee, with your support and guidance 
we will ensure that USAID remains the world's premier 
international development agency.
    And with that, Madam Chairwoman, thank you again for the 
opportunity to appear and to continue our conversation. I 
welcome questions.
    Thank you, Madam.
    The Chairwoman. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. A pleasure to welcome you, Mr. 
Administrator.
    A few weeks ago the administration rolled out the Women's 
Global Development and Prosperity program, or W-GDP. Now I, as 
you well know, fully support increasing women's economic 
empowerment. The inconsistency, however, of this 
administration's policies on such an important issue is 
baffling.
    And I won't say just Ivanka Trump; I will talk about the 
whole administration. Because you and I know that financing 
alone won't solve this problem. Our programs will not be 
effective if we don't see women and their challenges 
holistically, and address the environment in which they are 
raising their families and supporting their communities.
    So do you believe this administration has put the policies 
in place to effectively encourage women to take advantage of 
economic opportunities? You will probably say yes, so I will 
let you give a quick response.
    Mr. Green. Yes.
    The Chairwoman. I wouldn't want to put words in your mouth. 
I wouldn't even think of that.
    I hope we can work together on W-GDP, but is this 
administration reconsidering its stance on funding for 
important women's health and education programs that would be 
necessary for women to better contribute economically?
    Mr. Green. The administration, in terms of women's 
education, very much is looking to boost women's education and 
to tackle the barriers to women's education. As part of the W-
GDP Initiative we are taking a look at all the--country by 
country--all of the barriers to participation in the economy.
    The Chairwoman. Including health barriers specific to 
women?
    Mr. Green. Taking a look at health barriers, all the 
barriers.
    The Chairwoman. I hope you look very, very carefully at the 
health barriers that this administration advocates.
    So let me be very specific, will the administration reverse 
its position on an expanded gag rule or misguided prohibition 
on UNFPA funds to ensure women are able to take advantage of 
this new initiative?
    Mr. Green. I will give you a two-part answer.
    In coming weeks we will be producing, as we have pledge to 
do, a report on the impact of the Protecting Life in Global 
Health Assistance policy announced 2 years ago. We will make 
that report public. I do not believe that it will be reversing 
its standing position and policy.
    The Chairwoman. I thank you, frankly, for your frank 
answer. As I mentioned before, I have traveled to so many 
places, and you see what empowerment of the women does when 
they can have appropriate health advice and assistance.
    The last USAID administrator under a Republican 
administration, Henrietta Fore, launched the Development 
Leadership Initiative with a vision to double the number of 
permanent Foreign Service officers at your agency. And I was so 
proud to support this initiative when I was last chair of this 
subcommittee. In fact, the Development Leadership Initiative 
garnered strong bipartisan support in recognition of the 
invaluable role USAID personnel play in our national security.
    The Obama administration continued this Bush administration 
initiative, but this administration has significantly reduced 
staffing. Can you respond? I know I just have a few seconds 
left.
    Mr. Green. As you know, a year-plus ago we were under a 
hiring freeze. Since then we have taken steps to hire 
approximately 140 career Foreign Service officers, which we 
will do between now and the end of Fiscal Year 2020, which is 
in line with available O.E. budget. And beyond that, we will 
continue to hire staff and begin to power-up since the freeze 
was lifted.
    The Chairwoman. Maybe I can ask you directly: Should USAID 
be expanding, or is your current staffing level sufficient? And 
what is the impact of the dramatic workforce reductions, 
including on morale and workload?
    Mr. Green. So we will be expanding our staff in line with 
available budget. So it is not a set number; it is making sure 
that we have the right people in the right place to do the jobs 
that are necessary.
    I can tell you that during the lapse in appropriations in 
which a good percentage of our staff were furloughed, that did 
delay a number of operations that we would normally take on, 
including oversight. So when we have staff reductions like that 
it certainly hurts our effectiveness.
    The Chairwoman. Well, I thank you very much.
    And before I turn this over to Ranking Member Rogers I want 
to say this committee, whether Chairman Rogers is in charge or 
I am in charge, and all the members, are passionate about the 
important work of USAID and feel there have been some mistakes, 
wrongheadedness in terms of the cuts. So we are happy to be 
your partner; we are happy to have open and honest discussions, 
and continue to support the very essential work that you are 
doing.
    So thank you for appearing before us today.
    Mr. Rogers.
    Mr. Rogers. Mr. Administrator, China. Anecdotally, all of 
us on various trips around the world have noticed of late very 
active Chinese involvement in that country. They have emerged 
as a major provider of export credits, infrastructure 
financing, symbolized by their very ambitious Belt and Road 
Initiative, they call it.
    Unlike the U.S. and most Western donors, China's lending 
policies are not guided by standards of anticorruption, 
transparency, or the ability to pay the loan back--
sustainability. Many of us are concerned that this model gives 
Chinese companies a big advantage in emerging markets and 
allows Beijing to use large projects as a way to gain 
geostrategic influence and power.
    Understanding that the U.S. response must involve many 
agencies, what is USAID's role and strategy to counter the 
China model of development around the world?
    Mr. Green. Thank you, Ranking Member, for that question. It 
is a topic that I am passionate about.
    First and foremost, when you ask countries why they accept 
or turn to China, in most cases they will say, because they are 
there and the U.S. is not. So the first answer is we need to 
engage in more places more often with countries. I think we 
need to be there and show what it is that we offer.
    Secondly, I think we need to do a better job in helping 
countries analyze the terms of what China offers. You and I 
wouldn't really refer to what China does as assistance. It is 
predatory financing is what it is. And so I think helping 
countries to be able to analyze the cost-benefits of the China 
package is important.
    Most importantly, we have to be clear about what it is that 
we offer and what the end game is. So what I say is in many of 
these countries it is a choice between self-reliance, which is 
what you get in the end of your partnership with us, the 
ability to lead yourself, provide for yourself, guide your own 
future, versus servitude, in which you are in perpetuity 
indebted to an authoritarian power. I think we should be full-
throated in pointing out the clear differences. So I think it 
is a combination of all of them.
    We have got to be there. I think we have to do a better job 
in describing what it is that we offer. And I think we have to 
do a better job in describing the downside, the cost of what 
China offers.
    Finally, I think that the new DFC, which will be coming 
online towards the end of the year, is an important tool in the 
toolbox. We shouldn't try to be China-light. We shouldn't get 
into a bidding war with China. But what we can do, with quality 
financing from the DFC and other parts of the U.S. Government, 
is incentivize the kinds of policy reforms that can help a 
country rise. Every country wants to lead itself, and we want 
to make it clear that we can help them get there.
    Mr. Rogers. Well, it is a juggernaut. The Chinese are 
launching--have launched a juggernaut.
    They are all over the world and they are pouring billions 
of dollars into questionable loans for projects that probably 
will never see the light of day. But they have made their 
presence there. They have made friends.
    Mr. Green. If I can, a term that I heard in talking to some 
businesses in Latin America, they said that they refer to 
Chinese assistance as ``loan-to-own'' because there really is 
no sense of providing financing. It is essentially indebtedness 
that will allow China to take over assets.
    Mr. Rogers. Yes. And we have never seen anything quite like 
this, have we?
    Let me quickly switch to Venezuela. A lot of focus on the 
situation inside Venezuela, and rightly so.
    You have provided us with helpful overview of recent 
events. We would like to hear more about what we have done and 
will do for other countries in the region that have been 
strained by the more than 3 million people that have fled 
Venezuela. Could you help us out with that?
    Mr. Green. Thank you, and it is an important question.
    One of the things that makes Venezuela different in terms 
of its scope is the fact that it is happening as we speak. As 
the Chairwoman pointed out, we are seeing the flight of 
migrants increase each and every day, getting on for 4 million 
now, and it is affecting the entire region.
    So we have been providing assistance to host countries to 
support those migrants who have come over as well as the 
communities that are, in fact, hosting them. It is moving as 
far as the Caribbean, where the economies--just by World Bank 
numbers--may be prosperous but they are fragile. If they are 
tourism-oriented you can see how the presence--sudden presence 
of migrants would be burdensome. So we have been trying to 
provide some support there.
    This is not a bilateral problem; it is not U.S.-Venezuela. 
This is a problem, a challenge that affects the entire region, 
and that is why it is receiving the attention, and it should 
be.
    Mr. Rogers. I think my time is expired.
    The Chairwoman. Thank you, Mr. Rogers.
    Ms. Lee.
    Ms. Lee. Good to see you, Mr. Ambassador.
    First, thank you for being here. Thank you for your 
leadership.
    I have several questions. I apologize, I have to go into 
another hearing so I am going to try to summarize my questions 
all in one round.
    Of course I have been concerned about the Trump 
administration's cuts to UNFPA and the impacts that these cuts 
have on the health and wellbeing of women and girls around the 
world. As you know, UNFPA provides critical voluntary 
reproductive health care, including family planning services, 
to the world's poorest women living in over 150 countries 
around the world.
    Now, I know you have previously stated that USAID was in 
the process of reprogramming U.S. funds that were going to 
UNFPA, but we never got a handle on where those funds were 
reprogrammed for, what accounts they went into. And, you know, 
how in the world, now, are you ensuring that women and girls 
are--in vulnerable situations, such as the child health care 
and refugee camps in Jordan--how are they accessing care now, 
given the shift in funds?
    So I would like to know what accounts they are going into.
    Secondly, of course, I am back talking about democracy 
programs in Cuba. Of course, the ZunZuneo program, covert Cuban 
Twitter designed to stir unrest, funding for Radio Marti and 
Television Marti are, I believe, a waste of taxpayer money. And 
we have learned recently that it was TV Marti described as an 
anti-Semitic segment against George Soros. I don't know if you 
conducted an investigation or not.
    But why are we continuing to fund these programs wasting 
taxpayer dollars, and what is the status of the investigations 
into all of the wasted money? And is USAID playing a 
constructive role in what seems to be really an organic opening 
in Cuba?
    There are about 830 Wi-Fi hotspots, and so, of course we 
know under the Obama administration we moved toward at least 
trying to normalize relations and engage in some dialogue and 
some diplomacy, but yet now these--under Trump the policies 
have turned us back. And so I am wondering what your assessment 
is on the Cuban people, in terms of curbing trade and travel.
    My next question just has to do with HIV and AIDS in terms 
of country ownership. And are countries, which we all agree 
need to happen, but is the groundwork established to insist on 
country ownership?
    And then finally, what are we doing in the West Indies and 
the Caribbean? We discussed this a little bit, but I know there 
has been very little involvement in the West Indies and the 
mainly black Caribbean countries, and I do know that China is, 
of course, there, and I am wondering why we haven't engaged 
much in the West Indies.
    So thank you again.
    Mr. Green. Thank you, Congresswoman Lee. You may be in and 
out but you have gotten all of your questions in and I will 
attempt to address them as best I can. And I enjoyed our 
conversation yesterday.
    So first, with respect to UNFPA and the reprogramming of 
dollars, with respect to last year's funding, the 2017 fiscal 
year funds, those were--those funds were put into maternal and 
reproductive health--voluntary family planning and maternal and 
reproductive health activities in priority countries. In 
addition, part of the money was used for the prevention of 
cervical cancer in Malawi and Mozambique as part of an 
integrated program on women's health.
    With respect to Fiscal Year 2018 funds, those are still 
being under review and we will supply a Congressional 
Notification to your office to make clear our intention as to 
where those funds will go. So as always, we will make sure that 
we are very clear where those funds go.
    With respect to Cuba, we have increased humanitarian 
assistance in Cuba to political prisoners, and we do continue 
to provide access to independent media as much as we can in 
Cuba. With respect to the precise question you asked, I will 
have to get back to you. My office will supply a written 
response. I just am not entirely familiar with that.
    On PEPFAR, I support Ambassador Birx's efforts to begin to 
build stronger sustainability of our PEPFAR investments in some 
of the countries that have increasing capacity. I think we all 
recognize that in the long run the right answer in nearly every 
sector is to help countries to be able to lead themselves.
    In the case of health systems in countries with high AIDS--
HIV/AIDS burdens, it is building their capacity, slowly getting 
them to mobilize more and more of their own domestic resources 
so that eventually, sustainably they can take over leadership 
themselves. That is what Ambassador Birx is trying to do.
    Obviously USAID is part of the larger PEPFAR effort, and we 
are committed to doing that. It is challenging in many 
environments, but we think it is important.
    With respect to the Caribbean, and the West Indies in 
particular, as we discussed yesterday, I appreciate and, quite 
frankly, welcome your passion on this. These nations are our 
neighborhood, and I think that we should engage them more, and 
as much as we can.
    We often engage only during moments of humanitarian crisis, 
when there are storms and other natural disasters. And I am 
proud of the fact that we do. It would be nice to engage with 
them outside of storms and natural disasters. Those 
relationships are important.
    And again, I think that if we can bolster the economic 
vitality of our own neighborhood, the Americas, the Western 
Hemisphere, I think every American benefits. I think it is good 
for us as well as being good for them.
    So you have my commitment to sit down and work with you on 
that. I share your passion. I think it is great.
    The Chairwoman. Excuse me.
    Mr. Fortenberry. Thank you, Madam Chair. I hope you feel 
better.
    Before I make my comments, if I could ask Ms. Lee a 
question. Are you coming back to the hearing? The reason I ask 
is you know you have a particular passion for Haiti and I have 
some questions in that regard. If you are coming back I will 
probably save those for the----
    Ms. Lee. I am not sure. No, go on.
    Mr. Fortenberry. I will have to do it by myself then, okay.
    Ms. Lee. Yes. Thank you very much. But I am sure I 
associate myself with your remarks on Haiti. [Laughter.]
    Mr. Fortenberry. Okay. Thank you.
    Again, thank you, Madam Chair, for the time. And, frankly, 
it is a privilege for me to serve on this subcommittee.
    Mr. Administrator, I never, frankly, know what to call you: 
congressman, administrator, ambassador, or Mark. So welcome.
    Mr. Green. Mark works well.
    Mr. Fortenberry. Mark is okay? Yes.
    Thank you for your long-held leadership and public service. 
We are really grateful.
    Before I ask you a few questions starting with northern 
Iraq I would like to give a few reflective comments.
    I think that the United States Agency for International 
Development, that title doesn't appropriately capture the 
fullness of what we are trying to do here. And if I had a 
chance to rename this, this would obviously have to be 
shortened, but I do believe you have one of the most important 
jobs in the country, perhaps the world, because it is about a 
couple fundamental things, promoting human dignity, attacking 
the root causes of structural poverty, and attempting to create 
and imagine a 21st century architecture for diplomatic 
relations that is based in authenticity, in service--and this 
is the key point--in service to America's humanitarian impulse, 
international stability, and our own national security.
    Now, if you can find a way to take all of that and press it 
into a new title I think we could rename the agency because I 
think it is broader than the two words ``international 
development'' captures. And I know you have a particular 
passion for this, and I am grateful for your service.
    You did mention we have humanitarian crises all over the 
world. And again, I think all of us who have been given this 
great gift of public service have to reflect on the more 
fundamental question as to why.
    We can move economic aid; we can move assistance. But why 
do we continue to have these humanitarian crises, especially in 
an age of unprecedented prosperity in some places, 
unprecedented development of the sciences and technology? The 
world is still screaming for meaning, and ultimately I think 
that meaning is found in the philosophical proposition of human 
dignity.
    Let me fast-forward, and I would like to--Madam Chair, I 
haven't had a chance to visit with you about this, but if we 
could do so privately I would appreciate it.
    Administrator Green and I traveled to northern Iraq last 
summer, and what we were doing there at the request of the vice 
president's office was to evaluate the aid programs that were 
targeted to the religious minorities that once flourished in 
northern Iraq. Christian communities, Yazidi communities, 
certain minority Muslim communities once formed an ancient 
mosaic tapestry of religious pluralism. The Iraq War and then 
the consequences of ISIS have--and their genocide, their 
twisted, dark ideology--has decimated these peoples.
    So the United States, again, very generously, has 
transferred aid. I believe it is near $200 million.
    My findings were that there is possibility that this aid 
has the potential impact that we desire: a regeneration of 
these communities, helping Iraq save, again, what once was a 
vibrant disposition toward pluralism. The situation, though, is 
urgent. The Christian community has trickled back; the Yazidi 
community, many of whom are trapped in refugee camps, there 
will be pressures for out-migration more than there have been 
if we don't act quickly.
    But the more fundamental issue is security. Without 
security there is really little prospect that the aid that we 
are giving and other countries are giving is sustainable in the 
long run.
    So, Mr. Administrator. I have taken up a lot of my time. 
But I would like you to respond to that prospect. And what I am 
trying to do is, working with Chairmen Engel and McCaul, a 
resolution through Congress that lays down a marker talking to 
this issue of security and integrating, frankly, Christians and 
Yazidis and minority Muslim communities into the Iraqi security 
forces with some authority to protect themselves.
    Mr. Administrator, if you could respond to this?
    Mr. Green. Thank you for your question and for your 
concern. And obviously you and I have had a number of 
conversations about this.
    I have been struck by the way that the Iraq government in 
its approach to the flourishing diversity that was once there 
in northern Iraq, how they refer to it. They don't refer to 
minorities; they refer to ``component communities,'' with the 
idea being that Iraq cannot be whole if it is missing those key 
components.
    We do believe, I do agree, that if we are to defeat ISIS 
once and for all we must undo some of what it tried to do, 
which was to destroy that diversity of freedom of conscience. 
And so we think it is important work to be done.
    Yazidis, Christians, as you have pointed out, a number--a 
range of minorities, there are two pieces to it. As you know, 
and thanks in part to your leadership, we are providing 
valuable assistance to these communities to try to provide the 
infrastructure that allows them to return and have economic 
livelihood.
    The two challenges that I see, which will determine whether 
we are successful in the long run, are: number one, they have 
to--they must not argue amongst themselves. In other words, 
they cannot allow the fragmentation of the communities to 
finish the job that ISIS started in terms of breaking apart 
what was a wonderful mosaic.
    But most importantly is security. And as I often say, I am 
not in the wish projection business. I try to be clear-eyed. 
And unless these communities feel as though there is some 
security around them I find it hard to believe that they will 
either stay or return, as you and I both hope they will.
    So I think addressing security is a key part of our long-
term success.
    Mr. Fortenberry. Great. Thank you.
    The Chairwoman. Thank you very much.
    And I just want to say to my colleague I remember to this 
day--the name of the person who gave us that briefing on what 
happened in Iraq, and I voted for that war. It was probably the 
most misguided vote I ever took in my life.
    And I agree with you, that was a tragedy, and I look 
forward to working with you on this enormous challenge.
    And I know my good friend feels the same--well, I won't say 
you agree with everything I just said, but we have an enormous 
job to do and I thank you again on that effort, as well.
    Ms. Torres, a pleasure. A new member of the committee, and 
we are delighted to welcome you here today.
    Mrs. Torres. Thank you so much. It is an honor to be here 
with all of you.
    Thank you so much for being here, Mr. Green. As you know, I 
have traveled extensively within the Western Hemisphere and 
have looked at all of the work that USAID is doing, and I am 
grateful, and I am a fan of the work that is being done by your 
employees that I think are just wonderful ambassadors of the 
U.S. as we continue to look for opportunities to expand 
democracy within our hemisphere.
    So you have a big job. Part of that is dealing with issues 
of public corruption.
    In the 2019 budget justification for Guatemala, USAID 
programs were to address corruption by improving internal 
controls and transparency of public financial management and 
procurement at the national and local levels. We were to help 
them increase transparency.
    How is that happening, and what is your assessment within 
the Guatemalan government? Recent actions have been tearing at 
the rule of law, violating the rule of law, tearing at the work 
that we have been focused on doing there.
    In Honduras $4.4 million were to go to NGOs to serve as 
watchdogs for government actions, to conduct social audits and 
evaluations of government programs and services, and advocate 
for reforms, and promote transparency there, again, and 
accountability.
    Can you talk about those two countries and how--what is the 
progress there? And I know that the administration was calling 
on a review of the funding within the Northern Triangle. What 
is the status of that review, the assistance that we are 
providing to the Northern Triangle?
    El Salvador has elected a new president. We are all 
hopeful. My glass is always half full. But we will see.
    Mr. Green. Thank you for the questions, and also for your 
passion for the region. We think it is very important.
    First off, you raised the issue of corruption and impunity 
in those three countries in particular, and it is right for you 
to raise and elevate that concern because it really touches 
almost every other aspect of their economy, their governance, 
and the environment that too often drives people to leave their 
homes and head northward.
    With respect to Guatemala, what I can say is some of the 
investments that we have made, the support of the special 
prosecutor's office for extortion and anticorruption, it has 
helped increase the number of final verdicts in extortion cases 
from 26 in 2015 to 512 in 2017. The number found guilty of 
extortion increased from 41 to 735 over the same period of 
time.
    Mrs. Torres. I have had several meetings with the attorney 
general in Guatemala, Ms. Porras. Those numbers sound really 
great, but we are talking about the little guy, right? We are 
talking about, you know, the little guy hitting up the liquor 
store, or the convenient supermarket, or the restaurant.
    The major cases of public corruption dealing with members 
of congress, narcotraffickers in congress, we have yet to hear 
about those.
    Mr. Green. I wish I could tell you that we had easy wins 
and victories to point to in there. It is difficult work. It is 
very difficult work. We will continue with it. I share your 
concerns and your priorities.
    Mrs. Torres. So as far as how much money has been spent in 
helping to improve the justice system, the judicial system in 
Guatemala?
    Mr. Green. I will have to get back to you. I don't have 
that number at my fingertip.
    Mrs. Torres. Okay. I apologize for not meeting with you 
ahead of time. I don't like to do the surprise questions.
    Mr. Green. We will make sure we get that to you.
    Mrs. Torres. Okay. Will you continue with Honduras?
    Mr. Green. Yes.
    So in Honduras our support has been to the Mission to 
Support the Fight Against Corruption and Impunity in Honduras. 
It has enabled the hiring of a record number of anticorruption 
judges, prosecutors, and investigators in Honduras.
    And so working closely with the national Attorney General, 
it has achieved three high-profile convictions and taken on 
three other high-profile corruption cases. So it is beginning 
to show some progress.
    And I agree with you, as you alluded to in Guatemala, sort 
of getting the big fish, if you will, is not only important for 
a sense of justice, but symbolically message-sending. So we 
will continue to push and to provide support where we can. We 
think your priorities are well-placed.
    Mrs. Torres. Thank you.
    My time is up and I yield back.
    The Chairwoman. Thank you.
    I just want to say before I turn to the next person, to my 
friend Ms. Torres, I was part of the administration's strategy 
led by Vice President Biden.
    And if I recall, Mr. Green, there was $3 billion 
appropriated over 4 years for the Triangle strategy.
    But I think you ask a very important question and I would 
love to have a follow-up meeting with you to see--I am not sure 
at this point whether all that money was spent. In some areas 
did it accomplish something?
    The reports we get back, and I know you get back, are 
extremely serious. People's lives are at stake.
    So I would like to follow up with you at some time to talk 
about that money, unless you know right now how much of that $3 
billion was spent and did it accomplish anything, before our 
friend goes to another hearing.
    Mr. Green. I don't know off the top of my head. I will make 
sure that we have a briefing for you. But that is great, and I 
really appreciate the interest. Again, it is our neighborhood. 
This is important.
    The Chairwoman. Thank you.
    And thank you. Welcome to the committee, and thank you for 
bringing up an important issue.
    And I am delighted to turn it over to Ms. Roby.
    Mrs. Roby. Thank you, Madam Chair.
    And, Administrator Green, thank you for being here. Thank 
you for your service. And I appreciate all the time that you 
spent with me yesterday. It has been a hectic couple of days, 
so I appreciate your flexibility.
    And, Madam Chair and our leader, Mr. Rogers, I just want to 
tell you how grateful I am to be a member of this committee. I 
look forward to working with all of you. This is a very 
distinguished group of members of Congress, so I am very 
honored to get to join you here in this subcommittee.
    The Chairwoman. We are honored to----
    Mrs. Roby. Thank you. Thank you.
    A couple things that we talked about yesterday, and I will 
just throw them out there and then give you an opportunity to 
respond. We had talked about some success stories between 
coordination between USAID and DOD, and I wanted to give you an 
opportunity to kind of expand on that.
    Also, as you know, my interest has been mostly focused on 
Afghanistan. Over the past 8 years I have spent quite a bit of 
time traveling there, and there are programs that are in place 
that there has been a little bit of frustration in terms of 
measuring outcomes instead of inputs.
    And one of the things that we also talked about was a 
change in the metrics of how you demonstrate that the 
investments are equating to positive outcomes. And so that also 
is of interest to me. And you can talk about that across the 
board, but you know my interest has been mainly focused in 
Afghanistan.
    And then I would leave you with just an open-ended question 
that is what do you need from Congress right now to continue 
the work of the agency? And in the immediate future what do you 
foresee as being pressing policy or budgetary matters that we 
need to be aware of so that you can continue to do the work 
that you do?
    Mr. Green. Great. Thank you.
    In terms of civ-mil relations, it is probably one of the 
best-kept secrets in terms of our work. We work very closely 
with the Department of Defense, largely in two different areas.
    First off, let me say that we have 23 staff from USAID who 
are embedded either at the Pentagon or in the Combatant 
Commands, and it has been that way for the last several years, 
certainly in crisis response.
    A few weeks into my tenure as Administrator we were 
responding to the second earthquake that hit Mexico City, and 
it was a crisis, as you can imagine. There were people trapped 
in buildings.
    After a phone call from Mexico Ministry of Foreign Affairs, 
as well as from the White House, we turned around, worked with 
our partners at DOD, and we were able to get a search-and-
rescue team there by the next morning before breakfast. That is 
a clear case of where we partner with DOD to move our 
humanitarian people the most quick, effective way that we 
possibly can.
    More importantly, we work closely with DOD in stabilization 
efforts. So in conflict zones where there is success in the 
battlefield you only really lock up that success if you replace 
the vacuum with citizen-responsive institutions that begin to 
create a culture in which people have a stake in the survival 
of the community, and that is what we do, and that is what DOD 
doesn't want to do. And so we work hand in hand.
    I traveled with General Votel to Raqqa, Syria to take a 
look at our stabilization work there. So it is a wonderful 
relationship. We think it works well, and we look forward to it 
continuing to grow.
    With respect to Afghanistan, obviously a difficult working 
environment for a number of reasons, part of what we are trying 
to do in Afghanistan is to create economic vibrancy to create 
inclusive development that stabilizes some of the areas that 
have been rocked by years of conflict. We helped the Government 
of Afghanistan launch air cargo corridors that connect the 
country to markets in India, in the Gulf, in Europe.
    We have been working with the Government of India in which 
we bring young Afghan women craftsmen, if you will, to India to 
be trained in how to market and run small businesses and then 
bring them back. And I have seen some of that firsthand.
    What we try to do in our metrics is to not so much look at 
outputs as take a look at outcomes. Our view is that every 
country wants to lead itself, and so we should take a look at 
what the impediments are to its self-reliance, recognizing that 
every country is in a different place in its journey and every 
country has got external factors that have affected it, and 
Afghanistan is certainly one of them.
    But we are working to try to build their regulatory 
capacity and their access to markets so that hopefully we have 
a vibrant market-based economy for the future.
    Mrs. Roby. My time is up, but I just--I want to ask you 
that before my next trip specifically to Afghanistan I would 
like--I would love an opportunity to sit down with you to go 
over the specific programs and really drill down so that I will 
have an opportunity to ask questions while there. So thank you.
    And thank you, Madam Chair.
    And you can respond to my last question some other time, 
but I am sure you will let us know.
    Mr. Green. Most definitely. We would be happy to provide a 
briefing and show you projects while you are there.
    The Chairwoman. And I would like to say, Ms. Roby, I look 
forward to working with you.
    And I can remember the number of girls, it was about a 
million girls who were in school. I don't know if those million 
girls are still in school, and it has become harder and 
harder--and you have been there so many times; I have been 
there several times--to actually go out and see the schools and 
see if they are there.
    In fact, I do recall an incredible Afghan woman was a 
member of their congress, and her daughter was killed not too 
long ago. You probably remember that, too, because she looked 
so much like her mother.
    The education of girls has been a key priority for us, and 
I would really appreciate the opportunity to do more and to get 
an update from you on how many girls and women are in schools 
now, and are those schools still in existence, and are they 
still enabling other girls to have that opportunity, among 
other issues.
    Thank you for your work.
    Mr. Green. The only response I have is that your priorities 
are well-placed, that inclusive development is the key to 
Afghanistan, not merely development, but inclusive development 
that creates a broader investment by all parts of the 
community. Women and girls for too long have been entirely 
marginalized, and we know that is inherently unstable and 
inherently doesn't produce the development outcomes that we all 
want to see, including the Afghans themselves.
    The Chairwoman. And there has been Ms. Roby and Ms. Davis, 
other women members--I don't know if you allow men to go with 
you on this trip.
    Mrs. Roby. Not on that one.
    The Chairwoman. Not on that one. But they have been keeping 
up on these issues.
    So I thank you, and we look forward to--I am so pleased 
that we were joined by Mr. Price. There are many hearings at 
the same time.
    So we can turn to you if you are ready to ask a question.
    Mr. Price. I think I better be ready--miss the chance 
here--I do apologize for the back-and-forth act here with all 
the different hearings.
    I want to let you know about a request that you already 
have, and I will not dwell on it because I want to move to 
another question. But we really do appreciate your long history 
with and support of the House Democracy Partnership, the work 
we do with emerging democracies in legislative strengthening in 
particular.
    I am going to submit a question for the record. I think 
your staff has already got this underway. We want to make sure 
we have a good baseline as to where legislative strengthening 
has gone on, where it is still going on, how much of this is 
USAID contracts, how much may be happening through other 
offices, and so forth. So we do want to support that work and 
would appreciate a good information baseline.
    I want to address West Bank funding, and I come to this 
with some evidence brought to me by constituents who have 
worked for many years in the West Bank, and in particular with 
a school in Bethlehem, the Hope Flowers School. These 
constituents were there a few weeks ago. They have seen the 
work done there to help Palestinian children.
    The chairman and I have visited this school some years ago. 
They have worked for years teaching nonviolence, citizenship, 
social and community skills.
    Using a USAID grant, the Hope Flowers School trained and 
provided special education teachers and therapists to work with 
Palestinian students with trauma, learning disabilities, and 
autism. They have just been awarded a new USAID grant to expand 
this work into the local community.
    Now, my understanding is without this grant the classes and 
staff helping students with autism will be eliminated, there 
will be no services for more than 200 children who get referred 
to the Hope Flowers School for diagnosis and an educational 
plan. How could anyone think cutting off that aid is in this 
country's interest?
    Mr. Green. Thank you, Congressman Price.
    What I can tell you is that we are working under the Anti-
Terrorism Clarification Act, or ATCA, as it is called. As a 
result of the passage of ATCA, the Palestinian Authority, at 
the end of January of this year, requested that we no longer 
provide funding, and so we have ended all ESF projects and 
programs funded with the assistance and under the authority 
specified in ATCA in the West Bank and Gaza.
    Welcome the chance to continue discussions with you on the 
future of West Bank-Gaza assistance. But as a result of the 
passage of that law we have been directed by attorneys at the 
State Department and USAID, and again, as a specific request of 
the Palestinian Authority to cease assistance. And so we are 
having to take a look at the very footprint of our operations 
there.
    Mr. Price. Well, there are reports, as I am sure you know, 
that USAID tried to find a workaround to allow the continuation 
of certain development assistance projects, but that request 
was denied by the White House. I would appreciate your comment 
on that.
    And also it sounds to me like a fix to the Anti-Terrorism 
Clarification Act might be indicated. Would you support that? 
What would it look like?
    Mr. Green. We would welcome an opportunity to work with you 
with respect to that legislation and any changes that you would 
seek to make.
    Mr. Price. All right. You know, the list is very long.
    One incredible--incredibly wasteful and counterproductive 
project involves Jericho: a nearly complete multimillion-dollar 
sewage network in Jericho. It is going to have to be buried 
under asphalt and abandoned, because of this pulling of aid.
    And it just seems wasteful, seems counterproductive in 
terms of this country's interest and in terms of the kind of 
effort we all should concentrate on to strengthen the forces of 
moderation and democratic development in the Palestinian 
community. Many, many frustrations here.
    But one of the bright spots has been our very targeted, 
very discriminating aid efforts, and this just appears to be a 
wrecking-ball operation, as we come in and wipe these away.
    Mr. Green. I look forward to working with you.
    Mr. Price. Thank you.
    Thank you, Mr.--Madam Chairman.
    The Chairwoman. I would like to just follow up because my 
friend--excuse me--Congressman Price makes a very important 
point.
    And, Mr. Green, assistance was stopped before ATCA by this 
administration's review. As you know, the United States is 
currently not providing bilateral aid to the Palestinian people 
in the West Bank and Gaza Strip.
    In my judgment, this is a decision that doesn't make any 
sense. It reverses more than 2 decades of bipartisan support 
for humanitarian, economic, and security assistance, and I have 
long argued that such funding with stringent conditions plays a 
critical role in improving the lives of Palestinians, helping 
to improve economic opportunity and providing stability to both 
sides in the conflict.
    I don't want to put you on the spot because I know you very 
well, but you are working for this administration. I would like 
to know what, in your view, will cutting off bilateral aid 
accomplish, putting aside ATCA. This decision was made before 
ATCA.
    And if you could share with us the impact of these cuts, 
especially on the United States' ability to influence a future 
two-state solution--that is--I am still hoping, and I have been 
working for that for a very long time--a two-state solution 
between Israelis and Palestinians. So ATCA is a problem, but 
this administration took that position before ATCA.
    And I just want to say, because I know my good friend was 
involved as well, people like Dennis Ross used to give me 
advice, lists of groups that were doing important work, which 
we funded, in the West Bank. So if you can explain to me what 
will cutting off all bilateral aid accomplish, I would be most 
appreciative.
    Mr. Green. Thank you, Madam Chairwoman.
    What I can tell you is--and you are correct. In 2018 the 
President had a review of U.S. assistance to the Palestinian 
Authority and in the West Bank and Gaza to ensure that these 
funds were spent in accordance with U.S. national interests and 
were providing value. And that review at that time froze the 
assistance that was going.
    As a result of that review we did redirect certain funds. 
And then on top of that came the Anti-Terrorism Clarification 
Act and the resulting correspondence that we received from the 
Palestinian Authority.
    So I can tell you that that is how we got to the situation 
where we are. Obviously we are all hopeful--we are hopeful, in 
particular--for a long-term solution that allows us to continue 
doing what we think is important work.
    The Chairwoman. I guess it is my turn.
    I just wanted to add to my good friend, because this is of 
great concern to me, we are waiting for this great peace plan 
that Jared and Jason Greenblatt are waiting to produce, but I 
haven't seen anything yet, and I am very concerned.
    I will say that I have met with a group like Arava, which 
is doing some important environmental work, working with those 
on every side of the issue, Palestinians and Israelis. So there 
are some groups like Arava.
    But since I am asking the question now, maybe you can 
discuss further the impact of these cuts, especially on the 
United States' ability to influence a future two-state solution 
between Israelis and Palestinians.
    And maybe you can share with us, if you have any idea. Does 
Jason Greenblatt talk with you, or Jared talk with you? Do we 
know about this great peace plan while they are cutting off all 
funds that I think is so destructive?
    Mr. Green. I don't know the details of the peace plan. It 
is no surprise to you.
    I have met with Jason just once. This was some time ago. I 
can't tell you what the pillars of that peace plan are, to be 
honest.
    In terms of a full-on description of what the review and 
what ATCA--what the ramifications are, I don't have that on my 
fingertips but I can pledge to you that we will provide a 
briefing. We don't seek to hide any of that.
    The Chairwoman. I think that would be very helpful because 
we keep hearing about this great peace plan. Then on another 
day, we are hearing, well, maybe there won't be a peace plan. 
In the meantime there is suffering, and for those of us who 
still have dreams of a two-state solution one day--and I have 
been in Congress for a long time, but it seems that cutting off 
all aid takes us backwards and doesn't move forward in a 
positive direction.
    ATCA is another story, and I think that this doesn't help 
in moving the process forward. But I would like to, and I know 
Mr. Price and others would like to, have a complete briefing. I 
would appreciate that.
    On another area, since we solved the West Bank and Gaza 
issue: The Russian government is pursuing efforts to undermine 
democracy, weaken multilateral institutions, and reverse 
economic progress. If you could share with us what role USAID 
should play in countering the malign influence of Russia in 
Europe and Eurasia, and does USAID have programs designed to 
counter Russia disinformation?
    Mr. Green. Thank you, Madam Chairwoman, for that question. 
As someone who once led an organization that was declared 
undesirable by Vladimir Putin it is an issue of particular 
relevance and significance for me.
    We are crafting and unveiling something that we call the 
Countering Kremlin Influence initiative, and it really has 
several prongs.
    Number one is economic independence by those countries 
which the--which Moscow and the Kremlin seeks to influence. So 
it is no surprise as to what they are, countries like Ukraine, 
particularly energy independence.
    Secondly, working to foster independent media and media 
literacy for markets. I have seen a number of studies that show 
what the Kremlin is trying to do in terms of their messaging 
and their media work, and most of it isn't attempting to 
convince everyone that the Kremlin is right; it is instead 
trying to undermine basic democratic institutions and to break 
apart coalitions.
    So I think we need to continue to have a concentrated 
effort to create media literacy so people can spot the 
disinformation, and strengthen those independent media tools.
    I was in Prague not so long ago and had a chance to meet 
with some of the civil society groups based in that region that 
are attempting to do this work, and we will continue to support 
them. We think it is very important.
    The Chairwoman. Since we have so few people here I can't 
resist continuing this discussion for a minute.
    How has the administration's previous proposed spending 
cuts for Europe and Eurasia affected individual missions in the 
region? Does USAID plan to close or downgrade missions in 
Europe and Eurasia?
    Did I ask that question right?
    If you could respond.
    Mr. Green. Sure. We have no plans to close missions at this 
time. We naturally adjust footprints of missions around the 
world based upon changing conditions, progress that is made in 
self-reliance, but we do not have plans to close missions.
    The Chairwoman. Now, as I understand it the 2019 request 
would have cut assistance for the region by approximately 55 
percent. I would be interested in your view as what message 
does this send to our partners in the region, and how does it 
impact your job and USAID's effectiveness in pushing back 
against Russia?
    Mr. Green. Well, inevitably cuts of that level, that 
significance, would force us to readjust operations and 
readjust our presence. Inevitably those are the costs, so yes, 
that would have forced us to reduce operations in that region 
and other areas affected by the impact.
    I obviously believe strongly in our team and our programs 
and stand up for them. On the other hand, we do the best we can 
with the resources we are provided to make them go as far as we 
possibly can and to prioritize countries on the basis of 
metrics like our journey to self-reliance. But restrictions in 
assistance certainly reduce that which we can do.
    The Chairwoman. I don't want to put you into a difficult 
position, but as you know, members of this committee choose 
this committee because they have a real commitment to the work 
of USAID and the important role of the United States throughout 
the world. So perhaps we can have another discussion and talk 
with you about how we could be helpful in advocacy and helping 
you do your job, because we know of your commitment and we have 
a great deal of faith in you, but we are very disappointed in 
some of the decisions that are being made.
    Maybe they come from a lack of interest of some people in 
the administration; maybe it comes from a real divergence in 
opinions about leadership of the United States. But I am hoping 
that we can put together a briefing, and I know my good friend, 
Mr. Price, and his Democracy Partnership have been totally 
focused on how we can help move these governments in a positive 
direction.
    So perhaps, Mr. Price, we can have a follow-up briefing, 
which would be very helpful, because we are all--and I believe 
it is bipartisan--very concerned about these cuts that are 
being made. And I would be interested to know on what facts 
they are based.
    So I thank you, and I am very pleased----
    Mr. Green. If I might, just to provide a clarification for 
the record, in Europe and Eurasia, in the case of Albania we 
will be entering into discussions on an evolving footprint 
there and what those programs look like. That is not an 
immediate mission closure decision, but just to--in the 
interest of full transparency, and this is not the first we 
have brought this to your staff, but just to be clear, we are 
taking a look in Albania at adjusting programming as they 
continue to rise in their self-reliance.
    The Chairwoman. Now I don't want to cut you off, so we look 
forward to that briefing. But if you have any other positive 
information that you care to share that isn't a cut in programs 
I am sure my colleagues on both sides of the aisle would be 
happy to extend your answer time. Or if you would rather wait.
    Mr. Green. Well, I will just say I am a big fan of the 
House Democracy Partnership, and I think it is the one program 
that is out there which allows us to not only reinforce 
democracy in countries, but also the dispersion of power. 
Oftentimes at the State Department and at the country-to-
country level, we think only chief executive-to-chief 
executive, but the value of the House Democracy Partnership is 
to build those legislative institutions that we all believe are 
the hallmark of Western democracies, and so I am a big fan of 
the work.
    The Chairwoman. Thank you very much.
    Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chair.
    Let me harken us back to the more mundane part of the world 
that deals with the bureaucracy. I know it has to be done.
    In my opening statement I mentioned my concern about a top 
management challenge that the USAID Inspector General has 
identified many years in a row now. Vulnerabilities in your 
financial management remain a challenge, she says.
    One of the issues has to do with USAID's financial 
statements and reconciliation with the Treasury Department. 
Your books show one thing and Treasury's show another. And they 
are off by hundreds of millions of dollars.
    That is something we should not ignore, and work on, and 
you have worked on it. You have made noteworthy progress, she 
says, to address the problem. And yet, it is once again 
identified in the I.G.'s fiscal year 2019 Top Management 
Challenges report.
    In coordination with the OIG, have you developed a 
remediation plan to address issues with financial 
reconciliation?
    Mr. Green. There are two different pieces to that.
    Number one are recommendations with respect to management 
of programs and grants, and yes, in that case we have been 
undertaking a number of significant reforms that will change 
the entire way that we do that.
    Secondly, what you are referring to is a historical fund 
balance with Treasury, $131 million, resulting from a change in 
our financial management systems. This resulted from USAID's 
systems not properly recording all outlays.
    There is no evidence, as the OIG confirms, that we over-
expended any of our accounts. We have identified and resolved 
the problems that have led to the discrepancies, and we are, in 
fact, working on a plan with OMB on how to resolve that 
imbalance.
    Mr. Rogers. When do you think that will be approved, 
assessed, and the like?
    Mr. Green. I am sorry?
    Mr. Rogers. When will that be concluded?
    Mr. Green. I don't know. I can't tell you for certain. But 
we are working on it actively.
    The OIG sits in our regular senior management meetings so 
we are in constant communication on that. But I will make sure 
we get back to you with a specific timeline.
    Mr. Rogers. I would encourage you to get it over with. It 
is a----
    Mr. Green. Yes.
    Mr. Rogers. Burr under the saddle that doesn't need to be 
there.
    Mr. Green. Right. But I would say, again, there is no 
evidence of an over-expending; it is a discrepancy in outlay 
timings. But we will definitely work on that and we will get to 
you a plan, a timeline.
    Mr. Rogers. Secondly and differently, you mentioned in your 
opening remarks about reorganization. We didn't give you a 
chance yet to expound on that or expand on it.
    You have a different name for it I think. What is it 
called?
    Mr. Green. Transformation.
    Mr. Rogers. Transformation. Tell us about it.
    Mr. Green. And it is called transformation at this point 
because we are in the implementation phase of the whole 
operation. So in terms of all of the measures that we have 
brought before you, the one that is furthest along is the 
creation essentially of a new Bureau for Humanitarian 
Assistance, and that is the C.N. that all four committees of 
jurisdiction have approved, and so we are in the process of 
implementation.
    Our commitment to you is to be transparent each step of the 
way so that you can see how we are doing it, doing it with full 
consultation, because we want this to be sustainable and we 
want it to last. We have provided a timeline to you that shows 
when and how we plan to take each of the steps along the way, 
again, the humanitarian assistance bureau being the furthest 
along.
    Another aspect to our transformation plans is captured by 
the Private Sector Engagement Policy that we unveiled last 
year, as well as the procurement reform that we are 
undertaking. People naturally focus on the structural changes 
because those are the most visible externally, but in many ways 
it is the, if you will, the software of our changes--private 
sector engagement, procurement reform--that I think will have 
the longest-lasting changes.
    The idea is when we are done with all this that we will 
have an agency that is more field-focused than ever before and 
is more nimble than ever before. All of the reforms that we 
seek to undertake have been led by career-led workstreams.
    We want to make it clear that it is not a political or 
partisan matter. It is a matter of taking the best ideas that 
we can find from this administration and past administrations 
and taking the opportunity of the mandate of a redesign to try 
to bring them to pass, in consultation with all of you.
    Mr. Rogers. I think there are nine pieces of your 
transformation, and you have submitted those to us. We have 
evaluated them over the last months and years even, and I think 
we have approved five of the nine.
    Mr. Green. This committee has, correct.
    Mr. Rogers. This committee has. And yet it still needs to 
be done in the full committee and wherever else.
    Is it important that we approve these changes to give you 
this transformation you are referring to? How important is 
this?
    Mr. Green. It is very important to us because it helps us 
do our work more effectively and efficiently. You know, these 
are changes that need to be sequences and will--and we know 
will take some time.
    The journey to self-reliance metrics framework is the first 
stop that we have undertaken, but certainly we are committed to 
working with you and we would like to keep these on track. But 
yes, they are very important. They will allow us to be more 
efficient in what we do.
    Mr. Rogers. Madam Chairwoman, this is something important, 
I think, for us and him--more important to him--for us to bear 
down and approve those nine pieces of this reorganization so we 
can get on with a better way of doing business.
    Thank you.
    Mr. Price. Thank you, Madam Chairwoman.
    Let's turn to the Northern Triangle countries of Central 
America. Our foreign policy and our immigration policy in 
recent years has focused on these countries by virtue of the 
migrant flows, the huge numbers of families, women and 
children, unaccompanied children that have sought refuge in 
this country, have come north and turned themselves in, 
usually, at the borders and sought refugee status.
    I remember when this first occurred, when this pattern 
first became apparent. Ms. Granger led a CODEL to Guatemala and 
Honduras and the then commander of Southern Command, General 
Kelly, flew to Guatemala City to confer with us. I will just 
speak for myself. It was the first time I had focused on the 
need for in-country support, in-country assistance in these 
Triangle countries to make life more tolerable, to make life 
more secure, yes, but also to invest in health, education, 
other things that made it more desirable and feasible and safe 
for people to remain in those countries and not to seek to 
migrate.
    And General Kelly, others from across the political 
spectrum, had a large influence, as you know, on the Obama 
administration and on Congress. And in fiscal years 2016 and 
2017 we worked with the Obama administration to increase 
assistance to that region by something like 50 percent. And it 
was a diverse package of assistance, but a lot of it had to do 
with conditions in the home countries that would enable people 
more safely and securely to stay there.
    When the Trump administration came in and set up their 
first budget, they proposed slashing assistance to each of 
those three countries. It was a devastating budget. I remember 
asking General Kelly how he accounted for this and he really 
couldn't account for it.
    But whatever the reasons were, it was a devastating 
proposal and totally, totally ignored the reasoning--the very 
sound reasoning, I think--that had gone into those increases.
    Now, I give Mr. Rogers a lot of credit for this: Congress 
did not accept those budgets. Congress restored funding in 
Guatemala, Honduras, El Salvador in many respects. We didn't 
fully do that. There has been a decline since 2016 and 2017, 
but the worse of the damage was avoided.
    On the other hand, the potential of this has not been 
realized, and so now we are awaiting another budget. We hope 
that the past is not the prologue here, but we will see what 
the new budget looks like with respect to this item.
    But I want you to comment on it. You are someone in a very 
good position to know what might be feasible here. I don't mean 
budget-wise. I mean feasible in terms of having the desired 
impact.
    This clearly isn't a border security problem mainly. And so 
that is the--of course, realizing that we have in the past 
looked at the situation in the home countries and how to make 
some impact on that.
    So I wonder what you think the potential there is and what 
the consequences should be for the way with think about our 
foreign affairs budget in the Triangle region.
    Mr. Green. Thank you for the question.
    So what we are--well, first off, as you know as a general 
matter, what we are trying to do in the region is to tackle the 
conditions that you and I both believe are drivers of irregular 
migration: problems of crime, problems of lack of economic 
opportunity, problems of a lack of meaningful education and 
workforce skills, and also governance in all of this enhanced 
by corruption.
    Two things that we are trying to do that I think--I hope 
will make our programs even more effective.
    Number one is trying to target our investments in those 
places the statistics tell us are the origins of many of those 
fleeing and heading north. So we are working with Customs and 
Border Protection to try to identify geographically what those 
communities are.
    Secondly, we are putting into our programs in the 
performance evaluation trying to measure the impact these 
investments have on those who are heading north so that it is a 
little bit better tailored. You and I both believe that the 
investments that we have been making are important and are 
having a positive effect. What we are trying to do is make that 
more precise so it is easier to document and we can make sure 
that we are placing them right where they need to be in terms 
of those investments.
    Mr. Price. General Kelly, at about the time we visited, had 
written a much-circulated article for the Military Times. You 
may remember that. And he didn't quite use the term, but the 
implication was that something like a Plan Colombia was 
required for the Triangle countries in order to have the 
desired impact with all hands on deck, in terms of government 
agencies and forms of support.
    We seem some distance from that now, but the prescription 
still may be on target. And so I think the kind of approach you 
are talking about--of course the funding level is important, 
but also a discriminating appreciation of what kinds of aid 
have the most impact and where we should be targeting our 
efforts, that is important, as well.
    So we simply must work with you on this, and we appreciate 
your attention to it.
    The Chairwoman. First of all, I want to say thank you to my 
colleague. When Ms. Torres was here we were talking about that, 
because I remember I was part of that Biden team and I was 
looking at the numbers: $750 million 2016, $650 million 2012, 
$600 million 2018, $527.8 million, total of $3.528 billion for 
4 years.
    Given the administration's focus on immigration, I know the 
administration would like to increase those numbers to provide 
assistance. I should keep the smile off my face when I say 
that, but these are important discussions, and I know we all 
are concerned with what is happening in that region of the 
world.
    And having been part of the original effort, I think it is 
important to Mr. Price, myself, both sides of the aisle that we 
have an in-depth briefing. What did we spend? What did we 
accomplish? What can we do differently?
    And I thank you again. The importance of this issue is 
clear to this committee.
    Thank you for bringing this up again, and I know Ms. Torres 
and many of us will work on it, so thank you so much.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    Mr. Administrator, let me just put everything else I have 
got on the table and then we will try to unpack as much as we 
can: Haiti, Colombia, Farmer-to-Farmer, and the new DELTA Act.
    Let me start with Haiti. Maybe if we have a little time to 
get to Russia after all that.
    As I know you are aware, Haiti is one of the larger 
recipients of United States aid, and understandably so. The 
conditions there of, again, structural poverty, being in our 
neighborhood, is just such a deep scandal for so many of us. 
The country's dislocations, the current political upheaval, and 
on and on, make your work there both very important and very 
difficult.
    But one of the underlying issues, obviously--well, not--it 
is not obvious; this is a problem--is the border area between 
the Dominican Republic and Haiti. The consequences of economic 
dislocation because of the, let's say, underground movement of 
goods there or--movement of goods there that defy both market 
logic and disrupt the economy of Haiti are one of the key areas 
in which I think we need to focus on. We put in the bill last 
year some considerations in this regard. Could you address 
that?
    Let me secondly move to Colombia right quick. One of the 
principals in the Colombian congress had spoken to me one time 
about if they just reforested the acres that they have lost due 
to the FARC and that war against them, that that could 
potentially offset 20 percent of the emissions in the United 
States. Again, reforestation is a part of the broader 
conservation set of initiatives, actually gets us all to a 
place where we agree on the approach to environmental 
stewardship and the impact of manmade activity on the 
environment.
    Farmer-to-Farmer, my predecessor, Congressman Doug 
Bereuter, who I happened to see this morning, conceived of this 
idea. A great concept linking farmers across America who have 
expertise with some of the world's poor to help them advance.
    As we look at Feed the Future countries and better 
coordination of strategy there, using a program like Farmer-to-
Farmer as a pull strategy, that actually implements two things: 
our expertise worldwide to fight against hunger and create the 
right types of long-term structural development there in the 
agriculture space, but also enhancing diplomacy to me is the 
right thing to do.
    We tried to reform Farmer-to-Farmer in the Farm Bill. We 
got part of the way there.
    Part of a metric that I think we need to use is what we 
call yield gap analysis, which actually can determine whether 
or not what we are doing in Feed the Future countries is 
actually resulting in the outcomes that we want to see in terms 
of addressing the needs of poverty and hunger.
    Finally, the DELTA Act. Very proud of this initiative. You 
are familiar with it: Defending Economic Livelihoods and 
Endangered Animals. What we have done here is basically create 
the possibility of a transnational--tri-national conservation 
area between Botswana, Angola, and Namibia to protect the 
extraordinary ecosystem of the Okavango Delta.
    Beyond that, though, thinking about, again, the creative 
ways in which conservation and preservation of delicate 
ecosystems actually lead to economic livelihood, and then 
promote almost unimaginable possibilities in new emerging 
diplomatic relations in areas in which we in the past have had 
some difficulties.
    So you got a minute and 30 seconds to do all that.
    Unless, Madam Chair, you will be kind enough to extend me a 
little flexibility.
    The Chairwoman. Always my pleasure.
    Mr. Green. And thank you for the questions.
    I traveled to Haiti in December, and it wasn't really until 
that trip that I took that I began to appreciate just how much 
the dysfunctional border between Haiti and Dominican Republic 
impacts the economic prospects in Haiti. It is hard for me to 
see Haiti becoming at all self-reliant as long as you are 
having the problems that we are of smuggling of goods and 
ineffective revenue collection in that D.R.-Haiti border.
    Mr. Fortenberry. Can I stop you there?
    Madam Chair, would you be willing, perhaps with Ms. Lee, to 
go deeper into this issue? Because all of the good work that 
the administrator and we are trying to do in Haiti is impacted, 
or undermined potentially, by this singular problem. And it is 
a severe dislocation but it is not well-known.
    The Chairwoman. I won't go into detail, but I think you 
probably remember that we had a briefing--was it about a year 
ago or 2 years ago?
    Mr. Fortenberry. Four years ago.
    The Chairwoman. But two of the best people USAID has ever 
had that were assigned to Haiti. They were extraordinary.
    Now, I went on my honeymoon to Haiti a long time ago.
    Mr. Fortenberry. Really?
    The Chairwoman. I have also been to the Dominican Republic.
    Mr. Rogers. And look what happened to the economy. 
[Laughter.]
    The Chairwoman. But I would like to say that was probably 
one of the best briefings I ever had. And I think what you are 
saying is important because I was so proud of our 
representatives. I wish I could say that the results equaled 
the talent and expertise of our representative.
    We can go into this further, but I would be most eager to 
work with you to get--I think my good friend, Mr. Rogers, was 
there as well, and----
    Mr. Fortenberry. For your honeymoon, too? [Laughter.]
    The Chairwoman. Not on my honeymoon.
    It is a good thing I could be excused because my voice is 
so bad you don't understand what I am saying anyway.
    But I would like to follow up with you. All I am saying, it 
seems to me we have this discussion, we put some of the best 
people there, and unfortunately the progress doesn't measure 
the talent. And I would love to have further discussions.
    Mr. Fortenberry. Okay. The point of raising it and using so 
much time is, again, if you could help us help you with the 
right kind of language embedded in our bill that addresses 
this--because again, we did so as a first step last year, and 
of course that bill is just being implemented--it would be 
helpful to us.
    I don't pretend to have a fullness of an answer here. I 
just know this is a problem. And we have a huge investment in 
Haiti, but the preconditions for that investment to be made 
whole rely on this--an--a successful outcome here. So can you 
help us?
    Mr. Green. Yes, I don't disagree with you. This last trip I 
think really laid that bare for me.
    I met some young entrepreneurs. You know, they are working 
hard at it. You saw some economic growth, but they were being 
undercut by smuggled goods and they can't rise. I mean, it is 
impossible to have a full, vibrant economy with a dysfunctional 
border like that.
    So you have my commitment. We are starting to put together 
a working group. Haiti is a country that has tremendous 
bipartisan support. We all want to see success, so I would very 
much like to take it on with all of you.
    Mr. Fortenberry. Okay.
    Reforestation, Farmer-to-Farmer, and DELTA.
    Mr. Green. Farmer-to-Farmer, we have expanded the grants 
from Fiscal Year 2018 and we are trying to embed that more with 
our cutting-edge research capabilities. As the son-in-law of a 
farmer and a believer in farm diplomacy, we want to keep 
expanding it. We think it is like the Peace Corps, it is 
American diplomacy at its best.
    Mr. Fortenberry. Let's brand it.
    Mr. Green. And----
    Mr. Fortenberry. I think the brand has been lost.
    Mr. Green. Let's work on that.
    And in terms of reforestation, we think this is--it is 
sound from a biodiversity point of view, but it is also really 
important economically. Unless we create economic self-interest 
in the areas around these parks there is no reason that parks 
and forest land are going to survive.
    Creating economic vibrancy so that people have a stake in 
the park's survival is key. We have seen it work in so many 
places. So we would like to reinforce that.
    Mr. Fortenberry. So you will have an implementation plan on 
the DELTA Act?
    Mr. Green. Sure, yes.
    Mr. Fortenberry. Okay. Thank you.
    Thank you, Madam Chair.
    The Chairwoman. To be continued.
    Mr. Fortenberry. Yes, ma'am.
    The Chairwoman. Ms. Roby.
    Mrs. Roby. I will be brief and allow you to answer the last 
part of my previous set of questions.
    But, Madam Chair, one of my children once complained about 
not wanting to go to school and said, ``Why do you not have to 
go to school, Mom?'' I think today's hearing is, as are many, 
is evidence that we learn a lot in this job every single day, 
and I am grateful for the opportunity to continue to work on a 
deep dive with all of the specifics of these very necessary 
programs that exist throughout the world.
    And so again, I just can't tell you how grateful I am to be 
here, and I appreciate you taking the time to be with us.
    The last part of my question was very open-ended, and we 
will give you an opportunity to tell us what you want us to 
know, but how can Congress--what do you need from Congress 
right now to continue the important work of your agency? And in 
the immediate future, what do you foresee as being a pressing 
policy or budgetary matter that you want us today, here right 
now, to be aware of?
    Mr. Green. I think it is continued attention to at least 
one aspect of Ms. Lowey, the Chairwoman, has begun to address, 
and that is how we provide basic services to displaced 
communities.
    What I always tell people, what truly worries me and gets 
me up in the middle of the night is the fact that we have 70 
million displaced people in the world. We have children being 
born in camps, raised in camps; we provide nutrition but we are 
not adequately tending to their needs to keep their 
connectivity to the outside world so that someday, God willing, 
the fence comes down, the gate opens up, they are able to be 
productive members of whatever society they are in.
    So I am really worried about providing service in conflict, 
post-conflict, and crisis settings. With the Chairwoman's 
leadership we have been able to use the generous education 
funding to begin to address that. We are just scratching the 
surface. We have a long way to go.
    That is the single most important challenge I would point 
to for all of you.
    The Chairwoman. Well, I thank you and I know you had a hard 
stop at 12 noon. But I really do appreciate the wisdom of all 
the members of this committee.
    And I would just say in closing, I hope this is not 
difficult for you, but I would hope you would give us a budget 
request that is real.
    Mr. Green. Sure.
    The Chairwoman. So let me also say I appreciate your 
leadership. I thank you for your time.
    As you can see, there is a lot of depth of all these 
members. They are interested in these issues, and I am hoping 
we can continue this discussion informally and help you by 
giving you the resources we need and the technical assistance 
that you need, frankly, to do the job.
    So I thank you so much.
    I thank you, for both sides of the aisle, for your wisdom. 
There is so much interest here and we look forward to 
continuing to work together.
    And I hope our throats clear up. I hope you feel better. 
Thank you very much. Thank you.
    Okay, I have to say this concludes today's hearing. The 
Subcommittee on State, Foreign Operations, and Related Programs 
stands--it stands adjourned. Thank you.
    [Questions and answers submitted for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                         Wednesday, March 27, 2019.

        DEPARTMENT OF STATE BUDGET REQUEST FOR FISCAL YEAR 2020

                                WITNESS

HON. MIKE POMPEO, SECRETARY, DEPARTMENT OF STATE

                 Opening Statement of Chairwoman Lowey

    The Chairwoman. The Subcommittee on State, Foreign 
Operations and Related Programs will come to order.
    Secretary Pompeo, while it has taken some time for you to 
come before the subcommittee, and we realize you are traveling 
all around the world, I do want to thank you for joining us 
today. It is important that this subcommittee, with direct 
jurisdiction over your Department's funding, hears from you on 
the fiscal year 2020 budget.
    Before I address the President's inadequate 2020 budget 
request, I must respond to the Mexico City announcement you 
made yesterday. Your additional expansion of the Global Gag 
Rule compromises our ability to support comprehensive, life-
saving care to those most in need. International NGOs should 
not be forced to choose between accepting life-saving 
assistance from the United States or providing legal 
comprehensive care with their own funds. This policy expansion 
could dramatically impede the effectiveness of our foreign 
assistance and life-saving programs. Not to mention this type 
of coercion runs contrary to the basic tenets of freedom that 
our country was founded upon. Excuse me. I hope you are good 
and healthy and don't have this cough.
    Now, I want to address your recent comment that President 
Trump has ensured that the State Department has the resources 
it needs. Frankly, I find it hard to fathom when his first two 
budgets propose cuts to diplomacy and development by more than 
30 percent and the current request proposes a cut of 21 
percent. These are resources that the State Department needs. 
The State Department has never had to operate under the 
draconian levels proposed by the President as they have never 
been approved by the House even in the Republican majority.
    This committee consistently provides bipartisan support to 
maintain United States global leadership. I am astonished that 
3 years into his administration, the President still does not 
appreciate the merits of sustained investments in diplomacy and 
development.
    Mr. Secretary, I have seen firsthand how United States 
foreign assistance alleviates suffering and promotes stability. 
Our efforts, as you well know, save lives, promote good will 
and partnership, and support American investments and national 
security.
    If the President's budget were enacted, it would undermine 
U.S. leadership and stymie worldwide efforts to counter violent 
extremism, terrorism, and disinformation. As you know, there is 
tremendous turmoil around the globe, including increased 
attacks on democratic principles such as: freedom of the press; 
the rule of law and the right to free and fair elections; 
millions of refugees and internally displaced persons 
throughout the world; the chaotic situation in Venezuela; the 
continuing reign of terror of the murderous dictator Bashar al-
Assad in Syria; a rapidly expanding global population, which 
further exacerbates conditions that contribute to hunger and 
poverty, which can lead to conflict and migration; the spread 
of infectious and neglected tropical diseases, some of which 
are becoming drug resistant; and, lastly, ongoing threats posed 
by North Korea, Russia, Iran, and China that undermine the 
security and prosperity of the United States and our allies.
    Mr. Secretary, not one of these dangers is positively 
addressed by shortchanging the federal agencies tasked with 
executing United States foreign policy. Additionally, I am 
concerned about the long-term damage this administration is 
inflicting on State and USAID through policies that reduce 
response time, result in inadequate staffing levels and low-
staff morale, and prevent partnerships with some of the most 
capable and experienced implementers.
    There is no better example than the Kemp-Kasten 
determination against UNFPA which undermines our effectiveness, 
making it harder to reach people who need us the most.
    I am also very troubled that President Trump seems to view 
foreign assistance as a reward to our friends and its 
withdrawal as punishment to our enemies. Moreover, the 
administration's approach to multilateral engagement at the 
United Nations, the World Bank, and elsewhere has been 
reactionary and shortsighted at best.
    These self-inflicted constraints compromise the quality of 
our efforts, make it harder to maintain American leadership in 
the world, create risk to our national security and are a 
disservice to the American taxpayer.
    Our national security is strongest when development, 
diplomacy and defense are all well-funded and equally 
prioritized. As Chairwoman, I intend to work with my colleagues 
to reject the insufficient request and maintain responsible 
investments in foreign aid.
    Before we move to your testimony, I would be delighted to 
turn to Mr. Rogers, the Ranking Member, for his opening 
statement.
    Mr. Rogers. Thank you, Madam Chair.

                     Opening Remarks of Mr. Rogers

    Mr. Secretary, welcome back to your old stomping grounds, 
the House, on the Hill. We are proud of your service here in 
the House when you were here, and we are delighted to see one 
of us has--done good.
    Mr. Secretary, I firmly believe that strong investments in 
diplomatic and development programs are a central component of 
our national security. In fact, our most senior military 
commanders have told us time and again that these critical 
tools help provide the means by which we prevent the need for 
military intervention. That is why I was once again 
disappointed, frankly, after reviewing the budget request for 
programs funded by this subcommittee. You say in your 
congressional budget justification that the request prioritizes 
the security of U.S. citizens, increases American prosperity, 
and supports our allies and partners. I believe you would see 
more support in Congress if the proposed funding level matched 
that rhetoric.
    Instead, the request is a cut of nearly $11.5 billion, 21 
percent, from fiscal year 2019. Although this year's 
international affairs request represents some improvements from 
the previous two fiscal years, it is still woefully inadequate 
to achieve the administration's foreign policy and national 
security goals. I wholeheartedly agree that taxpayer dollars 
must be used wisely and that programs need to be more effective 
and efficient. Lord, yes. I am committed to working with you 
and the State Department to find the best ways to do that. But 
if we were to accept cuts of the magnitude proposed, it would 
make our nation less safe, and make it harder to achieve the 
effectiveness we all seek. In particular, deep reductions are 
proposed to important priorities like security assistance, 
global health, democracy promotion and even lifesaving 
humanitarian assistance.
    These programs demonstrate the character of our country. 
Given what the world looks like right now, this approach seems 
detached from reality. During a time of record displacement of 
individuals and families, a growing number of countries facing 
instability and rising geopolitical tensions, U.S. leadership 
abroad is even more critical. The budget request we have before 
us will simply not get that job done.
    That being said, there are some proposals in your budget I 
fully support and hope we can pass, including the $3.3 billion 
for Israel, reflecting our steadfast commitment to Israel's 
security and military strength. I am also pleased to see $1.3 
billion requested for Egypt's Foreign Military Financing. 
Yesterday, we celebrated 40 years of peace between these two 
American allies, who have achieved much together, despite 
perpetually high tensions in that region. I appreciate your 
continued prioritization of these relations, Mr. Secretary.
    I also note that the budget request appears to have moved 
beyond the proposed cuts of personnel levels we have seen in 
prior years. There is still a long way to go to make up lost 
ground from the hiring freeze but I applaud this progress, 
nonetheless.
    Another priority is the management and oversight of the 
Department. I continue to believe there needs to be a position 
at the highest levels that brings together both operations and 
assistance. And you and I have had this conversation several 
times. But right now, these two sides of the House don't really 
talk. And that continues to hamper the Department's ability to 
address its management challenges.
    Ultimately, the Legislative Branch has the responsibility 
to equip leaders like yourself with the resources that you need 
to advance our economic and security interests. And so we are 
eager to hear from you on these important funding issues today.
    I also look forward to hearing about your travels. You have 
just returned from the Middle East. We are interested in your 
impressions while there. Iran's continued nuclear pursuits, 
missile development, and support for terrorist activity, weigh 
heavily on our minds as well as yours.
    Before that trip, you were in Asia. We all want to see 
North Korea denuclearize and hope that the people of North 
Korea might one day experience freedom and prosperity. China's 
role in how that turns out is questionable as are their motives 
throughout the globe. The Chinese government's practice of 
predatory lending to developing countries is not just immoral, 
it has real security consequences for our partners in the 
region and beyond. I may return to that during the question 
period but I fear much of the world is not awakened to the 
reality of the potential damage China could do to international 
security.
    You have also visited Europe this year so we would 
appreciate your update on how we can help assure and defend our 
allies and partners in Europe. The Russian bear only 
understands strength. We must do everything in our power to 
help our friends in Europe stand strong to resist rampant 
Russian aggression on all fronts.
    Lastly, you returned from Latin America at the beginning of 
January. The outcome of the current crisis in Venezuela will 
shape the future of that region for decades to come. We must 
remain in solidarity with the people of Venezuela and the 
democratic interim government. A free and democratic Venezuela 
that can restore what once was a thriving economy is the first 
step to addressing many of the other challenges in the 
neighborhood, including combating transnational criminal 
organizations and stopping the flow of drugs into this country. 
We can't let Maduro and his cronies further destabilize that 
whole region.
    Finally, before I close, I want you to know you have my 
unwavering support for your efforts to protect the rights of 
the unborn. We were not provided with the details of your 
announcement yesterday, but I look forward to receiving a full 
readout of your plans.
    Secretary Pompeo, I want to thank you again for your 
service to our country as well as the men and women of the 
Department. I hope you will continue to engage with our 
subcommittee as we begin our work for fiscal year 2020. This is 
a partnership and your input is appreciated and valued. And we 
will be a true partner with you.
    I yield back.
    The Chairwoman. Thank you.
    After the secretary presents his testimony, I will call on 
members based on seniority of members present when the hearing 
was called to order. I will alternate between majority and 
minority. Each member is asked to keep questions to within 5 
minutes per round; we will be doing two rounds today.
    Mr. Secretary, we will be happy to place your full 
testimony in the record. If you would be kind enough to 
summarize your oral statement, I want to make sure we leave 
enough time to get to everyone's questions. But Secretary 
Pompeo, please proceed as you wish.
    Secretary Pompeo. Chairwoman Lowey, thank you. I will 
absolutely summarize.

                  Opening Remarks of Secretary Pompeo

    Chairwoman Lowey, Ranking Member Rogers, thank you. 
Distinguished members of the subcommittee, thank you for being 
with me this morning and thanks for the opportunity to discuss 
the president's F.Y. 2020 budget. I am glad I am here. It is 
the first hearing in front of the 116th Congress and I am glad 
it is with you all.
    In order to support the president's National Security 
Strategy and achieve our foreign policy goals, we this year 
submitted a request for $40 billion for the State Department 
and USAID. It will protect our citizens at home and abroad and 
advance American prosperity and values. It will support our 
allies and partners overseas. And you should know there are 
difficult choices when budgets are to be made. You face these 
constraints too and we should always be mindful of the burden 
that American taxpayers have and our obligation to deliver 
exceptional results on their behalf.
    This budget request will help us achieve our diplomatic 
goals in several ways. First, we will make sure that China and 
Russia cannot gain a strategic advantage, in an era of renewed 
Great Power Competition; we will continue our progress towards 
the final, fully verified denuclearization of North Korea; and 
we will support the people of Venezuela as they work toward a 
peaceful restoration of democracy and prosperity in their 
country.
    We will also continue to confront the Islamic Republic of 
Iran's maligned behavior and we will help our allies and 
partners become more secure and economically self-reliant. And 
I will also make sure that our world-class diplomatic personnel 
have the resources they need to execute American diplomacy in 
the 21st century.
    I look forward to continuing to work with each of you on 
these key foreign policy priorities and many more issues as 
well. I want to allow enough time for questions, so I will keep 
these remarks short.
    With that, I look forward to taking questions from you, 
Madam Chairwoman, Ranking Member, and other members of your 
committee. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you, Mr. Secretary. There are so many 
questions and I know our members are eager to have a 
conversation with you.
    Firstly, I want to say I really do appreciate the time you 
have spent with allies in the Middle East in an effort to 
strengthen our partnerships. However, I do have concerns 
regarding the direction of our policy under this 
administration.
    Let me start with an issue I have worked on during my 
entire career in Congress, Arab-Israeli peace. Do you support a 
resolution to this conflict that results in two states with two 
peoples living side-by-side in peace and security and mutual 
recognition?
    Secretary Pompeo. A year while I have been the Secretary, I 
have the simple, realistic goal of providing a vision for the 
Israelis and the Palestinians to find their path forward. What 
that path will be will certainly be up to them. But we have 
been at this a long time, as you described it, we have been at 
this decades, to try and resolve this incredibly complicated 
issue. I think we have some ideas that are new, and fresh, and 
different and we hope that those will appeal not only to the 
Israelis and the Palestinians, but to the larger set of threats 
that have prevented this conflict from being resolved over the 
past years and decades.
    The Chairwoman. I appreciate your commitment, I appreciate 
your answer, and I do look forward to working with you because 
I remember being on the White House lawn when Yitzhak Rabin and 
Yasser Arafat were shaking hands. The contours of any agreement 
have historically focused on borders, settlements, Jerusalem 
refugees and mutual recognition. Are these still the parameters 
around which you believe the two sides would return to the 
negotiating table?
    Secretary Pompeo. I guess I would say two things. First, 
those are the parameters that were largely at hand in the 
discussions before and they led us to where we are today, no 
resolution so we are hoping that we can actually broaden the 
aperture, that we can broaden this debate. The goal, it is a 
goal founded in the facts on the ground and a realistic 
assessment of what will get us a good outcome. How can we make 
the lives of the Palestinian people better? How can we do the 
same for the people of Israel? And how can we find a path 
forward so that this historic challenge that has presented 
conflict and risk throughout the Middle East for decades can be 
resolved?
    The Chairwoman. I appreciate that answer, and I want to 
make it very clear, given the demographics in the West Bank and 
Gaza and given Israel's longstanding democratic principles, 
wouldn't you agree that a two-state solution is the best way 
for most people, for both people, to coexist peacefully and 
with dignity?
    Secretary Pompeo. If you will permit me to demur again, you 
will see this administration's vision. And then ultimately, it 
will be the peoples of those two lands that resolve this and 
make that decision about how it is they will come together and 
what the contours of that resolution will look like. Our 
mission set is to help them with new ideas, fresh ideas to 
create a real opportunity that America and others who have 
tried to resolve this have not been able to do for years, and 
years and years.
    The Chairwoman. Thank you. I know we will be continuing 
that discussion.
    I want to address one other issue quickly, because by the 
end of fiscal year 2019, the United States will owe 
approximately $1.1 billion in arrears to the United Nations, 
roughly $750 million of which comes from fiscal year 2017, 
2018, 2019 and $328 million prior to fiscal year 2001. The 
failure of the United States to pay its bills has delayed 
payments to countries whose troops support peacekeeping forces, 
raising concerns about the sustainability of the U.N. 
peacekeeping system. And just three months ago, the United 
States supported the General Assembly's new scales of 
assessment, which slightly lowered the U.S. peacekeeping 
contribution to 27.89 percent for the next three years. Yet, 
the fiscal year 2020 budget request would support a rate of 
only 16.2 percent, and this doesn't reach the assessment rate 
agreed upon in the 1990s, not to mention what the U.S. just 
agreed to. Why don't we make good on the agreements that we 
just made?
    Secretary Pompeo. So, Madam Chairwoman, we are working our 
way through this. I have had a handful of discussions with 
Secretary General Guterres on this issue.
    It is the case that this administration is trying to get 
others to step up, particularly I think you mentioned with 
respect to U.N. peacekeeping costs, others to step up and share 
this burden. We think that is important. We have been working 
on this. We continue to work at this.
    The leadership at the U.N. acknowledges that there has been 
a historic imbalance with respect to how this how this has been 
done and our efforts continue. We still pay far and away the 
largest share of those forces. We have done so for decades. We 
did so last year as well. And I am confident we will do so 
again this year.
    The Chairwoman. Thank you, Mr. Secretary.
    Mr. Rogers, we are delighted to hear from you.
    Mr. Rogers. Thank you, Madam Chair.
    Mr. Secretary, it was about 30 years ago that I led a 
delegation to Indonesia, and one of the stops we made was Bali, 
and we had a rare meeting with the man known as the Prince of 
Bali. He was known that way because he would have been the King 
of Bali had they not been absorbed into Indonesia. But a sage, 
a wise, old man, he was probably at that time in his mid-80s. 
He was one of the founders of SEATO. And he agreed to meet with 
us, which was a rare occasion for him, in his compound, because 
he was worried about a decreased presence of the United States 
in his region. We had a long talk over cigars after a wonderful 
meal. But he had the theory that China was out to assemble all 
of the countries and people whom they deemed were Chinese 
descendants, which included Bali.
    Now we are seeing that prophecy come to life. The military 
preparedness that China has invested in the Indo-Pacific is 
overwhelming. They are able to bully many of these peaceful 
Asian countries with economic enslavement with what is it 
called? The Belt and Road Initiative, the economic investment 
that they make in a country and then jerk out that financing at 
a later time. What are we doing in Indo-Pacific to be sure that 
we protect the people like the Prince of Bali and all of the 
millions of people in that region from being dominated by the 
bully China?
    Secretary Pompeo. Mr. Ranking Member, I think he was ahead 
of his time in recognizing this threat. And I think the United 
States and indeed, the Western world didn't pay attention to 
this in the way that was necessary. We are hopeful our 
administration has made substantial steps in--that. You saw it 
in our National Security Strategy. We changed the way we think 
about China from a national security perspective.
    We all know the important economic relationships that the 
United States has with China. And happy to compete around the 
world with them when it is fair and transparent and under the 
rule of law. But the increasing risk that China poses to the 
United States and the West is real, and it is even more true in 
their backyard. And I hear that each time I travel throughout 
Asia or Southeast Asia. They want the United States there.
    So we have put forward what we have called our Indo-Pacific 
Strategy, and it has a handful of components to it. Certainly, 
one piece is the capacity of our military to be able to ensure 
that we have free and open navigation of waterways there. But 
there is also an enormous component that is diplomatic. It is 
America being present. It is us assisting our companies, 
ensuring that when there is a bid tender in Indonesia or 
Vietnam or in Australia or Japan or South Korea that the 
competition's fair and free, and that the Chinese showing up 
with that diplomacy or, worse yet, corruption and bribery isn't 
something that drives the rule of law and transparency out of 
the way.
    We are committed to and I will be travelling to Asia, at 
least I plan to twice here before the middle of the year to 
continue to work to develop this. We work through ASEAN. It is 
central to this effort. The ASEAN nations are more aware of 
this risk today, and we also have the mission to make sure that 
we share with them our understanding of these threats and help 
them understand the facts as they really are.
    Mr. Rogers. Well, the Prince of Bali was concerned 30 years 
ago that we would vacate the region and leave them at the mercy 
of the Chinese. So the American presence there was what 
concerned him. And I heard the same story that you have as 
well, of course. Vietnam, Malaysia, Singapore, you name it, 
they have the exact same feeling toward China that I found on 
Bali.
    Our military people tell me that this has to be a whole-of-
government approach that we make in Indo-Pacific; that the 
State Department, USAID, all of the agencies of the federal 
government, including the military, must be present there in a 
unified, holistic approach to the problem. Do you agree with 
that?
    Secretary Pompeo. I do.
    Mr. Rogers. I think It is important that we maintain that 
South China Sea presence that we have historically. I think 
that is very symbolic to the Asian people that we are there, 
and we intend to be there in defense of their freedom so I 
thank you, Mr. Secretary, for you service and your travels. 
Welcome back to your old home.
    Thank you.
    Secretary Pompeo. One last thing to say. The legislation 
that you all passed last year, the BUILD Act, and now 
resourcing the BUILD Act will prove an important component of 
our efforts that you just talked about, the need that we have 
to ensure that countries understand that America is there and 
present and we will continue to be so.
    Mr. Rogers. Good, thank you.
    The Chairwoman. Ms. Meng.
    Ms. Meng. Thank you, Madam Chairwoman and Mr. Ranking 
Member.
    And thank you, Secretary Pompeo, for being with us today.
    I wanted to ask about refugee funding. I am concerned that 
a 24 percent across-the-board cut is not only irresponsible but 
dangerous to our national security. As you know, there are 
currently more people who have been forcibly displaced than any 
other time in our history--68.5 million according to UNHCR. At 
least a whole generation of children have been born and will 
live their formative years in refugee camps. Since the 
president has dramatically reduced the role of the U.S. as an 
option for resettlement, the role of the U.S. government in 
this context has become increasingly political and diplomatic. 
I am concerned that decoupling refugee programming from the 
diplomatic efforts of the State Department by transitioning 
almost all MRA money to the International Humanitarian 
Assistance Bureau will reduce the effectiveness of U.S. 
diplomacy on refugee issues. How do you envision the balance 
between the diplomatic and development roles required in U.S. 
engagement on refugee issues?
    Secretary Pompeo. Appreciate that question. There is a 
lively debate about how that ought to proceed. I have come to 
my conclusion. The State Department needs to be at the front of 
that, needs to be needs to be incredibly involved in those, 
need to be incredibly well-connected so that we execute the 
U.S. policy on this appropriately. I will say today I believe 
that is happening. I will give you an example from the last--
what is today? Wednesday, the last 5 days I was in Lebanon 
talking about approximately 1.5 million Syrian refugees that 
are in Lebanon today, the burden that places on Lebanon, the 
cost, the risk that presents to Lebanon and its democracy and 
it was the State Department leading that discussion about how 
we can get the conditions right on the ground inside of Syria, 
how the United States and our Arab and Western partners can get 
the conditions right on the ground in Syria, such that those 
refugees can return to their homes.
    And that is the mission set that Lebanese people want. I 
frankly believe it is best for those individuals, as well. But 
we have got to make sure that the conditions are right, and it 
is something that the United States Department of State will be 
at the front of.
    Ms. Meng. I appreciate you saying that you are prioritizing 
it. I am concerned that we will not be able to do that if so 
many resources have been stripped from the State Department. 
Have duties of PRM already begun being transitioned to USAID?
    Secretary Pompeo. You know, I don't know the answer to--I 
want to make sure I give you an accurate answer to that. If I 
may get back to you, I would prefer to do that.
    Ms. Meng. Yes, that would be great.
    Secretary Pompeo. It could be that not in a significant 
way, but it could be that there is a handful of things that--
that have happened that you might characterize that way. I want 
to make sure and give you a real picture of what it is we are 
actually doing.
    Ms. Meng. Okay, great. Thank you so much.
    My second question, I will try to do this quickly. How does 
the State Department intend to target the critical issue of 
women's economic empowerment while cutting fundamental women's 
health and education programming. Does this not ensure that 
WGDP will fail to be sustainable over the long term?
    Secretary Pompeo. Well, we created it, and we intend to 
urge you all to fund it. And I hope the next administration, 
whenever that comes, will continue to build on this, as well. 
We believe this is an important program for women across the 
world.
    The whole team has been involved in this: the State 
Department; the White House with Ivanka Trump; DHS; DOD; it has 
been a whole-of-government approach from our administration to 
build this program out to make sure that we have the 
infrastructure in place that is appropriate, and then to 
resource it in a way that meets not just enough money, but make 
sure that whatever money we have, we are able to use 
effectively to achieve the aims of the program.
    Ms. Meng. Yes. Well, as you know, this is a bipartisan----
    Secretary Pompeo. It is.
    Ms. Meng. Program and goal that we share here in Congress. 
Over a hundred countries place restrictions on the types of 
jobs that women can hold so this Initiative's emphasis on 
eliminating these barriers to participation and creating more 
enabling environments is a worthwhile one. So thank you.
    Secretary Pompeo. Thank you, ma'am.
    Ms. Meng. I yield back.
    The Chairwoman. Thank you.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair, for convening this 
important hearing.
    Mr. Secretary, good morning. Thank you. Nice to see you.
    First of all, let me commend you for taking diplomacy on 
the road not just abroad, but here in America. It was great to 
see you in Iowa talking about the importance of diplomacy to 
America. I would have preferred that you had done that in 
Nebraska, but close enough.
    Secretary Pompeo. I would--in Kansas. I owe you one.
    Mr. Fortenberry. Okay.
    Secretary Pompeo. All right.
    Mr. Fortenberry. It is the neighborhood, so but again, 
great job. We really appreciate you coming out.
    Last summer you convened a ministerial of foreign leaders 
to speak to the issue of religious pluralism and the respect 
for human dignity, the sacred space of conscience and the 
exercise of that right. Around the same time, at the behest of 
the vice president, I traveled to northern Iraq, along with 
Ambassador Sam Brownback, as well as Mark Green, USAID 
Director, to look at the dynamics of how our substantive aid 
that had been shifted to help the religious minority 
communities there who have been so decimated by the genocide of 
ISIS, how that aid could be sustained. I came back from that 
experience with three words in my mind: It is possible, it is 
urgent, but it depends on security.
    You and I have had this conversation before, but I would 
like to take just a few moments to unpack it a little bit more 
publicly. In response to that last piece, the security piece, I 
am very shortly--perhaps even today introducing a Northern Iraq 
Security Resolution, along with my good friend Anna Eshoo, a 
Democrat from California. We have worked very closely with the 
Foreign Affairs Committee and, I am hopeful that the United 
States Congress rallies around this concept of simply laying 
down a marker that urges, with international community help, 
the Iraqi central government, and the Kurdish government to 
integrate Christians and Yazidis and other religious 
minorities, Islamic minorities, into the regularized security 
forces with some degree of authority to protect Nineveh and 
Sinjar.
    If we don't do this, all of this aid is not going to be 
sustainable. There are willing international partners. There 
are certain sensitivities, sensibilities to this all over the 
world, among the Iraqis, among the Kurds, other international 
partners, with you, with the Vice President's Office, with the 
administration so I would like your response to this concept, 
again, of the United States just laying down a marker saying 
this is an important long-term strategy to restore the ancient 
tapestry of religious pluralism that used to thrive, 
particularly in northern Iraq, as well as Baghdad, but has been 
so decimated. And without that, we are going to lose that rich 
tradition, there is going to be more pressure for outmigration. 
Can the Iraqis ever achieve peace without this fundamental 
concept of tolerance and the space for religious pluralism?
    Secretary Pompeo. You and I have had a chance to talk about 
it some. I am happy that you raised it here this morning. The 
State Department and I can absolutely agree that this is a 
priority. I look forward to seeing the legislation. I haven't 
had a chance to see the legislation that you and Ms. Eshoo are 
going to present. I will be happy to work with you to see how 
we can effectuate that.
    Our mission set has been pretty clear to try and work with 
the Iraqi government to help them understand how important this 
is to get to the political resolution of a free, independent, 
sovereign Iraq. It is central that every religious minority be 
respected, have their opportunity to have their voice heard. 
And so, yes, I think this is a priority. It is a priority for 
the individuals affected, the religious minorities affected. It 
is a priority for the people of Iraq. And it is certainly 
important for American values, as well.
    Mr. Fortenberry. Thank you for that response, Mr. 
Secretary.
    You just recently traveled to the Middle East. I want to 
turn to the question of Egypt and our relationship there. The 
Ranking Member, Mr. Rogers, rightfully pointed out the 
importance of this relationship and we are at the 40-year mark 
of a peace treaty that has held between Israel and Egypt.
    In 1979, I entered the Sinai Desert as young man, and on 
this pile of twisted concrete and rubble which, sadly, is so 
typical as seen now throughout the Middle East, were scrawled 
the words in spray paint both in English and in Arabic. This 
had been the scene of the fighting in the 1973 war, and it 
said, Here, was the war. Here is the peace. That was a really 
important formative moment for me. This peace treaty, which at 
times has been cold, but has come at great sacrifice for both 
the Egyptians and the Israelis, brokered by the United States, 
is a template, a model. So Mr. Rogers', as well as your own, 
highlighting the importance of the relationship with Egypt, 
particularly in terms of the budget to me, it is a very 
essential priority because as we talk about potentially 
restoring Egypt's rightful place as a leader in the Arab world, 
without a strengthening of that relationship and quickly, I am 
afraid we may miss a critical moment here but there, again, is 
possibility.
    Secretary Pompeo. Thank you. I agree. If you saw on this 
trip to the Middle East, I did not visit Egypt. I did on the 
previous one, where I gave some remarks in Cairo that talked 
about that very issue in language very similar to what you just 
described. There are challenges in Egypt. There are human 
rights challenges in Egypt. We don't shy away from talking 
about those but that is an important strategic relationship, it 
is there, a linchpin of the Middle East and they have been a 
good ally in the counterterrorism fight as well.
    Mr. Fortenberry. Thank you.
    The Chairwoman. Thank you.
    Ms. Frankel.
    Ms. Frankel. Thank you, Madam Chair.
    Thank you, Mr. Secretary, for being here. Appreciate it. 
And for your service.
    Let me just start by saying this, my concern for your 
budget proposal is not so much what is in it, but really the 
cuts that are being made which some of my colleagues have 
pointed out.
    And Representative Lowey is a very kind person. And I think 
to call the budget inadequate is being very kind, because I am 
going to just say, I think it is embarrassing and dangerous.
    Okay. Now, so I have had my cathartic moment. Because I 
don't mean to be unkind. So I am going to start with something 
hopefully we can agree with. And that is, I am going to make a 
general statement, when women succeed, the world succeeds. And 
so, when women and girls are better educated, when they are 
healthier, when they are free from violence, not only are their 
families better off, but we find that their communities and 
there is more prosperity and It is more secure. Would you agree 
with that general proposition?
    Secretary Pompeo. Yes, ma'am. Wholeheartedly.
    Ms. Frankel. All right. Good so we are on the right track 
here. So and I also want to say this. I am very interested in 
your proposal on economic empowerment, which I want to have you 
get into it more, with the $100 million Women's Global 
Development and Prosperity Initiative.
    But I do want to follow up with Representative Meng's 
comments. And I want to say this because I really want you to 
take this to heart. I don't want to be mean-spirited, but I 
really hope you will take what some of us are saying and really 
think about this because some of these cuts on women's programs 
are going to undermine what you and Mrs. Ivanka Trump want to 
do in terms of getting women more economic power.
    You are slashing international family planning programs by 
more than half. You are eliminating all assistance to the U.N. 
Population Fund, which makes efforts to end child marriage and 
female genital mutilation and seeks to have healthy babies 
born. You are erasing the reproductive rights sections from the 
annual Human Rights Report. You have been pushing to remove 
reference to sexual and reproductive health care at the annual 
U.N. Commission on the Status of Women. Yesterday, you expanded 
the inhumane Global Gag Rule. I am telling you, your 
administration is abortion-obsessed. You are so obsessed with 
it that the side effects are devastating to health and are 
going to continue to devastate the health of women around the 
world.
    So before I get into that, let's just go back to some good 
news, I think. Which is, could you explain exactly what this 
new program, the Women's Global Development and Prosperity 
Initiative, is? And I would like to know whethe0r you have had 
to take money from other gender-based programs to fund it.
    Secretary Pompeo. So I appreciate the question. We have not 
had to do that. We may--I want to leave open the possibility, 
we may conclude that there is a better way to use other 
resources to more effectively deliver what this program is 
designed to do. And if we do, we may make a decision to do 
that. We will obviously ensure that Congress is fully informed 
and knows as we move money around.
    Look, the mission statement is really clear, when the 
president announced this in the Oval Office now, a couple 
months back. It is to do precisely what you described, it is to 
find the methods by which we can create not only laws, but 
cultures in countries where women are empowered, women are free 
to work, to raise their families in the way that they want to 
and have all the opportunities that we are counting on women to 
be able to have here in the United States, and have them all 
around the world.
    There will be lots of streams to this program, if you saw 
the announcement. I think almost every Cabinet, I think HHS was 
there, I think Commerce was there, State Department was 
present. There will be programs that will be rolled out. They 
are not fully fleshed out yet, to be sure, but will be rolled 
out all across the United States government to deliver against 
the primary objectives that the president set out that day. And 
I think he enunciated it pretty well and there was that 
wonderful bipartisan support thematically, for those 
objectives.
    Ms. Frankel. Well, I would just say this and I am going to 
have to have, I guess, a second round of questioning on some of 
the issues I brought up. But it is very important, really and 
you agreed with me, that if you want women to be economically 
prosperous, they have to be healthy, correct?
    I just want to stress that your budget and your actions by 
this administration is devastating the health of women around 
the world.
    And with that--and I am sorry to say that. Really, I am.
    Secretary Pompeo. I will say you suggested that you 
wouldn't be kind. You have been very kind. We simply disagree 
on that point.
    Ms. Frankel. All right, all right. I will kindly yield back 
to----
    The Chairwoman. Thank you.
    Ms. Frankel. The chair.
    The Chairwoman. Thank you.
    Mrs. Roby.
    Mrs. Roby. Mr. Secretary, it is great to see you. And I 
hope your family is well. And we appreciate your service to our 
country. And, again, we are just really glad to have you here 
today.
    First, I want to thank you for the announcement that came 
out of the State Department yesterday. The Mexico City Policy, 
which prohibits U.S. government funds from going to NGOs that 
perform abortions, was expanded to include NGOs that provide 
financial assistance to abortion providers. American tax 
dollars are not allowed to fund abortions in this country, and 
countries around the world should be no exception. I am glad 
that the Trump administration has made the commitment to expand 
upon this Reagan-era rule. And I thank you for your leadership 
in protecting the unborn.
    In regard to the State Department's budget request, I too 
am glad to see that women's economic empowerment was made a 
priority. And so to build upon my colleague's--some of her 
statements, as you know, the State Department's request 
included a hundred million for the new program in USAID called 
the Women's Global Development and Prosperity Initiative. And 
in my role as a member of Congress, I have had the privilege 
and have been fortunate enough to travel to several countries 
many of which are seriously lacking in policies conducive to 
economic freedom for a woman and her ability to be financially 
independent.
    And so I wanted to ask you--and I know you just said that 
some of these programs are being developed as we speak but in 
which countries do you foresee that we will be focusing these 
investments?
    Secretary Pompeo. So we have not set out yet how we are 
going to prioritize. But as a matter of logic, you can imagine 
these programs going in many places, certainly in countries 
throughout Africa, countries in the Middle East as well, places 
that just don't have the history of empowering women, allowing 
women to behave in the way that--engage in activity the way we 
know every human being has the right to be.
    Mrs. Roby. I appreciate that. And, of course, a lot of the 
work that I have been fortunate enough to be able to engage in, 
is in Afghanistan, and where as we have seen many, many gains 
for women, we also know how fragile it is as well. And so as 
you move forward in developing these programs, I hope that you 
will continue to make us aware of exactly what this looks like. 
We know that the success of women is a key indicator of the 
success of a country. And so, I hope that you will keep us 
informed.
    The only other thing I would build upon as it relates to 
this question is making sure that we have also mechanisms in 
place to ensure that the beneficiaries of these investments are 
held accountable. And so, if you have any comments about that. 
I think some of the frustration in the past has been we make 
these investments in an attempt to offer opportunity, but then 
we are not able to measure--or we don't come back and measure 
real outcomes. And so, if you want to just comment on that.
    Secretary Pompeo. I welcome the opportunity. It is a very 
valid criticism, and not only of programs that relate to 
women's empowerment, but of U.S. government and I will speak 
for the State Department programs as well. We as taxpayers, 
invest lots of money and it is difficult to, 5, 10 years later 
to identify the effectiveness of those resources. You see it in 
IG reports, you see it--workings at the State Department. More 
importantly, you see it in the world, you see this money and 
you see the relatively little change has been achieved.
    We are going to try in that program that you were referring 
to, the Global Women's Empowerment Program. But I and my team 
are trying it in every program we have, whether It is foreign 
assistance or humanitarian assistance, that we are providing, 
to ensure that when we do that, we have an objective, there are 
criteria, there are outcomes that are measurable, even if not 
always quantifiable, but measurable in a way that we can 
determine whether we achieved the goals that we set out to do. 
There is nothing sadder than to look at a history of a program 
and see that you have asked the taxpayers for hundreds of 
millions of dollars over years and years and years and the 
situation is no better or worse along the key criteria that 
were intended to be achieved.
    Mrs. Roby. I appreciate that very much. And I thank you 
again for being here today.
    And, Madam Chairman, I yield back.
    The Chairwoman. Thank you.
    And before I turn to my colleague Ms. Lee, I just want to 
make a very, very simple statement.
    Reference to this mysterious global abortion industry puts 
abortion politics at the center of every health program, rather 
than advancing the effectiveness of programs that saves lives. 
U.S. taxpayer dollars are not used to subsidize or promote 
abortions, period. I want to say that again. U.S. taxpayer 
dollars are not used subsidize or promote abortions, period.
    Ms. Lee.
    Ms. Lee. Thank you very much.
    Thanks, Mr. Secretary. First let me ask you about the HIV-
AIDS accounts. Of course, you know, the United States--we have 
had long-standing bipartisan leadership on global health, 
especially on global HIV and AIDS epidemic. At the end of last 
year, we passed a PEPFAR extension. It was legislation that I 
authored with Congressman Chris Smith and President Trump 
signed it into law. And that was to reauthorize PEPFAR for 5 
years.
    Additionally, Congressman Smith and I sponsored a 
bipartisan letter that was cosigned by 137 members in support 
of a strong United States contribution to the Global Fund's 
upcoming Sixth Replenishment Conference. At the same time, we 
know that our progress on preventing new infections is stagnant 
and that tens of millions of people will need sustained access 
to antiretroviral therapy over the next decade. A 2018 report 
by the Lancet Fund found stagnant or reduced funding coupled 
with a weakened global resolve to end the disease could result 
in a backsliding of our gains and allow the epidemic to 
rebound.
    The administration's 2020 budget request cuts the PEPFAR 
budget by 29 percent and proposes a new structure for the 
Global Fund pledge that would change the maximum U.S. share 
from 33 percent to 25 percent. Now, public reports have 
indicated that the administration intends to implement at this 
significantly lower match unless Congress mandates it.
    So this administration has put, of course, additional 
resources which we are pleased about--into the domestic HIV 
epidemic, but you are stepping back now from our leadership on 
the global side. It is really robbing Peter to pay Paul.
    So, Mr. Secretary, given the significant needs that we know 
exist, how does the U.S. expect to maintain its long-standing 
leadership role in addressing global health challenges with 
these steep cuts? As well as why in the world would you make a 
decision to reformulate the 33 percent for the Global Fund 
which we have maintained through eight Congresses and three 
administrations?
    Secretary Pompeo. This administration is absolutely 
committed to the mission set that you have just described. It 
has been--to your point, it has been a bipartisan effort from 
certainly my time in Congress and through today.
    There is no nation, including in the most recent fiscal 
year and including in the fiscal year ahead, that has been as 
generous and has asked their citizens to contribute as much to 
ending the scourge of AIDS, in not only the United States, but 
around the world. We will continue to lead. We will continue to 
be part of this program. I get updates from our team 
constantly. I have seen what we think that the 2- and 5- and 
10-year outlook, we think we have been effective. This is one 
of the programs, I was just talking with Mrs. Roby. This is one 
of the programs where I think we can show demonstrable 
effectiveness for taxpayer dollars. And there comes a time in 
every program when you have to begin to think, you have been at 
this a long time, is there a way that you can deliver on this 
better? That is the objective that we have set out in our 
budget. Our aim, our mission, I think is shared, but we are 
always having to make decisions about how to apply resources 
against the problems set. And that is what we did on this one 
as well.
    Ms. Lee. Mr. Secretary, I think, because of what you just 
said, we are making progress, why would we pull back now and 
reduce our contribution to PEPFAR and the Global Fund, when in 
fact the American people want us to succeed, and every report 
that we have, shows that if we pull back, the infection rates 
will increase and we won't succeed?
    Secretary Pompeo. We are going to succeed.
    Ms. Lee. Mr. Secretary, with this type of a cut, we haven't 
seen any plan that would show that we are going to make sure 
that new infections don't emerge and that we are able to get 
this epidemic under control. But hopefully we will be able to 
get--go back to the drawing board on this.
    Also, let me just ask you about your 2020 budget, which 
proposes to cut bilateral aid to many of our key partners in 
Africa by at least 10 percent. This is after a well-documented 
track record of controversial statements, of course, from the 
president, identifying certain--***-*** countries, and, quite 
frankly, attitudes toward the Continent generally.
    Let me give you an example of what I am talking about. The 
budget would cut bilateral assistance to Ghana by 56 percent; 
Ethiopia by 33 percent; Mozambique by 14 percent, a country 
which is facing a huge challenge in the wake of the cyclone 
that killed more than a thousand people; South Sudan by 44 
percent; South Africa by 71 percent, mostly in critical global 
health funds. Given these cuts, it is difficult to believe that 
the administration's Africa strategy is sound. And even, it 
almost demonstrates that the president meant what he said when 
he identified countries ***-*** countries so I would like to 
hear why you made these cuts.
    Secretary Pompeo. First of all, the predicate of your 
question is, in my judgment, fundamentally unsound. I am deeply 
aware of the State Department's Africa strategy, led by Tibor 
Nagy, wonderful officer in our Department. We have re-looked 
not only at Africa but every country, in terms of evaluating 
where we can most effectively achieve the United States' 
interests. This is what we are using taxpayer dollars, it is 
America that we are tasked with keeping secure and safe.
    And you have to make decisions. You have to demonstrate 
priorities. You have to ask your partners to step up. You have 
to ask your bilateral recipients of this aid, they have to step 
up and demonstrate that they are using your dollars and 
resources in the ways that you would intend them to do. And 
they have to take on economic challenges and security 
challenges in their own country, and get the politics right in 
their nation. And we have evaluated each of these criteria, 
both inside of the countries and how it fits inside the 
American strategic security objectives, and we are reallocating 
foreign assistance in that way. It is that straightforward.
    Ms. Lee. Do I have?
    Thank you. Okay.
    Thank you very much, Mr. Secretary.
    Secretary Pompeo. Yes, ma'am. Thank you.
    Ms. Lee. We will come back.
    The Chairwoman. Come back.
    Mr. Price.
    Mr. Price. Thank you, Madam Chair.
    Good morning, Mr. Secretary.
    Secretary Pompeo. Good morning.
    Mr. Price. Glad to have you with us. I want to return to 
the Israeli-Palestinian conflict. One of the guiding schools of 
thought on all sides I think, for years, has been the need for 
the U.S. to facilitate direct negotiations between the two 
parties. And in fact, you acknowledged that this morning in 
your answer to Mrs. Lowey.
    So now, outside the framework of any negotiations, outside 
the framework of any anticipated final status agreement, this 
administration has made a series of moves.
    One, you moved the U.S. embassy from Tel Aviv to Jerusalem 
unilaterally, apart from the kind of broader agreement previous 
administrations have sought.
    Two, you closed the Palestinian embassy in Washington, D.C.
    Three, you shut down the U.S. consulate in Jerusalem, the 
main U.S. eyes and ears on the ground in the West Bank and the 
main interlocutor for communicating with the Palestinians.
    Four, you cut off all U.S. contributions to UNRWA, closing 
schools in Gaza and exacerbating the severe humanitarian crisis 
there.
    Five, you cut off all assistance to the West Bank, even 
assistance going through American-led implementing partners on 
the ground, for things like food security, education for 
children with autism, I have an explicit example of that from 
some people working with a school in Bethlehem on that autism 
challenge, water treatments, oncology medicine, as well as 
programs that bring Israelis and Palestinians together for a 
dialogue and conflict mitigation.
    Now you are about to unveil a long-awaited peace agreement 
that you have drafted, no doubt with demands to follow, that 
the Palestinians be grateful for that plan and regard the U.S. 
as a fair-minded arbiter who respects their aspirations. Can 
you tell me how this is supposed to work? Am I missing 
something?
    Secretary Pompeo. Yes. Yes, you are.
    Mr. Price. Well, please, tell me.
    Secretary Pompeo. You are missing the history. Those things 
that you identified, the recognition of Jerusalem as the 
eternal capital of Israel, the homeland for the Jewish people, 
the decision to take the Israeli sovereignty, to recognize 
Israeli sovereignty, those are all things that are different. 
What went before didn't work. I think you would have to 
acknowledge that. Decades of trying the old way failed to 
resolve this conflict. It just----
    Mr. Price. The idea of----
    Secretary Pompeo. I met with each of the--if I may, just 
one more moment.
    Mr. Price. Yes.
    Secretary Pompeo. I met with each of the individuals who 
have been involved with this, at different times, over 
different times in my life. I have talked to them about the 
complexity of the situation. And to a person, they would 
acknowledge that the efforts that they made, the theories that 
they used, the strategies they developed failed to achieve the 
outcome that I think you and I share.
    Mr. Price. So you are satisfied that this administration 
has reached out effectively to the Palestinians and has assured 
them of your good faith and your goodwill, and that the 
Palestinian reaction to this is somehow off-base?
    Secretary Pompeo. Our vision will demonstrate our 
commitment, that we want Palestinians to have a better life as 
well. And I personally have had a number of interactions during 
my time in the Executive Branch with the leadership inside of 
the West Bank. I hope they will view us as a fair arbiter. We 
want a better outcome for both Israel and the people living in 
the West Bank and the Gaza Strip as well.
    Mr. Price. What does closing their embassy in Washington 
have to do with being a fair arbiter? Or closing, I think, 
equally serious is closing that consulate in Jerusalem. That 
basically cuts off diplomatic ties in both directions. And----
    Secretary Pompeo. I would just----
    Mr. Price. And the Hope Flowers School has an autism 
program that this country has supported and that many people 
are invested in, and all of a sudden, that funding's removed. 
When you have to pave over an infrastructure project in Jericho 
because the money is running out, is that demonstrating the 
kind of--and you know in the case of Venezuela, you have been 
very persuasive about the need to show empathy and support for 
ordinary people. I don't know how that lesson is lost--it 
appears to me, honestly, Mr. Secretary, that it has been lost 
on the Palestinian community.
    Secretary Pompeo. I appreciate your view. It is different 
from mine.
    I was just in that space. I was just in--at the facility 
that you referred to. Our connectivity--the people at the State 
Department that have worked on this issue in the West Bank for 
years are continuing to work on it.
    Mr. Price. So how do you assess the Palestinian response to 
closing their embassy and closing our consulate and cutting off 
all this aid, freezing the aid and then cutting it off? They 
are somehow supposed to be grateful for this?
    Secretary Pompeo. What we are aiming to do is resolve a 
decades-long conflict.
    Mr. Price. And this is the path forward, you are confident, 
to totally marginalize and alienate the Palestinian side?
    Secretary Pompeo. I am very confident that what was tried 
before failed. And I am optimistic that what we are doing will 
give us a better likelihood that we will achieve the outcomes 
that will be better for both the people of Israel and the 
Palestinian people as well.
    Mr. Price. Well, we certainly share that objective. And we 
will await the response on all sides to your peace plan. And 
also hope for a very measured response if that plan is 
criticized from the Palestinian side, as surely one can 
anticipate it will be.
    Secretary Pompeo. Yes, sir. Thank you.
    The Chairwoman. Mr. Secretary, before I turn to Ms. Torres, 
just following up on Mr. Price's question, when should we 
expect the Jared Kushner peace plan that has been talked about 
and worked on?
    As someone, similar to Mr. Price, who's worked on this 
issue for my whole career, I hope we don't have to wait another 
20 years. Could you tell us when we will see the Jared Kushner 
peace plan?
    Secretary Pompeo. Yes, ma'am. I think we can say in less 
than 20 years. [Laughter.]
    The Chairwoman. How about being more precise?
    Secretary Pompeo. I just prefer not to be more precise. I 
am very hopeful that we will present our vision before too 
long.
    I am not trying to evade. I don't know precisely when and 
how it is we will present this. We have been working on it a 
while. We want to make sure we have it as complete and as 
effective, as good as we know how to do. When we get there, we 
will unveil it.
    The Chairwoman. Well, shall we say, many of us are 
cautiously optimistic that we can see some kind of a 
breakthrough. As I mentioned before, I do remember sitting on 
that White House lawn when Yasser Arafat and Yitzhak Rabin were 
shaking hands. So I would like to join you on that lawn again, 
or any place you suggest.
    Secretary Pompeo. Yes, ma'am. I would love to be there with 
you as well.
    The Chairwoman. Thank you.
    Ms. Torres.
    Ms. Torres. Mr. Secretary, thank you for your attendance 
and for that quick laugh. As the founder and co-chair of the 
Central America Caucus, I have been very focused on addressing 
the root causes of migration from that region. Providing 
foreign assistance is an important part of the answer, but it 
simply isn't enough. And if we are going to make progress on 
the very tough issues this region is facing: corruption, gang 
violence, and poverty, severe poverty--we need a comprehensive 
approach. And I know that you agree with that.
    For one, we urgently need an ambassador to Honduras, 
preferably someone with diplomatic experience and expertise in 
the region. We also need high-level engagement, regular 
meetings with the region's leaders to make sure that they are 
making progress on their commitments under the Alliance for 
Prosperity. And sometimes, we need to take tough actions when 
these leaders do things that are contrary to our mutually 
agreed goals for the region.
    So, I was surprised to see that on September 1, 2018, the 
day after Guatemalan officials decided to misuse J8 Jeeps that 
U.S. donated to them for the purpose of counternarcotic efforts 
at the border of Mexico, and utilized these vehicles in an 
effort to intimidate our U.S. embassy diplomats. And I was 
surprised to see that on September 1st, a tweet from your 
account stating that our relationship with Guatemala is 
important, and we greatly appreciate Guatemala's effort in 
counternarcotics and security. Now, your budget request 
includes $256.3 million for the Central American Regional 
Security Initiative. Combating corruption in the Northern 
Triangle has been a major priority for the U.S. strategy for 
engagement in Central America. Can you tell me, how does your 
budget request prioritize the fight against corruption in the 
Northern Triangle?
    Secretary Pompeo. Thank you. Thank you for your question. 
Thanks for your attention to this important place that frankly, 
I think doesn't get the focus that it needs. You see the 
challenges at our southern border, you see challenges more 
broadly, not only in Mexico but in South America, that result 
from ineffective governments in the Northern Triangle countries 
in Central America. So not only State Department but other 
elements of the United States government, DHS, DEA, and others 
are all focused on taking the RSI, the Regional Security 
Initiative, and delivering against it.
    I think Secretary Nielsen's actually down in the region 
today. I think she was flying--I think to Honduras today, to 
work on a number of issues that surround borders there and 
security there and political stability there. My team will join 
her in many of those meetings.
    Our priority really is to find the leaders in that region 
that are prepared to do the things, the difficult things, 
things that haven't been done for an awfully long time under 
different administrations, different administrations in the 
United States as well, and convince them that getting more 
stable, more democratic outcomes there can truly benefit the 
people of their country and lead to stability in the region.
    We know we have a role where we can assist them from a 
security perspective in countering transnational criminal 
organizations that are moving people and drugs out of there 
into the United States through multiple methods, and we are 
committed to doing that. And we think we have got this 
resourced in a way that is reasonable. And as President Trump 
has made clear, we are going to reinforce success. Where we see 
progress, where we see good programs, effective leadership, we 
will continue to assure that we apply resources against them.
    Ms. Torres. I agree that we need to encourage them. But at 
the same time, we don't need to encourage bad behavior, 
especially when they try to intimidate our diplomats in that 
region. I think that that was a slap in the face to us as 
Americans and I think that we should have responded accordingly 
by removing those vehicles and not rewarding them by giving 
them four additional vehicles after that incident occurred. How 
are we going to deal with these presidents that are refusing to 
hold themselves accountable and to allow the attorney generals 
to investigate massive corruption in the region?
    Secretary Pompeo. Well, we have seen challenges on all 
sides in each of these countries, both from the leaders and 
sometimes from the investigators too. The U.N. has a role, you 
are probably referring to CICIG in Guatemala as well and their 
role. You saw decisions we have made where we didn't see the 
transparency and the rule of law from those folks in the way 
that we needed to see that too. Look, it is difficult, you know 
this as well as I do. We are trying to find those who are 
prepared to set up truly transparent rule of law, democratic 
institutions, and support them.
    Ms. Torres. My time is up, sir----
    Secretary Pompeo. We hope the people in the country will 
support them as well. And you should know too, I take it as a 
priority to make sure and protect my diplomats and officers 
that work under chief of mission control, even those that 
aren't State Department officials, to ensure that we do right 
by them every day. I think we did that there in Guatemala as 
well.
    Ms. Torres. I sent you my questions and concerns ahead of 
time and I hope to be able to continue that----
    Secretary Pompeo. Yes ma'am.
    Ms. Torres. Dialogue in the next round. Thank you.
    The Chairwoman. We are going to go for another round. And I 
appreciate your time. Keep thinking you should be on a plane 
someplace.
    Secretary Pompeo. I am happy to be----
    The Chairwoman. Is it not nice----
    Secretary Pompeo. To be sitting----
    The Chairwoman. To be here?
    Secretary Pompeo. Right here.
    The Chairwoman. That's right.
    Secretary Pompeo. Exactly. Yes, ma'am.
    The Chairwoman. This is an issue I have been concerned 
about for a very long time, so it is not just you and this 
administration. The Russian government is engaged in a 
concerted effort to undermine democracy, weaken multilateral 
institutions including NATO, and reverse economic independence 
and prosperity in Europe and Eurasia. I am extremely concerned 
about increased corruption, democratic backsliding in the 
region.
    The fiscal year 2020 request would cut assistance to the 
region by approximately 55 percent. I am sure that cut would 
turn things around but that is something we could discuss. What 
message does this send to Russia and our allies and partners 
about U.S. resolve? What is the State Department doing to 
counter the malign influence of Russia in Europe and Eurasia 
including through support to civil society, human rights, and 
the rule of law? Does the State Department have a counter 
Kremlin strategy similar to that of USAID? Tell us about your 
view of what Voice of America is doing, what the BBG is doing? 
They have a budget of about $800 million if I am correct and 
$250 million is for Voice of America. Are we just watching the 
change in Europe and the anti-American, anti-U.S. observations 
or is there something that we are doing to counter this?
    Secretary Pompeo. Boy, a handful of questions there. Let me 
just talk about what we are doing and then you can guide me to 
what you would prefer to talk about. The threat you identify is 
real. It is the case that Russia has interfered in elections 
here in the United States. It is going to try and interfere 
with one in Ukraine in a week and the half or so that is left 
and weeks that are left before government formation, but they 
are not the only country. There is lots of countries. China's 
done similar things. Iran has done similar things as well. But 
with respect to Russia, I think we have demonstrated our 
commitment, and I think Vladimir Putin gets that. I think we 
have demonstrated our commitment to pushing back against the 
threats that he poses to Europe and the West.
    I can cite along a long litany of not only the sanctions 
that exceed what any other administration has done, not only 
the kicking out of 60 Russian spies from the United States, the 
increase in the United States defense budget is certainly not 
something that the Russian leadership can be happy about. In 
fact, that we are exporting crude oil and national gas all 
around the world. Competing with Russian crude and natural gas 
is something I can tell you the Russians are deeply concerned 
about.
    The list goes on with respect to the seriousness we have 
taken, the risk that this presents to the United States, and we 
have done so all the while trying to places and I did so as CIA 
Director as well, trying to find places where we can find a 
shared, overlapping set of interests with Russia so that we can 
get better outcomes. If we can get to a better outcome in Syria 
by talking and working with them, if we can find ways to ensure 
that Americans who are flying on aircraft travelling around the 
world aren't harmed by Chechens out of Russia and the 
surrounding region, those are good things and things the 
administration has not only--it is not only a good thing that 
we are dealing with the Russians on them it is necessary and 
proper.
    The Chairwoman. Yes, I think the Global Engagement Center 
is still in existence.
    Secretary Pompeo. Yes, ma'am. It is.
    The Chairwoman. Do they do anything?
    Secretary Pompeo. Yes. They do.
    The Chairwoman. Tell us about it.
    Secretary Pompeo. Let me talk about broadly you mentioned 
both the BBG and the Voice of America. You put the Global 
Engagement----
    The Chairwoman. Voice of America's really part of the BBG--
--
    Secretary Pompeo. Right, and then I mentioned the Global 
Engagement Center. Each of which has a mission of overt 
communications, talking about sharing, spreading American 
values, countering propaganda that comes from all across the 
world. The Global Engagement Center, we now have Lea Gabrielle 
on board leading the charge. She has a couple of primary 
missions. Russian is one of those primary missions and we are 
happy to give you a briefing on what she is doing and what our 
team at the Global Engagement Center is doing. We think this 
will be important. You all have funded this quite well and we 
appreciate that.
    I want to come back, though, to the BBG. It is a challenge. 
It still has a leadership challenge because we all know the 
history of the BBG Board and how it came to be fractious and 
had become political. We still have not resolved that situation 
and I would urge to get a CEO of that organization in place so 
that the BBG will have the right leadership so that they can do 
the traditional mission perhaps in a different information 
environment than we did back in the Cold War that can perform 
its function in a way that is important and noble and reflects 
the enormous resources that American taxpayers have put towards 
that and I am very concerned about it.
    The Chairwoman. Thank you, Mr. Secretary. And I would like 
to schedule a briefing. This is an issue I have been working on 
for a long time. I am not blaming just this----
    Secretary Pompeo. Yes.
    The Chairwoman. Administration. I have met with many 
people. At one point we were off in L.A. and we thought the 
movie industry could give us some advice and spread our message 
of democracy and hope and freedom, but frankly I think it is 
just getting worse.
    Secretary Pompeo. Yes, ma'am. I would be happy to have Ms. 
Gabrielle, and speak with you or your staff or however you 
think that would be appropriate.
    The Chairwoman. I would like to do it and invite as many of 
the members who are interested.
    Secretary Pompeo. Yes, ma'am.
    The Chairwoman. Thank you very much.
    Mr. Rogers.
    Mr. Rogers. Mr. Secretary, as you know, some 3.5 million 
Venezuelans have fled their country, and of those more than a 
million have gone to Colombia, and I am worried about what 
effect the Venezuelan problem is going to have on the whole 
region. Is your budget request sufficient to manage the 
humanitarian needs and the other challenges spilling over from 
Venezuela?
    Secretary Pompeo. It is a fair question. I think what are 
things to say about where they are today, I think the resources 
are likely sufficient but I think the best analysis is there 
will be another 2 million refugees from Venezuela or displaced 
persons from Venezuela. They will go somewhere, many to 
Colombia, some to Brazil, some to other nations in the region. 
It could be that we will come back and say we need additional 
assistance to address that need. We are trying to resolve that, 
right? We are trying to work with the Venezuelan people to 
ensure that Maduro leaves and we can begin to create--and this 
will be--just so we are all eyes wide open, this will be a 
years-long undertaking to provide the assistance in Venezuela 
to get the Venezuelan people back on their feet, the decimation 
that has taken place long before U.S. sanctions. Right, we are 
now years and years into the Maduro decimation of this country 
but we think we have got the resource level about right today.
    I do worry. Along that border, along that Colombian-
Venezuelan border, ELN, FARC are using this uncertainty, this 
movement of peoples, this movement of goods and narcotics 
across that region to rebuild and strengthen. So that is not 
just a State Department function. There are other elements of 
the USG that will have a role in that but I do worry about the 
increased risk from the FARC and from ELN in that region as 
result of the chaos that Maduro has created.
    Mr. Rogers. Well finally, we have gotten the new president 
in Colombia on the right track and returning to aerial 
eradication of coca. I mean, we obviously support him heavily 
in that effort, yet I worry that any progress we have made with 
the new government on counter narcotics could be jeopardized by 
the chaos next door in Venezuela. What do you think about the 
effect of the counter narcotics effort?
    Secretary Pompeo. So we are concerned about it, and 
President Duque is concerned about it, too. He shared that with 
President Trump when he visited here and he shared it with me 
when I was in Colombia now a couple months back. He is 
concerned that about that as well. I guess there is three 
things to say, one: it is why the urgency can resolve the 
situation in Venezuela is so strong; second, it is why we have 
to continue to support President Duque and Columbia in their 
efforts, these counter-narcotics efforts, which have truly, I 
don't know the most recent numbers from the past weeks, but 
over the past years have escalated dramatically, much of that 
has moved here to the United States; and then finally, it is 
why the work that the State Department's done to build out this 
coalition, the OAS has been spectacular on the issues in 
Venezuela, the Lima Group, which largely, South American-led, 
but America's been an important partner in ensuring that the 
Lima Group gets this set of issues right.
    We need to continue to work with our friends and allies in 
the region to deliver better outcomes for Colombia. The risk 
that this issue of coca gets away from us is very real.
    Mr. Rogers. Quickly, on another topic, we have significant 
work ahead of us to counter Chinese espionage and technology 
theft. It will require extensive cooperation with our European 
and other allies like Japan and South Korea. I believe this 
will require deepened intelligence sharing and stricter review 
of foreign direct investment, export controls, communications 
procurement policy. Are we on the same page as the European 
Union is now regarding China?
    Secretary Pompeo. So it is mixed to be sure, the State 
Department has led a U.S. government-wide effort to share what 
we know, the threats as we see them, to make sure that not just 
France and Britain and Germany but every country all throughout 
Europe understands the risks as we see them and to provide our 
best wisdom on how to prevent those risks, the security risks 
that are presented.
    There are deep commercial issues here, as well. Big telecom 
providers find it lucrative to deal with Chinese businesses and 
put Huawei or ZTE equipment inside their infrastructure and 
networks. We have done our best to share with those businesses 
and the countries in which they reside the threat that we see 
from engaging in that, some of them simply have come to believe 
that they can mitigate these risks in ways that we just don't 
believe are possible. When you have telecommunications that are 
deeply connected to state-owned enterprises inside of China, we 
don't see that there is a technical mitigation risk that is 
possible and we have communicated to them and we are very 
hopeful that the Europeans will begin to move further in our 
direction in their understanding of those risks.
    Mr. Rogers. Well, a close American ally, Italy, has signed 
on to the Belt and Road Initiative of China. And apparently, 
China is making a big push into the European Union. Seeing that 
it is individualized, rather than a massive unified place, 
which is open country for them, China. Do you think that we can 
finally get the E.U. to stand up tall against China?
    Secretary Pompeo. I think we have made progress and I know 
that we are going to continue to push.
    Mr. Rogers. Good enough. Thank you.
    The Chairwoman. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair. Along the line of 
reasoning that Ranking Member Rogers just said, Mr. Secretary, 
your agency and USAID, we give, together, give about $25 
billion a year in humanitarian assistance, antipoverty 
programs, global health. How much does China give? It is a 
hypothetical. I don't mean to put you on the spot.
    Secretary Pompeo. A very, very small number. It would be--
--
    Mr. Fortenberry. So one of the largest economies----
    Secretary Pompeo. It would be a tiny fraction of this.
    Mr. Fortenberry. Okay. So one of the largest economies of 
the world that has been progressing through our trade 
relations, through trade relations with the others, takes 
minimal or no responsibility for the world's development 
wellbeing. The point here is I think the world is rapidly 
catching on that they are predatory lenders, without taking 
full responsibility for the broader ideals of an echo system of 
development.
    And in that regard, I am going to weave a little tale here. 
I want to follow up on Ms. Torres's comments.
    Our immigration debate is one that is obviously complex and 
difficult but part of the solution is to move it off the one-
yard line and to get back upstream into the countries where 
there is significant pressure either because of unrest, crime, 
or just economic need for people to leave. And so several years 
ago we shifted a number of funds to the Northern Triangle to 
try to work constructively on systems of justice and systematic 
economic reforms to create the conditions in which people can 
thrive there, which is a part of our broader immigration policy 
and I agree with this.
    You mentioned the BUILD Act, though, tying back to the 
proper echo system for development. China runs around the world 
building large infrastructure projects with their own labor, 
taxing the internal resources of countries, particularly in 
Africa, leaving large debt behind in those countries. We are 
running around the world trying to help people who are sick, 
trying to attack the structures of poverty, trying to create 
food security and the types of micro-development assistance 
which lead to long-term stability and just government, just 
economic outcomes and just governance.
    The BUILD Act is hopefully, an attempt for us to re-create 
and reimagine what development systems ought to be because we 
have got our own problems frankly with fragmentation. So could 
it be one of the pathways, particularly in the Northern 
Triangle, in which we think about the ecosystem of development 
more creatively, rather just a large terminal or a large road 
and calling it development but how we get underneath the 
structures of the deep wounds and structures of poverty and 
assist economically but also assist with stability so that 
people can have flourishing lives where they live?
    Secretary Pompeo. Yes. I believe that the model, the BUILD 
Act model----
    Mr. Fortenberry. Is it a significant pathway for that kind 
of----
    Secretary Pompeo. It is significantly different than the 
way we have done before in multiple dimensions, not the least 
of which is, it involves the private sector, as well. We have 
watched other countries tie their government to their private 
sector in ways that we would never do and we are proud that we 
have this separation in the United States. I am not suggesting 
for a moment we should behave the way they do with their 
governments' state-owned enterprises but being connected, 
having understanding, having American values talked about 
explicitly in the way we engage in the world I think is 
incredibly important. I think the BUILD Act is a very good 
model for that.
    Mr. Fortenberry. Well, sometimes the market doesn't 
function properly.
    Secretary Pompeo. That is right.
    Mr. Fortenberry. It needs capital assistance from public 
sources to actually springboard into viable partnerships with 
the private sector who should be virtuously committed to again 
the long-term ecosystem of proper economic well-being and 
development, and I think this is getting us there. I do see it 
as one pathway for reform of the fragmentation that we have. 
The ideal of again correcting market failure but leveraging the 
best of the market in private outcomes so that there is 
continuity and sustainability of the initial aid. Sometimes we 
do the right thing by trying to build out a school but when our 
soldiers or troops leave, it reverts back to what it was and it 
is not sustainable.
    So, anyway, I am sorry for the speech here, but I am trying 
to immerse myself in this space and I actually need to talk to 
you, Ms. Lowey, about this. We want to convene a mapping 
strategy with key principles in this area. All the way from the 
World Food Program to the World Bank, to the International 
Agriculture Fund and others----
    Secretary Pompeo. The IMF, others who are involved in these 
financing relationships.
    Mr. Fortenberry. To try to rethink whether or not we are 
overlapping, we are too fragmented and more creative, 
imaginative ways to approach a whole variety of poverty 
assistance programs worldwide.
    Secretary Pompeo. Yes sir.
    The Chairwoman. Thank you.
    Ms. Lee.
    Ms. Lee. Thank you very much.
    Mr. Secretary, I asked you earlier about countries in 
Africa and the deep cuts that are being made by this budget. 
Now I would like to ask you about the cuts proposed for the 
Western Hemisphere, which I believe you proposed about one-
third of the U.S. assistance to Western Hemisphere countries be 
cut. Again, these countries include countries in Latin America 
and the Caribbean. We know there are very real challenges that 
the region faces from the humanitarian crisis in Venezuela and 
the migration challenges it has created in the region, to the 
recent civil unrest in Haiti, to the vulnerability of countries 
in the Caribbean. So these significant cuts, which cut across 
the board in your proposed budget for the western hemisphere 
appear to be at odds, quite frankly, with the State 
Department's own policy to promote economic growth and 
prosperity and democratic governance.
    I am sure you know that China, and I know these countries 
very well, China is filling the void in many ways that have 
historically been neglected by the United States. In addition, 
I am concerned that your budget again--you are pulling PEPFAR 
funding from several countries in the Caribbean and with your 
intent to not continue such policies. It is already done this 
in countries like Haiti, where only 35 percent of 30,000 people 
living with HIV were accessing retroviral therapy.
    So I would think we would go in the opposite direction and 
try to help these countries in terms of economic growth, in 
terms of development assistance and given the geopolitical 
issues that our country has with China, I think that we would 
see what China is engaged in, in the Caribbean countries and 
really, in many ways send a signal that we do care about this 
region.
    My second question, and I will just ask you very quickly 
with regard to Cuba, I want to know what impact has the 
reduction of staff at the U.S. Embassy had in Havana on embassy 
operations, and I would like to know the status of the 26 
members of the U.S. embassy community stationed in Havana in 
terms of the health injuries, including hearing loss and 
cognitive issues.
    What is the status of the investigation into these 
unexplained health injuries? We have been following this very 
closely and there seems to be no conclusion yet, and yet the 
efforts toward at least people to people exchanges, and moving 
towards some semblance of private sector and people involvement 
in Cuba has been stopped, and the health issues have been used 
as a rationale for beginning to pull out, quite frankly.
    Secretary Pompeo. I will try and take your first question 
at least in part. You began by talking about Chinese import or 
Chinese influence in the Caribbean region. It is real. It is an 
attempt to undermine Western democracy and Western values in 
those countries.
    We are the first administration to actually take this issue 
seriously and those issues long predate this administration. We 
have confronted it. You can look at State Department demarches, 
you can look at our State Department mission statement. You can 
look at the priorities that I set out when I had ambassadors 
from all across that region in the world into the State 
Department in January this year. We understand and are 
directing our foreign assistance directly aimed at competing 
every place that China is trying to compete. It is a fact that 
we will never show up with as much money as China is going to 
show up with. That will never be the basis of the competition. 
If it is, we will fail. Rather we----
    Ms. Lee. Mr. Secretary, I am not asking us to show up with 
as much money. I am asking us why are we cutting where we have 
never really invested.
    Secretary Pompeo [continuing]. We are going to make sure. I 
agree, the previous administration failed to invest there, I 
will concede that. We are very focused on this issue. I want to 
save a bit of time to talk about the very important issues you 
raised in your second question if I may.
    I was and remained very concerned about those who have 
suffered health incidents in Cuba. We have expended enormous 
resources. We more broadly than just the State Department have 
expended enormous resources to identify the cause of this issue 
and importantly to take care of the broadly defined needs of 
those who have been injured by these health attacks.
    We have not been able to resolve this yet. Some of the best 
minds not just in government but across the global medical 
system have not yet been able to identify and connect up so 
that we can find the cause so that we can go attack the problem 
set. It has proven incredibly vexing. I continue to worry for 
the officers that we have there. We have--we are doing all that 
we can to make sure that they do not suffer health incidents as 
well. We have a reduced staff there as a result of this.
    It absolutely reduces our capacity to perform our 
diplomatic function there. We have asked the Cuban government 
to help us. They have done nothing to help us identify the 
cause of this. They say they had nothing to do with it and in 
some cases, they have suggested we are making it up or it is 
not real.
    My Deputy John Sullivan, runs a Health Incident Task Force 
that meets each and every week to talk about the status of 
every dimension of this, how we are keeping our current 
officers safe, do we have the right staffing level, have we 
provided the resources to assist those who have been injured, 
are we doing the right thing to protect not only ours but other 
Americans that travel to the country? We are incredibly focused 
on this issue, but it remains a real concern.
    The Chairwoman. Thank you.
    Mr. Price.
    Or Ms. Meng is next?
    Ms. Meng. I wanted to ask about Iran and Syria. We have 
seen over the last several years of the conflict in Syria that 
Iran has managed to entrench itself deeply within Syrian 
territory. What more can the United States do to stem Iran's 
involvement in Syria? And in the context of your administration 
talking about the U.S. retreating, how will a retreat from 
Syria affect Iran's presence?
    Secretary Pompeo. Well, we are not retreating, and had the 
previous administration not refused to take any action that 
might have upset the apple cart with respect to the JCPOA, we 
would not have the problem today not only with Iran and Syria 
but Iran's support of the Houthis in Yemen, Iran's running 
militias inside of Iraq, Hezbollah's influence in Lebanon. The 
list goes on.
    When we took office, Iran was on the march. We have done a 
number of things to try and turn that around: first of all, we 
acknowledged that the permanent pathway to a nuclear weapon 
that was the JCPOA made no sense for the United States of 
America; second, we have put on historic sanctions which are 
having an impact and I don't know if you all saw the leader of 
Hezbollah, Hassan Nasrallah, now it has probably been 6-, 8-, 
10-days ago rattling his tin cup around the world begging for 
money. That is a good thing. When Hezbollah can't pay its 
soldiers, when its people in the field are dying, that is a 
good thing for freedom and stability in the Middle East.
    We are working with allies and partners. We convened 60 
plus nations in Warsaw to talk about the threat from Islamic 
Republic of Iran. We had Israel and Arabs working together to 
find ways to resolve this threat that the Islamic Republic of 
Iran presents to the Middle East and the world. We are 
incredibly focused on it, we are going to stay at it, and I am 
confident that the Iranian people will be the ultimate 
beneficiaries of the work we are doing. I am confident the 
Iranian people will get what they so richly deserve. This is a 
nation with a rich history, a highly educated population, and a 
country that deserves better than the kleptocracy that is the 
Khomeini regime.
    Ms. Meng. Thank you. President Trump, your president has 
been very clear in wanting to retreat, so, you know, I was just 
confused and I thank you for clarifying.
    Secretary Pompeo. Well, you are just wrong about that.
    Ms. Meng. The president was very clear in wanting to 
retreat.
    Secretary Pompeo. I am happy to respond to that if you 
would like. I mean, this is untrue.
    Ms. Meng. We can pull video clips but my next question if I 
could finish----
    Secretary Pompeo. I liked to say, if you give me just 30 
seconds----
    Ms. Meng. If I could finish my question because I am 
running out of time.
    Secretary Pompeo. Yes, ma'am.
    Ms. Meng. In talking about rebuilding Syria, how are we 
ensuring that rebuilding efforts aren't benefiting Assad or 
Iran? What kind of messaging are we delivering to entities who 
are wanting to participate?
    Secretary Pompeo. That is a good question. Let me answer 
your previous comments as well. So we have along with the 
Europeans made very clear that we will not provide 
reconstruction dollars to areas that are under the control of 
the Assad regime and that we are supporting Geir Pederson in 
his U.N. efforts to implement U.N. Resolution 2254. Ambassador 
Jeffrey is hard at work at that every day to get a political 
resolution inside of Syria as a precondition to U.S. dollars, 
frankly European dollars too, and we are hopeful the Arab 
countries will agree, it makes no sense when Assad is in 
control to begin to do rebuilding. We will still do 
humanitarian assistance in certain places where there is 
desperation, but it is our full intention to get the political 
resolution.
    And I want to pivot to talking about our strategy. It is 
not retreat. The previous administration invited the Russians 
into Syria. I mean, it is just a fact. This administration took 
down the caliphate along with great partners we developed to 
defeat coalition of some 80 countries that took down the last 
inch of real estate owned by ISIS.
    The threat from radical Islamic terrorism remains. It is 
not going away. It is in West Africa. It is in Asia. It is in 
lots of places. It remains in the Middle East. We are 
determined to do this. We will move force levels. Sometimes we 
will increase, sometimes we will decrease but to describe what 
this administration has done, the complete destruction of the 
caliphate, where there were--you remember the pictures, people 
in cages, heads cut off on beaches. We took that down. To 
describe that as retreat, it is just not an accurate 
description of----
    Ms. Meng. I am just repeating what I have seen in the media 
and we can have a whole other discussion----
    Secretary Pompeo. I think you ought to be----
    Ms. Meng [continuing]. On Iran and Syria and the support of 
Russia under this administration as well.
    Secretary Pompeo. Yes, ma'am.
    Ms. Meng. Thank you. I yield back.
    The Chairwoman. Mr. Price.
    Mr. Price. Thank you.
    Mr. Secretary, let's return to the Northern Triangle. This 
is a critical issue I think that needs serious attention. When 
we see people fleeing their home countries, women, children, 
families fleeing violence and corruption, we naturally look to 
the humanitarian conditions, the economic conditions in their 
home countries, what is driving the migration.
    Now, in the previous administration, late in the previous 
administration, with the support of Congress and as you know, 
General Kelly, then at Southern Command played a critical role 
in this, the U.S. greatly increased assistance to Guatemala, El 
Salvador, and Honduras. You also know that consistently now, 
three budgets in a row, the Trump administration has proposed 
to cut this assistance by something like 30 percent. Now, the 
president has actually publicly threatened to cut all 
assistance to the Northern Triangle essentially as punishment 
for the ongoing outmigration that we need to figure out how to 
mitigate. Let me just quote the tweet. This is from the 
president, Honduras Guatemala and El Salvador are doing nothing 
for the United States but taking our money. Word is that a new 
caravan is forming in Honduras and they are doing nothing about 
it. We will be cutting off all aid to these three countries 
taking advantage of the U.S. for years.
    Now we have a news report saying that the funding that we 
have voted and as you know, the Congress has largely restored 
the funding that the president wanted to cut in the intervening 
years, well that money now is sitting there undistributed. This 
is quoting one of your State Department officials, we have 
paralysis moving this funding through the Northern Triangle 
because people don't know what the president wants, one State 
Department official said, that is a quote.
    Secretary Pompeo. Do you----
    Mr. Price. I am quoting, no one wants----
    Secretary Pompeo. Can I have the name----
    Mr. Price. Wants to do something----
    Secretary Pompeo. Of that person?
    Mr. Price. No one wants to do something that looks like 
they are not following his guidance. It is being slow walked. 
The paperwork impasse threatens to undermine efforts to address 
the root causes of migration from the region, the official 
added. Okay, what can you say about that? We have had in the 
past bipartisan agreement that these root causes need to be 
addressed. The president apparently doesn't like that way and 
now the aid that we have voted is being held up. I mean, is 
there anything inaccurate about these reports? What is U.S. 
policy? Guess that is the basic question that comes through all 
this.
    Secretary Pompeo. I am happy to take the basic question. I 
must say, I would strongly prefer that we all avoid using 
unnamed sources from the media to make argument, I just think 
that is not constructive. I will always talk about the things 
we are doing in the places----
    Mr. Price. Well, since you make a point of it----
    Secretary Pompeo. Yes.
    Mr. Price. You know, it is very common practice to have 
officials quoted in that way. Now, maybe your official was out 
of line, but is your official, as quoted here, is that 
incorrect?
    Secretary Pompeo. Let me talk to you--I am happy to about 
to talk about the policy. President Trump has made it very 
clear that we are going to make sure that U.S. taxpayer dollars 
are going to achieve the outcomes, it is not enough to talk 
about them, it is not enough to feel good about them, it is not 
enough to be able show how much money we spent. Indeed, none of 
those are metrics that deliver.
    You talked about all the money that is been spent over the 
past years, previous administration and the first couple years 
of this one, and you then said we still have an enormous 
problem. That is proof of its own that this has not been 
affective. And so our mission, the mission President Trump has 
given to me, Secretary Nielson's as we are trying to address 
these sets of issues, is developed a set of programs that 
reward effective outcomes, that reward good leadership to get 
us to a place where we actually achieve the outcomes. This is 
about reality, not--not feeling good that we spent money. It is 
about delivering on these programs, it has proven vexing, both 
that administration and this one, to stand up, effective 
governance. To your point you made a mention of caravans, we 
have people coming across the border today from these countries 
in numbers and in groups, it was onesies and twosies, mostly 
single males, that has now changed dramatically, it is now 
families coming across in significant numbers, in the dozens 
and dozens.
    I think this is evidence that the policies that we had 
before have not been effective and so we are trying to take the 
money that you have appropriated and the taxpayers have 
graciously provided, to actually achieve important outcomes for 
the United States. That is the president's policy.
    Mr. Price. Well, we would certainly welcome some indication 
of what that policy consists of. You know, you seem to be 
saying, let me check you on this, you seem to be saying that 
because this is a vexing problem because we have not solved it 
that our efforts to solve it have proved very, very challenging 
and very, very difficult, that therefore the rational response 
is to become punitive about these countries, to cut off aid 
entirely or to hold up the aid that has been approved and what 
your official says, seek clarification. That is what we are 
seeking this morning, clarification. What is going on?
    Secretary Pompeo. I hope I didn't use the word, punitive, I 
didn't intend----
    Mr. Price. Well, I----
    Secretary Pompeo. I may have misspoken.
    Mr. Price. You don't think the tweet is punitive? The 
quote?
    Secretary Pompeo. I think our policy is aimed at getting an 
effective outcome and that is what we are trying to achieve. We 
are making very clear to the leaders of those governments, not 
just their presidents, not just the most senior leaders, we are 
making clear throughout their immigration teams, their security 
teams, their economic teams that we have expectations for how 
their behavior must change in order to continue to maintain 
U.S. taxpayer support. That seems eminently reasonable.
    Mr. Price. Word is that a new caravan is forming in 
Honduras and they are doing nothing about it. We will be 
cutting off all aid to these three countries, taking advantage 
of U.S. for years. You would not define that as a punitive 
statement?
    Secretary Pompeo. I am not going to comment on--my 
evaluation, you asked me about U.S. policy and I have done my 
level best to articulate it for you, this morning.
    Mr. Price. Thank you, Madam Chairman.
    The Chairwoman. I do want to express my appreciation to Mr. 
Price for referencing that aid. In fact, I have been very 
concerned for a while having been part of Vice President 
Biden's Task Force, and I remember it very clearly. I cannot 
say we were successful, but I don't think we can give up, and I 
look forward to continuing the discussion, Mr. Price, and with 
you, Mr. Secretary, about what more can we do to deal with the 
root causes, because these root causes and the effect of these 
causes directly impact what is happening at our border. So I do 
hope Mr. Price and this committee can work with you and see if 
these programs can be more successful in addressing root causes 
more successful in those regions of origin. So I thank you, Mr. 
Price, for referencing it.
    Ms. Frankel.
    Ms. Frankel. Thank you, Chair.
    Mr. Secretary, you, and I, I think we are getting along 
very well right now because we did agree that when you educate 
girls and women and they are healthier, it is better for the 
world. Let me find something else we can agree on. It is wrong 
to torture, to rape women, who are merely protesting for their 
human rights. Would that be wrong?
    Secretary Pompeo. I want to make sure I don't get a double 
negative, that would be wrong.
    Ms. Frankel. Okay.
    Secretary Pompeo. Yes.
    Ms. Frankel. All right. There we go. We have agreed on 
something else. But seriously, I want to ask you about what is 
going on to some of the women's rights activists in Saudi 
Arabia.
    We know that there are some--many--who were protesting for 
the end of the ban on women driving and for abolishing the Male 
Guardianship System, they had been thrown into prison where 
they are being subject to torture, rape, electric shock, sleep 
deprivation, really no justice occurring there. And I would 
like to know what if any interaction the State Department has 
had to try to alleviate what this situation?
    Secretary Pompeo. Yes ma'am. We have had interactions at I 
think nearly every level about specific cases that we are aware 
of as well more generally the policies that we have every hope 
and expectation that the Kingdom of Saudi Arabia will engage 
in. When I say every level, I have had this conversation with 
the most senior leaders, including the king and the crown 
prince and my counterpart the foreign minister. I know my team 
has had similar ones. I know our team on the ground, I hope I 
will get an ambassador confirmed in Saudi Arabia before too 
long, his directive for me will be to continue to talk about 
these things in a way that we have done for--I think this 
predates me, but certainly for my entire----
    Ms. Frankel. Are you putting any pressure on them to do 
something? I mean----
    Secretary Pompeo. We have seen some progress, right, we 
have seen----
    Ms. Frankel. We have?
    Secretary Pompeo. Yes, oh, sure. Oh, absolutely. I 
absolutely think----
    Ms. Frankel. But their women----
    Secretary Pompeo. There has been some progress.
    Ms. Frankel. Are still being tortured. All right, well 
listen, I just want to say this. I think it is very important 
that you put as much pressure as possible to stop that--the 
torture that is going on to these women.
    All right, I am going to find something else we can agree 
on. I know this.
    Secretary Pompeo. We are three for three.
    Ms. Frankel. We are three for three, now we are going to go 
four for four, and that is that we can't--and I don't mean--
listen, I am going to say this as an expression, we can't wall 
off the world. I am not talking about south of the border, 
okay. One of the reasons, not just humanitarian reasons that we 
go into let's say places like Africa to stop the spread of 
disease, whether it is HIV, Ebola, tuberculosis, all kinds of 
horrible things, because we know these diseases spread. 
Correct?
    Secretary Pompeo. Yes, ma'am. Global----
    Mr. Franke. Sure.
    Secretary Pompeo. Pandemic, is always a real risk.
    Ms. Frankel. All right so this is why I want to go back to 
the discussion that some of us had about the Global Gag Rule, 
what I called this ultra-obsession that your administration has 
with abortion.
    It is one thing we don't use federal funds for abortion, I 
may disagree with that but the fact of the matter is your new 
interpretation of what was called a gag rule now is harming 
organizations that are doing just general healthcare, whether 
it is contraceptive care or HIV or just maternal care. And I am 
going to give you an example, there is an organization called 
AMODEFA, I think I said it right, which is the only private 
health provider in Mozambique, and they have lost funding due 
to the expansion of the Global Gag Rule, estimated that it 
affects 500,000 people who are receiving care for HIV, 
tuberculosis and malaria, because they are closing their doors.
    So here's my question to you is, what kind of analysis have 
you done or you are doing to see or to understand the effect of 
cutting off these funds?
    Secretary Pompeo. So I appreciate the question, we do 
disagree on abortion, and I will take that as a fact in how I 
respond to this. I cannot see how--first of all you call it a 
gag rule, no one's stopped from speaking anywhere.
    No, the gag implies----
    Ms. Frankel. Well, let me just----
    Secretary Pompeo. There is no place that can't speak.
    Ms. Frankel. I don't want to cut you off but you know----
    Secretary Pompeo. Yes.
    Ms. Frankel. You have taken it so far that an organization 
that doesn't even do abortions if are asked a question where 
they can get an abortion, they are not allowed to be told. They 
are not allowed to even have a pamphlet lying around that gives 
women alternatives. So yes, it is a gag.
    Secretary Pompeo. Oh, it is?
    Ms. Frankel. Okay, well, maybe you want to look into it.
    Secretary Pompeo. I am happy to look into it. But there is 
no one being denied their right to speak. They can say what 
they want----
    Ms. Frankel. Okay, well, how about getting the healthcare?
    Secretary Pompeo. What they can't do is take U.S. taxpayer 
funds and perform abortions or abortion related services.
    Ms. Frankel. Okay. Listen----
    Secretary Pompeo. These are the activities, and we have 
continued to provide--there are not a single dollar reduction 
with respect to women's healthcare that is associated with the 
president's Mexico City Policy and all the ways that we are 
implementing that, not one single dollar reduction, it is 
perverse to think, when I think about places like China where 
most of the abortions that take place are women, it is perverse 
to me to say----
    Ms. Frankel. Well, listen----
    Secretary Pompeo. That denying abortion somehow----
    Ms. Frankel. Let me just reclaim my time, because----
    Secretary Pompeo. Somehow harms life, I----
    Ms. Frankel. Let me just reclaim my time----
    Secretary Pompeo: Yes.
    Ms. Frankel. To say this. Some of things we agree. I mean, 
I don't believe in forced abortions, Okay? But I don't believe 
in forcing women to have children if they don't want to have 
children.
    But here's the thing, I am urging you, I am begging you to 
please do an analysis of how this gag rule is affecting 
healthcare around the world because you and I both agree that 
when women succeed, the world succeeds.
    And with that I yield back.
    The Chairwoman. And with that, I turn to Ms. Torres.
    Ms. Torres. Thank you.
    We are back to Central America. I am concerned about the 
reliability of some of our security partners in the region, 
specifically in the Northern Triangle and I want to make sure 
that we aren't sending good money, you know, after bad. I am 
not confident that Honduras government is a reliable partner in 
the fight against narco-trafficking. They recover less than one 
percent of what is trafficked through the country, that is not 
even the cost of doing business for a narco-trafficker so on 
that note, are you aware that on November 26, 2018, the U.S. 
Attorney's Office for the Southern District of New York 
indicted Juan Antonio Hernandez Alvarado, President Hernandez's 
brother, on drug trafficking charges?
    Secretary Pompeo. Yes.
    Ms. Torres. So----
    Secretary Pompeo. I didn't know the date, but I knew of the 
indictment, yes, ma'am.
    Ms. Torres. So according to the indictment, Mr. Hernandez 
had access to cocaine labs in Honduras and Columbia. This 
cocaine was tagged or marked, stamped T.H. for his initials, 
Tony Hernandez. Are you confident that President Hernandez was 
unaware that his brother is an alleged narco-trafficker?
    Secretary Pompeo. May I answer that for you in a different 
forum, please?
    Ms. Torres. That's okay.
    Secretary Pompeo. But here's what I will try to answer the 
question that you are getting to with respect to the policy----
    Ms. Torres. I am happy----
    Secretary Pompeo. But we do have real concerns.
    Ms. Torres. Do a----
    Secretary Pompeo. Yes.
    Ms. Torres. A classified briefing on this.
    Secretary Pompeo. Just, there is ongoing--anyway, I would 
just prefer to do that, if that is acceptable?
    Ms. Torres. I can respect that. I am very concerned that we 
continue to work with people and invite them to ground-breaking 
ceremonies for our U.S. Embassy buildings, when we should not 
be doing business with these people and we should be holding 
them accountable for the crisis that is happening on our 
southern border.
    We have to be serious about holding these three governments 
accountable for what they are doing, forcing young children and 
women out of their countries. Look, I was one of those kids, my 
parents didn't see a future for me in Guatemala. They sent me 
to the U.S. to live with my father's oldest brother. No parent 
should have to make that decision. No child's future should be 
robbed from being able to have a successful life where they 
were born. And I think we can agree on that. And I hope that we 
will continue to pay attention to the region and hold people 
accountable, including the State Department.
    The State Department is severely underfunded. I don't blame 
them for some of those missteps that they have taken, but at 
the same time, we have to put on a serious face in front of 
these people. The attacks against CICIG, while we may disagree 
on press releases that might have been sent, and it wasn't from 
them, it was the Attorney General's Office. You and I know that 
CICIG is an investigative body. Their charge is to investigate 
corruption and hopefully someday that these governments will be 
able to do their own investigations. That is not happening, not 
with Morales, it is not happening with Moxie, with President 
Hernandez in Honduras. I am hopeful that in El Salvador, with 
the new president, we will have an opportunity to do better, 
but we can't do better with the new administration when we are 
showing a terrible example of continuing to support bad actors 
in these two other countries.
    Secretary Pompeo. I am sorry. You didn't ask a question.
    Ms. Torres. I didn't. But I would like you to respond and 
commit. Last year we passed an amendment in the NDAA, which 
required the State Department to provide Congress with a 
report, a report that includes a list of corrupted elected 
officials. They were supposed to do this 180 days after the 
NDAA was enacted. To my count, it is 226 days now, long 
overdue. Can we expect that sometime in the near future?
    Secretary Pompeo. Yes. I will look into that. I was unaware 
that we had a due out and it was overdue. And I will absolutely 
look into that and get you a response on when we believe we can 
complete that task.
    Ms. Torres. It is.
    Secretary Pompeo. That legally required task.
    Ms. Torres. Thank you. And I yield back.
    The Chairwoman. Thank you. Before I turn to Mr. Rogers, I 
want to thank you Ms. Torres for your comments.
    And I do want to say, Mr. Secretary, I think there is about 
$1.2 billion left in that account from it was called the U.S. 
Strategy for Engagement in Central America. We had appropriated 
$4 billion and there is about $1.2 billion left in the account. 
I would hope that we can continue this discussion. It would be 
good to know, from your perspective, what we have accomplished, 
what remains to be accomplished, a great deal, and what we can 
do about it. I am not sure it is just another $1 billion, that 
is a lot of money, but I would like to see, from you a review 
of all of our actions that have frankly addressed the serious 
challenge in the region.
    Secretary Pompeo. We will provide that to you and your 
Committee and to the Ranking Member.
    The Chairwoman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chair.
    Mr. Secretary, Syria. I understand the top U.S. objective 
there is the enduring defeat of ISIS. I assume that means not 
only the destruction of the caliphate which has occurred but 
also preventing a return of the conditions that allowed ISIS to 
arise in the first place.
    During testimony before Congress earlier this year, the 
U.S. Commander of CENTCOM said, and I quote, the coalition's 
hard won battlefield gains must be secured by continued 
interagency efforts on mobilizing the international community 
to prevent a return of the conditions that allowed ISIS to 
arise. To accomplish that goal, what sort of sustained efforts, 
political, diplomatic, military would be required of us and our 
partners in Eastern Syria?
    Secretary Pompeo. So with your permission let me extend to 
Eastern Syria and Western Iraq, the place that the caliphate 
existed as a contiguous institution. It will take efforts in 
each of those two places that have mostly a political and 
diplomatic component to them so there will be an element of 
diplomacy, pure political diplomacy, humanitarian assistance, 
reconstruction aid; we will need to continue the defeat ISIS 
coalition which we cannot only bring people but resources, 
money to this challenge, the reconstruction in these places is 
going to be an enormously costly undertaking.
    Second, there is the political piece which is the work that 
we need to do. I will meet with the Speaker of the House 
equivalent from Iraq who is travelling here to the United 
States this week. I will meet him this week to work with the 
political leadership in Iraq, to assist them with building our 
their own, the Iraqi Security Forces so that they can maintain 
control and keep their own countries secure so that ISIS can't 
arise.
    And it is not just ISIS, right? In Idlib and in Syria we 
have got all other forms of radical, we have got Al-Nusra 
Front, the list is long, so this threat of terrorism in the 
region remains. It is going to take a political resolution in 
Syria to create the conditions where Syria can both begin to 
rebuild and begin to build out its security forces as well; it 
is an enormous undertaking.
    Mr. Rogers. But you don't request any funds for Syria in 
your budget.
    Secretary Pompeo. We don't. We are not there yet. We can't 
operate in two-thirds in Syria today and we won't operate while 
Assad continues to be there and wreak the devastation that he 
has until we have got a pathway where we have a political 
resolution. So we believe we have the resources to continue to 
do the work in the Eastern third, the northeast part of Syria, 
the work frankly with the Kurds and the Turks so that we get an 
outcome there that is stable and lasting as well that 
underwrites the capacity to take U.N. Security Council 2254 and 
implement it. That is the mission statement and we believe we 
have the resources to do that. And by the way, there are also 
resources that aren't inside the State Department budget, 
right. Your quote was from someone at CENTCOM if I remember 
correctly. Our DOD resources will be a central component of 
that as well.
    Mr. Rogers. In the short term, how are we going to help our 
friends, the Syrian democratic forces? How do we help them cope 
with the large number of captured foreign fighters?
    Secretary Pompeo. I am glad you asked this question. This 
challenge of foreign terrorist fighters that reside today 
mostly in Eastern Syria although some are being transported to 
other places is a real threat. I had a pretty senior military 
leader who reminded me that he did not want his children and 
grandchildren fighting these same terrorists, the same human 
beings because we detained them. He risked his life to get them 
and that we were risking putting them back out on the street.
    The State Department has led an effort to repatriate these 
places to countries where they have justice systems and the 
capacity to hold them for an extended period of time but I am 
mindful some of the terrorists that were captured early on in 
this fight after 2011 had 20-year prison sentences, they will 
be getting out pretty soon. This risk of foreign terrorist 
fighters and their reentry when they have not changed their 
ways and their desire to destroy America, destroy the West and 
commit acts of Jihad is a very real challenge.
    Mr. Rogers. Are they are of many different nationalities?
    Secretary Pompeo. Yes, we have repatriated to countries in 
Northern Africa. We have repatriated to Arab countries. We have 
asked every country to take back those that are own and then we 
have many that we won't be able to return for a host of 
reasons, and we have got to find a solution which we have not 
yet done. The State Department and Department of Defense are 
working closely with the Iraqis and others to figure out the 
best way to ensure they don't return to the battlefield. It is 
a real challenge.
    Mr. Rogers. Mr. Secretary, you have been very generous with 
your time with us today. We thank you very much.
    Secretary Pompeo. Thank you, Mr. Ranking Member. I 
appreciate that.
    The Chairwoman. Mr. Secretary, I, too, want to thank you 
again for spending this time with us. I would like to ask you 
if you think the State Department has gotten its swagger back, 
do you have adequate resources to fund your important work both 
here and overseas? And as we contemplate your budget for 2020, 
if there are specific requests, we would be happy to assist you 
in your very important work. So has the State Department gotten 
the swagger back?
    Secretary Pompeo. I hope so, but I will leave that to 
others to judge. I will leave those here in America and those 
around the world to make that decision. I hope they have. It 
has been an incredible privilege to lead amazing diplomats, 
civil servants, foreign service officers, and local employed 
staff around the world who are doing remarkable work while I 
have been the Secretary of State. I have been so fortunate to 
be their leader. I hope I have helped them perform their 
function better, and that is what I really meant, if we get 
swagger back.
    The Chairwoman. Well, I appreciate that and I must say I am 
honored to be Chair of this Subcommittee, it's a choice and all 
of us who serve on this Committee made this important choice so 
we want to be sure that we are responding to your requests, to 
the urgent needs. I know we can't solve all the problems of the 
world but we certainly would like to work with you to address 
the many, many challenges we have.
    So in closing----
    Secretary Pompeo. Thank you, ma'am.
    The Chairwoman. Thank you very much.
    And this concludes today's hearing. The Subcommittee on 
State, Foreign Operations, and Related Programs stands 
adjourned.
    And I thank you very much----
    Secretary Pompeo. Thank you, ma'am.
    The Chairwoman. For being with us.
    Secretary Pompeo. Thanks for conducting a very professional 
hearing.
    The Chairwoman. Thank you.
    Secretary Pompeo. I appreciate it. Thank you.
    The Chairwoman. The Subcommittee on State, Foreign 
Operations, and Related Programs stands adjourned.
    [Questions and answers submitted for the record follow:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    

                                          Wednesday, July 10, 2019.

  UNITED STATES EFFORTS TO COUNTER RUSSIAN DISINFORMATION AND MALIGN 
                               INFLUENCE

                               WITNESSES

JOHN F. LANSING, CEO, UNITED STATES AGENCY FOR GLOBAL MEDIA
LEA GABRIELLE, SPECIAL ENVOY AND COORDINATOR OF THE GLOBAL ENGAGEMENT 
    CENTER, U.S. DEPARTMENT OF STATE
JIM KULIKOWSKI, COORDINATOR FOR U.S. ASSISTANCE TO EUROPE, EURASIA, AND 
    CENTRAL ASIA, U.S. DEPARTMENT OF STATE
ALINA POLYAKOVA, DIRECTOR FOR GLOBAL DEMOCRACY AND EMERGING TECHNOLOGY 
    AND FELLOW AT THE CENTER ON UNITED STATES AND EUROPE FOREIGN POLICY 
    PROGRAM, BROOKINGS INSTITUTION
NINA JANKOWICZ, GLOBAL FELLOW, THE KENNAN INSTITUTE AT THE WILSON 
    CENTER

                 Opening Statement of Chairwoman Lowey

    The Chairwoman. Good morning. The Subcommittee on State, 
Foreign Operations, and Related Programs will come to order.
    I am pleased to welcome John Lansing, the CEO of the United 
States Agency for Global Media; Lea Gabrielle, special envoy 
and coordinator of the State Department's Global Engagement 
Center; and Jim Kulikowski, who used to sit right over here--
welcome--assistance coordinator for Europe and Eurasia at the 
Department of State, for today's first panel.
    For our second panel we will be joined by Alina Polyakova, 
director of the Project on Global Democracy and Emerging 
Technology at the Brookings Institution, and Nina Jankowicz, 
global fellow at the Kennan Institute.
    Since World War II the mission of the United States 
international broadcasting has been to provide accurate news to 
those abroad who lack access to a free press and accurate 
information. But in today's interconnected world information 
spreads more rapidly than ever before.
    While the United States is committed to advancing 
democratic principles, including freedom of speech and the 
press, Russia and others who do not share our values continue 
to utilize communication tools, from traditional print to 
social media to targeted ads, to do harm.
    Russian interference in the 2016 election was perhaps the 
most resounding wakeup call to this threat. Three years later, 
the United States still lags in responding to malign foreign 
influence in the information space. Technological advancements, 
such as deepfakes and synthetic videos, have made these risks 
even greater.
    Our goal today is to better understand these threats and 
how our investments in the United States Agency for Global 
Media, or USAGM, are informing, engaging, connecting people 
around the world, and how those audiences receive, perceive, 
and share content.
    It is also helpful to understand whether our efforts 
through the Global Engagement Center, or GEC, to counter 
propaganda and disinformation from international terrorist 
organizations and foreign countries are effective.
    I should read that statement again because that is really 
our concern. We appropriate many millions of dollars, and it is 
important for us to understand whether our procedures are 
effective.
    In fiscal year 2019 Congress appropriated $808 million to 
the United States Agency for Global Media and more than $55 
million to the Global Engagement Center. This included 
significant resources for a 24-hour Russian language television 
and digital news network for Russia, countries in Central and 
Eastern Europe, and around the world.
    In the House-passed fiscal year 2020 appropriations we 
provided funding to support data-driven programming and efforts 
to counter propaganda and extremist rhetoric. The United States 
has some of the best technology and marketing minds in the 
world. However, Russian disinformation campaigns only seem to 
be growing stronger.
    So it is clear to all of us that we have to adapt, innovate 
to effectively deliver programming and inform audiences. This 
is critical as disinformation has the potential to weaken 
democracies and to fan the rise of nationalists and anti-
European Union sentiments in the region.
    We just can't continue to operate in a vacuum. The United 
States must utilize all our tools of public diplomacy to get 
our message out and win hearts and minds.
    To achieve this goal we need a broader strategic dialogue 
backed by research that considers audience reach, media 
consumption, behaviors, evolving information technology 
practices, and perception of messaging from various sources.
    To make significant progress against malign influence we 
must consider how we can leverage the vast expertise and reach 
of the private sector in partnering to combat disinformation 
campaigns. So I truly welcome your thoughts today on all these 
topics.
    Before we hear your testimony I would like to invite my 
ranking member, Mr. Rogers, to make remarks.

                     Opening Remarks of Mr. Rogers

    Mr. Rogers. Thank you, Madam Chair, and thank you for 
calling this very timely hearing. I want to join you and the 
others on the panel to this hearing, and we look forward to 
hearing the testimony in what I hope will be an interesting 
discussion on a very important topic.
    I want to take a moment to acknowledge Jim Kulikowski. Jim 
K, as we call him, served this committee knowledgeably and 
adeptly as deputy staff director and chief counsel for the full 
committee, among several other distinguished positions, during 
his 24 years of service with House Appropriations.
    Jim was a shrewd negotiator. We could always count on him 
to ensure House priorities came out on top in conference with 
our Senate brethren and sisters.
    So we are glad to see you back here in a new capacity and 
warmly welcome you back to the committee.
    During my time chairing this subcommittee I had the 
opportunity to lead several of our members on two trips to all 
corners of Europe so we could see firsthand what Russia was up 
to. At each stop we were confronted with the Kremlin's malign 
activity in one form or another. It is pervasive throughout 
Europe, Eurasia, Central Asia, as well as the Arctic.
    On the last trip we went to Lithuania. There we had 
extraordinary conversations with several of their legislators, 
and members of civil society as well, who describe to us in 
detail a sophisticated disinformation campaign that they called 
Russian active measures.
    We were reminded that efforts by Moscow to discredit the 
United States and weaken the West are not new. In fact, these 
nefarious techniques date back to the former Soviet Union and 
include tactics such as written or spoken disinformation, 
efforts to control media in foreign countries, use of front 
organizations and other proxies, blackmail, personal and 
economic, and political influence operations.
    Those examples of Soviet era tradecraft still resonate with 
us today. As our Baltic friends explained, what is new is the 
transition to digital and online communication and Russia's 
relentless efforts to sow division by exploiting these new 
social media platforms.
    During the Cold War the Reagan administration established 
the Active Measures Working Group, an interagency body 
consisting of the old U.S. Information Agency, CIA, FBI, State 
Department, and several elements of the Department of Defense. 
As one study has noted, quote, ``The purpose of this group was 
to respond comprehensively to disinformation, to define it, to 
create institutions to tackle it, and to draw attention to it 
at the highest level.''
    I raise this perspective because the U.S. and our European 
friends are the targets of a ruthless adversary in the Russian 
Bear, one bent on suborning our democracies and undermining our 
historic trans-Atlantic alliance. That cannot be disputed.
    Perhaps a similar interagency effort and strategic 
communication strategy is required today if we are to 
successfully combat the Kremlin's influence and disinformation 
campaigns both here in the U.S. and abroad. While our 
subcommittee focuses on the funding of what must be a broader 
national strategy, I welcome a discussion on these and related 
matters.
    Lastly, Madam Chair, there are numerous adversaries that 
require our time and attention when it comes to countering 
disinformation and malign influence, but this subcommittee felt 
it was important to focus on Russia.
    The countries and regions facing attacks and other forms of 
aggression from the Kremlin remain one of our top priorities. 
We have included funding and policies in our annual 
appropriations bills on a bipartisan basis to demonstrate this, 
and we want to continue to provide you with the tools and 
resources that you need to ensure the U.S. is doing everything 
it can to shore up our allies and partners in combating Russian 
aggressions in all its forms. We look forward to hearing your 
thoughts today.
    I yield back.
    The Chairwoman. Thank you.
    After the panel presents their testimony I will call on 
members based on seniority of those members present when the 
hearing was called to order and I will alternate between 
majority and minority.
    We will be doing two panels today, and I want to ensure all 
members will have an opportunity to question all the witnesses. 
Therefore, each member is asked to keep their questions to 
within 4 minutes per round, which includes the response from 
our witnesses.
    Mr. Lansing, Ms. Gabrielle, Mr. Kulikowski, we will be 
happy to place your full testimonies into the record, if you 
would be kind enough to please summarize your written 
statement. I want to make sure we have enough time to get to 
everyone's questions.

                    Opening Statement of Mr. Lansing

    Mr. Lansing, please proceed.
    Mr. Lansing. Thank you, Chairwoman Lowey, Ranking Member 
Rogers, members of the subcommittee. Thank you for the 
opportunity to testify today about the efforts of the U.S. 
Agency for Global Media to counter Russian disinformation.
    USAGM is an independent agency that provides accurate, 
objective, and professional news and information to parts of 
the world that do not have the benefit of a free and open 
press. We accelerate that mission through the work of our five 
networks: the Voice of America, Radio Free Europe/Radio 
Liberty, Radio Free Asia, the Middle East Broadcasting 
Networks, and the Office of Cuba Broadcasting.
    Our programs reach a measured, unduplicated audience of 345 
million people on a weekly basis in more than 100 countries in 
61 languages on a wide range of all broadcast and digital 
platforms.
    Your hearing today could not have come at a better time. We 
are living through an explosion of disinformation, lies, and 
distortion spread by those very same authoritarian regimes that 
our networks report on.
    The weaponization of information that we are seeing is 
real, and the Kremlin is one of the primary aggressors on this 
front. Based on my observations, Russia's goal is to destroy 
the very idea of an objective, verifiable set of facts. From 
their perspective, in a world where nothing is empirically 
truthful, any lie will do, and if everything is a lie, the 
biggest liar wins.
    It is not an understatement to say that the information 
battlefield may be the fight of the 21st century. While the 
Kremlin seeks to control information, our journalists are on 
the front lines, often risking everything to shine a light on 
the truth. Those efforts create security concerns for our 
journalists and increasingly dangerous operating environments 
for USAGM personnel.
    Nevertheless, we are meeting the challenge head on. We 
reach Russian-speaking audiences through direct programming and 
expanded distribution of our new 24/7 Russian language digital 
and TV network known as Current Time. Current Time is a play on 
words. The most famous media brand in Russia, in Russian, is 
known as ``time,'' and Current Time in the U.S. would be like 
saying ``60 Minutes''' or the ``Real 60 Minutes.'' So Current 
Time is like the real news to Russian speakers.
    I am proud to share with you the incredible arc of success 
we are seeing with our groundbreaking network, which launched 
in 2017 thanks to your support. Current Time's aim is to reach 
Russian speakers anywhere in the world, not just within the 
boundaries of Russia, and to engage younger, savvy audiences 
with a heavy emphasis on digital and social media content so 
that they can share it with people within the Russian 
Federation.
    The network covers social, economic, and political issues 
that the state media ignores, such as protests, and challenges 
Russian viewers to form their own opinions.
    Our impact in Russia is clear. Due to Russian restrictions 
on broadcasting inside the country, Current Time operates with 
a fresh, digital-first, cross-platform strategy to reach around 
the broadcasting platforms not available to us in Russia.
    Of Current Time's 520 million video views--that is right, 
520 million video views--on social media last year, more than 
half came from within the Russian Federation. That wasn't true 
2 years ago. But we are aiming higher than that with our global 
distribution strategy. When Russian speakers anywhere in the 
world tune in to Current Time, here is what they might see.
    [Video shown.]
    Mr. Lansing. These efforts are part of our strategic focus 
on global language-based programming rather than limiting 
ourselves to national boundaries. We launched a similar effort 
in Farsi earlier this year, and we are currently developing a 
similar 24/7 network in Mandarin that we hope to launch in the 
spring of 2020.
    In addition, VOA and RFE/RL jointly lead two highly 
impactful fact-checking websites known as Polygraph.Info in 
English and Factograph in Russian. The sites evaluate Kremlin-
controlled disinformation on an hourly basis and immediately 
separate facts from fiction, adding context and debunking lies.
    Now looking to the future, USAGM will continue to 
prioritize Russian-language broadcasting and programming in 
other languages that will combat the Kremlin's sustained 
disinformation campaigns. Our work is providing an alternative 
to the false narratives and manipulated information 
disseminated by a regime that blocks a free press and is afraid 
of the truth.
    We provide journalism based on fact, balanced in 
perspective, and adhere to professional journalistic standards. 
This is something that Russians living in Russia rarely see if 
it weren't for the USAGM, journalism that reflects the values 
of our society, freedom, democracy, and hope. This is a core 
tenet for us, honest and truthful journalism as a catalyst for 
change, and it represents our best weapon on the information 
battlefield.
    All of us at USAGM are passionate and committed to ensuring 
that the global work we do delivers on our mission for the 
United States Government and the American people. We cannot do 
this without the support of Congress, and we are particularly 
thankful to this committee and the Appropriations Committee in 
general.
    Mrs. Lowey, we are grateful for your support of our work, 
and we value your oversight role and your advice here today. 
Thank you for the opportunity to testify, and I look forward to 
any questions you may have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Thank you.
    Ms. Gabrielle.

                   Opening Statement of Ms. Gabrielle

    Ms. Gabrielle. Chairwoman Lowey, Ranking Member Rogers, 
thank you for inviting me to testify before your subcommittee 
about the Global Engagement Center's work to coordinate efforts 
of the Federal Government to counter Russian disinformation. 
This is an important topic, and I very much appreciate that you 
have devoted this time to this issue.
    I am pleased to be joined here today with Coordinator 
Kulikowski and CEO Lansing. The various work of our 
organizations complement one another, and I think it is 
important that by testifying together we can paint a better 
picture of the work that is being done to expose and to counter 
Russian disinformation.
    The GEC's mission as defined by Congress is to direct, 
lead, synchronize, integrate, and coordinate efforts of the 
Federal Government to recognize, understand, expose, and 
counter foreign state and foreign non-state propaganda and 
disinformation efforts aimed at undermining or influencing the 
policies, security, or stability of the United States and 
United States allies and partner nations.
    Secretary Pompeo has called upon the GEC to employ a broad 
suite of tools to stop America's adversaries from weaponizing 
information and using propaganda to undermine free societies. 
It is clear that the Kremlin has been attempting to damage 
America's credibility among our allies and our partners, 
undermine trans-Atlantic unity, and to sow discord in target 
societies and weaken Western institutions and governments.
    Russia attacks those it perceives as adversaries by 
overwhelming target audiences with lies, questioning the very 
concept of objective truth and increasing polarization in 
societies. Russia has been aggressively deploying propaganda 
and disinformation since early in the Soviet era, but new 
information technologies allow it to cause harm on a much 
larger scale than ever before.
    Now, as then, free societies must unite and we must work 
diligently together to build public awareness, to promote 
resilience, and ultimately to defeat this threat to our values 
and to our institutions.
    The GEC is actively working with our allies and our 
partners in Europe to identify, recognize, and expose Russian 
disinformation and to promote accurate messages about the 
United States and our allies and our partners in the pursuit of 
freedom, prosperity, and security.
    We are also an active participant in the Russia Influence 
Group, which is co-chaired by the commander of U.S. European 
Command and the assistant secretary of the Bureau of European 
and Eurasia Affairs at the Department of State. This 
interagency body has been coordinating the lines of effort of 
the U.S. Government agencies to counter the various aspects of 
Russian malign influence in Europe for almost 4 years.
    The GEC has funded specific initiatives to counter Russian 
disinformation, and these include deploying technology to 
provide early warnings of foreign disinformation, analyzing 
which foreign audiences are most susceptible to targeted 
disinformation, developing partnerships with key local 
messengers to produce content to reach critical audiences, 
building the technical skills of civil society organizations, 
NGOs, and journalists to shed light on the spread of 
disinformation.
    Thank you for the opportunity to testify today. We 
appreciate this subcommittee's support for the GEC's mission, 
the attention to this subject, and I look forward to answering 
any questions that you have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you.
    Mr. Kulikowski.

                  Opening Statement of Mr. Kulikowski

    Mr. Kulikowski. Thank you. Thank you, Chairwoman Lowey, 
Ranking Member Rogers, thank you for your kind words, members 
of the subcommittee, and for this opportunity to discuss our 
role in countering Russian disinformation.
    The Office of the Coordinator of U.S. Assistance to Europe, 
Eurasia and Central Asia's historic efforts over 30 years to 
build free and democratic partners among states transitioning 
from communism are now focused on the central obstacle to this 
transition, Russian malign influence, including their use of 
disinformation.
    Of the $1.5 billion in fiscal year 2017 foreign assistance 
funds we coordinated in the region, we allocated over $103 
million to support independent media programming, including $56 
million in supplemental funding to help build resilience 
against Russian disinformation. Of the $1.3 billion in 2018 
funds, we have allocated thus far $54 million to support this 
media sector work.
    We use these funds to build resilience against Russian 
disinformation for four kinds of programs.
    First, media literacy, programs that teach producers and 
audiences of all ages how to separate fact from fiction. For 
example, in Montenegro the embassy public affairs section 
funded a digital forensics center that uncovered evidence of 
Russian involvement in a local protest designed to stoke ethnic 
tensions to destabilize Montenegro, and their work discredited 
the effort.
    Second, access to independent media and reliable content 
for local audiences. This helps shed light on all the levers of 
Russian malign influence. In Moldova, for example, a USAID-
supported virtual newsroom exposed 700-plus Facebook accounts 
spreading disinformation in advance of the February 
parliamentary elections. In Ukraine, NED is using our funding 
to support the two most popular online sources of objective 
information in Ukraine's Donbas region.
    Third, improving the professionalism, management, and 
financial sustainability of media outlets. For example, USAID's 
Balkan media assistance program helped to increase the online 
advertising revenue of one outlet nearly 500 percent and the 
audience traffic of another 113 percent. Likewise, State is now 
bringing Central Asian journalists to the United States to 
develop their professional skills.
    And fourth, we support strategic communications analysis to 
determine vulnerabilities and specific action needed. DRL, the 
Democracy, Human Rights, and Labor Bureau of the State 
Department, for instance, uses our funds to support research on 
the characteristics of audiences in the Baltics and the Balkans 
to help decisionmakers determine how best to raise awareness 
about disinformation, research that is also being used by the 
European Parliament.
    Madam Chair, our work to build resilience to Russian 
disinformation across the Europe, Eurasia, and Central Asia 
region builds on the work of U.S. Government partners across 
the interagency. Each partner brings its own comparative 
advantage to the table to complement our programs. Our 
collaboration will help us reach our common goal of countering 
this disinformation that is central to Russia's efforts to 
exert malign influence over each of the countries in which ACE 
works.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairwoman. Thank you.
    I would like to begin the questioning, and we will go from 
Democrat to Republican in the order in which you have arrived.
    This is a question for the whole panel. I see little 
evidence that we are successful in using all our tools of 
public diplomacy to get our message out and win hearts and 
minds.
    And I really question, even though we saw this beautiful 
commercial, how do we evaluate if we are effective in 
connecting the much larger operations and assets of the U.S. 
Agency for Global Media, the Department of State, and other 
agencies of the United States Government to assist in our 
efforts to counter state-sponsored disinformation or terrorist 
narratives?
    We have in the United States the best technology and 
marketing minds in the world. Are we harnessing these talents 
in this important area? Are we using all the platforms of the 
United States Government to counter the messages of ISIS and 
other terrorists? How do we redirect the conversation and 
better contest the digital information space?
    When you look--and many of us have visited many countries, 
spoken with many leaders--we are not doing so well in these 
efforts, and we have seen the impact of disinformation in some 
elections. So if you can address the last--why don't we begin 
with Mr. Lansing--address the last question. Are we really 
effectively using the digital information space?
    Mr. Lansing. Thank you for the question, Chairwoman Lowey. 
It is the right question. In the 4 years that I have been 
leading USAGM we have had a dramatic shift towards digital 
platforms, where in the past our primary method for reaching 
audiences was through, frankly, shortwave radio and AM and FM 
radio and some television.
    Our most recent efforts, including the Current Time network 
that we just discussed, are all digital first. And the primary 
method for reaching audiences with that network is on social 
media platforms on mobile platforms, and on other digital 
platforms.
    As I mentioned in my prepared statement, we are reaching 
540 million video views on social media platforms. That is, 
short-form videos that are traveling on social media platforms 
to the former Soviet space and within the Russian Federation. 
Our key is finding not just anybody, not just Russians 
generically, but young, savvy future leaders, people who will 
influence others, influencers.
    We are measuring our work not just by media reach. While 
reach is important--you can't influence anybody until you reach 
them--we are holding ourselves accountable to you and this 
committee based on our impact. And so we have measurements of 
impact that we measure every day against our media. And what 
are those measurements of impact? Do people find our 
information trustworthy? Do they share it? Do they like it? Do 
they do something with the information as a result of having it 
reach them?
    I can tell you that in Iran, for example--I know we are 
here to talk about Russia--but in Iran our trustworthiness is 
measured at 85 percent, and we are reaching fully a quarter of 
all Iranians within Iran with our content on Voice of America 
and Radio Free Europe. But generally across the globe, all of 
our content on average has a trustworthy factor of 75 percent.
    And so the one thing that we are exporting beyond a 
particular message or platform is the fact that it is 
believable. And in a world where you can't believe anything, to 
be able to reach people and have them believe it is truthful is 
really our number one export.
    The Chairwoman. I am going to turn to Ms. Gabrielle, but I 
would be interested, do you poll on a regular basis?
    Mr. Lansing. Yes, ma'am, we do. We use Gallup and other 
third parties just as U.S. media does, and we poll around the 
world.
    The Chairwoman. And the elections throughout Europe reflect 
all this outstanding media. Is that correct?
    Mr. Lansing. As far as I know.
    The Chairwoman. Ms. Gabrielle.
    Ms. Gabrielle. Yes, ma'am.
    Well, first of all, I appreciate your thoughts behind all 
the different, unique capabilities that we have, not just in 
the United States but really across the world in terms of our 
allies.
    You know, our adversaries, like Russia, they have weak 
alliances that are based on convenience, whereas the United 
States has true friendships that are based on trust, and that 
is because of the principles that we promote. So leveraging 
those alliances and leveraging those relationships and 
leveraging that trust is key.
    The GEC was essentially formed to answer the call 
specifically that you are asking about in terms of bringing all 
the different capabilities and technologies to bear. So we have 
four key priorities of the GEC that is leading our U.S. 
Government efforts to counter propaganda and disinformation.
    There is so much good work being done in this field across 
the U.S. Government, but if there is not a body that is 
coordinating those efforts, then we are going to be duplicating 
and we are not going to be supporting each other's efforts in 
the best way possible. Some of those efforts are in a 
classified space. Some of them are in an open space.
    So the GEC is building essentially a mission center that 
can coordinate all of these efforts. And within our mission 
center we are building the expertise. We are bringing in data 
scientists. We have people who used to work in advertising. We 
have experts in languages and in regional expertise. We have 
people who are influence experts, who are information 
operations experts, so that we can essentially be not just the 
mission center, but the center of expertise across the U.S. 
Government's efforts in countering propaganda and 
disinformation.
    Our second line of effort is working with our international 
partners. Our international partners, as I said before, these 
are true alliances based on trust, and they share information 
with us and we can share best practices and make sure that we 
are all working together to defeat the adversaries who want to 
use our basic vulnerability of our desire to communicate 
against us. They want to use our basic freedoms, that the 
principles that make us great, they want to use those as 
weaknesses. So we work with our allies to prevent that.
    Our third line of effort right now is leveraging all of the 
wonderful work that is being done in the private sector, the 
civil society and tech companies, the tech industry, as well as 
the media, bringing all of those efforts to bear, because there 
is so much work being done to counter propaganda and 
disinformation. It would be a huge mistake not to bring that 
together.
    And finally, we have to continue to assess and adjust as we 
go along. So this is something we are working on. The GEC 
received its mandate to counter state-sponsored disinformation 
a couple of years ago. We are building this effort, and I think 
that this is something that will ultimately bring us together 
so that we can make sure we are not duplicating efforts and we 
can make sure that we are bringing these efforts to bear in the 
best way possible.
    The Chairwoman. Thank you.
    Mr. Kulikowski.
    Mr. Kulikowski. Thank you, Madam Chair.
    So our efforts, as I said, are based on building 
resilience. So we don't put out messages. We teach people 
within each country how to respond, how to react to the 
messages they receive.
    So, for instance, in Ukraine the Learn to Discern program 
brings in people of all ages to teach them how to discern 
reality from falsity and has been used successfully in the 
elections leading up to the Presidential election. And that 
teaching is not only teaching them how to discern reality, but 
teaching them how to be responsible content creators so that 
they can become the messengers of truth, if you will, and put 
it out on the net.
    And the evidence is that those efforts are being successful 
and are being adopted by Ukraine to be spread throughout the 
entire educational system. So by creating users who know both 
how to discern reality and how to project true reality we build 
the resilience that no matter how large the effort is that 
Russia is putting out there, that the audience is not receptive 
to it and is able to respond on their own.
    Thank you.
    The Chairwoman. Thank you.
    I know my colleagues will pursue these issues, so I will 
turn this over to Mr. Rogers, although it is tempting just to 
keep going.
    Mr. Rogers.
    Mr. Rogers. Mr. Kulikowski, there is a multiplicity of U.S. 
Government actors involved in countering Russian 
disinformation. It is unclear to me at present how well 
coordinated these efforts are. A recent study by the RAND 
Corporation, for example, said that a wide list of agency 
responsibilities suggests the absence of a clear overall lead 
agency to coordinate U.S. Government activities to respond to 
the Russians.
    The State Department has their Global Engagement Center. 
State has, of course, the Bureau for European and Eurasian 
Affairs, U.S. Government Interagency Working Group. The Russian 
Influence Group, RIG, includes a lot of different agencies from 
DOD, State, DHS, and so on.
    Help me ring a bell here.
    Mr. Kulikowski. Yes, sir. Happy to, Mr. Rogers.
    So coordination overall with respect to Russian malign 
influence is my job, is the job of my office, my bureau. We 
coordinate through the agencies that you mentioned, and, in 
fact, each of those does something slightly different and has 
different authorities and ways to work.
    So we work with USAID. We provide--we coordinate on getting 
funding to them. And USAID works primarily on a development 
model, which is a program to develop capabilities and 
capacities over 5 years. The public diplomacy section in State 
works on a much shorter timeframe, and each embassy has its 
public diplomacy section that can take short-term projects and 
respond to immediate needs with agility to provide responses to 
issues as they come up.
    Democracy, Human Rights, and Labor, another Bureau in the 
State Department, has the ability to reach into countries that 
and work with those right on the border with Russia that we do 
not have the ability to reach into. The GEC has the ability to 
do messaging and other things that we don't have the authority 
to do.
    So there is a reason why these different agencies are 
involved in the effort. They each do different things. And it 
is really our job--my job--to help coordinate those efforts and 
make sure they fit into a coherent pattern, which we do on an 
annual basis planning out the program of operation with the 
money that we have for each country.
    Mr. Rogers. How can we know that you are succeeding?
    Mr. Kulikowski. Thank you.
    Obviously, we do evaluations. The evaluations are being put 
into place. We have short-term indications of the effectiveness 
of each of those programs. We measure them to show that they 
are accomplishing their task.
    I guess maybe you have to look at some of the bigger 
issues. You have to look at the results in North Macedonia, for 
instance, where a massive effort was put into place by Russia 
to make sure that the agreement was not accepted by either 
country. And through the combined efforts of all these agencies 
that we have talked about, we successfully battled that back 
and the people of North Macedonia and Greece gave us a huge 
victory, which is really an example that leads the rest of the 
West Balkans forward and gives them hope.
    So that is maybe not quite the answer you were looking for, 
but in terms of results, the Ukraine elections is another one 
where the efforts of Russia to disrupt the Presidential 
elections did not work.
    So at the 30,000-foot level at least there are many 
instances that indicate that these combined efforts are, in 
fact, succeeding against the huge effort Russia puts in to 
disrupt. That is not to say the war is won. That is to say we 
are winning battles as we go.
    Thank you.
    Mr. Rogers. My time is expired.
    The Chairwoman. Thank you.
    Actually, if I may take the liberty of following up with my 
good friend Mr. Rogers on the coordination. Can you just 
address the Global Engagement Center, DOD's Joint WebOps 
Center? Is this new DOD center performing duplicative 
functions? Are they doing a better job? Are they coordinating 
with you? If you can just describe this, I would be most 
appreciative.
    Mr. Kulikowski. I will do my best, Madam Chair.
    There are mechanisms in place that coordinate with DOD and 
with DOD centers. There are two mechanisms at the State 
Department, as Ms. Gabrielle explained. There is the Russia 
Influence Group, which is jointly chaired by DOD and State and 
coordinates with all the actors throughout the spectrum of 
malign influence activities.
    There is also with European Command, EUCOM, there is also a 
joint effort with State. State has a deputy commander at EUCOM. 
We were just there 2 months ago for a conference among all of 
the State Department heads of mission and all of EUCOM staff to 
coordinate our efforts, and this is an ongoing effort.
    So there are mechanisms. Some of these, some of the units 
that you referred to are fairly new. We are learning how to 
work with them. But the effort is underway and 5 months into 
the job I am trying to get there as quickly as I can. But the 
mechanisms and the structures are there to do it.
    The Chairwoman. Well, I am going to turn to Ms. Lee, but 
you look like you are so anxious to address this. Am I correct?
    Ms. Gabrielle. Thank you very much. I would appreciate the 
opportunity to address it.
    A couple of things. You mentioned the Joint MISO WebOps 
Center. I led a delegation from the State Department to visit 
because we will be playing a major role in coordinating the 
efforts of the WebOps Center.
    The Chairwoman. Where? Where is the WebOps Center?
    Ms. Gabrielle. It is in Tampa. It is co-located with SOCOM 
currently.
    So I led this delegation so that we could bring regional 
bureaus and membership from the regional bureaus to go and see 
what this is all about.
    Ultimately they are building a very strong messaging 
capability. So the GEC's role, as I have mentioned before, is 
to lead the U.S. Government's effort and to coordinate our 
effort in countering propaganda and disinformation, not all 
malign efforts, not all malign influence, but those specific.
    So as we build this mission center we are building the 
expertise so that the interagency can know that we are the 
place to come when you need expertise on countering propaganda 
and disinformation and also so we can lead those efforts.
    But we are new. In the past 2 years we have this state-
sponsored disinformation mission. The Russia Influence Group 
and others were 2 years ahead of us in their build. So a lot of 
places in the U.S. Government coordination had already started 
and been led. So our objective is to get involved in that 
coordination, show that we have the expertise, and then take 
the load off of the different organizations who are focused on 
their specific efforts so that we can do that coordination as 
we go.
    So Russia Influence Group is a good example. How the DOD--
how the GEC will be doing coordination and assisting with the 
DOD Joint WebOps Center. We are not focused on messaging at the 
GEC. We are focused on the strategic efforts to counter 
propaganda and disinformation. Words are not influence. Words 
are, you know, just words. We are working on influence in 
coordinating the efforts of the U.S. Government to counter 
disinformation and propaganda using influence.
    Thank you.
    The Chairwoman. I am pleased to turn to Ms. Lee and save 
other questions for later.
    Ms. Lee. Thank you very much. I want to thank our 
chairwoman and ranking member for holding this very important 
hearing today.
    I am very familiar, I think most of us, with state-
sponsored disinformation in our own campaigns here in America. 
It is well documented that Russia, for example, tried to 
influence and turn African American groups against each other 
through their interference in our elections. Russians' 
interference, of course, was very clear in terms of which 
candidate they supported for the Presidency. So we are very 
clear on what is taking place.
    I have been a longstanding member of this subcommittee, and 
I have long had concerns over the effectiveness of some of the 
programs run by the U.S. Agency for Global Media, including the 
Office of Cuba Broadcasting and Radio and TV Marti, which 
serves, quite frankly, no useful purpose. It is a waste of 
taxpayer dollars and it actually should be defunded.
    I am also concerned about recent reports that a project 
called Iran Disinformation Project, which was funded by Global 
Engagement Center, was attacking U.S. persons, human rights 
advocates, and journalists and academics on Twitter, including 
formally imprisoned Washington Post journalist Jason Rezaian.
    Special Envoy Gabrielle, as you know, the Global Engagement 
Center's approach is to work through credible partners to 
counter state propaganda, which you have laid out. Yet the 
selection of Iran Disinfo and their attacking online of U.S. 
persons raises serious concerns about GEC's vetting and 
oversight processes.
    I am also gravely concerned that Iran Disinfo also tweeted 
out patently partisan opposition to the Iran nuclear deal, 
which has nothing to do with countering state-sponsored 
propaganda.
    So what steps have you taken to ensure stronger oversight 
and accountability over grantees, and what safeguards are in 
place to ensure that GEC-funded programs do not violate U.S. 
values or norms that are nonpartisan and not opposing any 
specific policy that this administration just happens to 
oppose, such as the Iran deal?
    Ms. Gabrielle. Thank you so much for bringing this up this 
important topic. There is actually a lot of misinformation out 
there--and I say ``mis''' because I don't think it is 
intentional--about what happened with the Iran Disinformation 
Project.
    Essentially the GEC does find third-party partners to work 
with because the idea is to create force multipliers, right, to 
be able to spread truthful narratives using third-party 
implementers. That was the intent of that project. The intent 
was for it to unveil Iranian disinformation.
    The GEC learned that someone had tweeted a few tweets on a 
Twitter handle associated with that implementer that were not 
in the conduct that was intended. They were outside the scope 
of the agreement that we had with this implementer. I 
immediately suspended this within hours of learning that there 
were several tweets that were outside the scope of our 
agreement.
    I immediately suspended it, and we conducted a thorough 
review. We have since terminated our agreement with that 
implementer. Never the intent of the Global Engagement Center 
to have anyone tweeting at U.S. citizens.
    And I just have to add, because you mentioned Jason 
Rezaian, I am a former journalist myself. I was reporting on 
his situation. I was saddened by it. I was concerned for him, 
and I am very happy that he made it home safely.
    Ms. Lee. What accountability measures, though, have you put 
in place----
    Ms. Gabrielle. Thank you for asking.
    Ms. Lee [continuing]. To make sure that this does not 
happen again?
    And also the partisan nature of what you are doing, in 
terms of the messages, how do you ensure that, for instance, 
one of our partners does not tweet out or support a policy of 
the Trump administration, example, in opposition to the Iran 
deal? That is very undemocratic.
    Ms. Gabrielle. Again, this has to be a nonpartisan issue, 
and us coordinating efforts to counter propaganda and 
disinformation has to be nonpartisan because our adversaries 
want to create divisions among us to separate us. So I 
completely agree with you that this has to be nonpartisan going 
forward, and we are a nonpartisan organization.
    As far as the use of freedom of expression by our 
implementers, that is not something we can control, but what we 
can do is put mechanisms in place so that we are aware of what 
is happening. And if they go outside the scope, we can more 
quickly realize it, assess it, and terminate those agreements.
    Ms. Lee. You have got to do it in advance. You have got to 
put some accountability measures in before they actually sign 
the contract.
    Ms. Gabrielle. Completely agree.
    Ms. Lee. And then you have got to make sure that there is 
some oversight and transparency during the process or during 
the timeframe of their contract.
    Ms. Gabrielle. We absolutely agree with you. And, in fact, 
we are tightening up the scope of agreement in agreements like 
this to lay out specific requirements. We are also putting 
oversight mechanisms in place. My team has conducted a thorough 
review of our other similar mechanisms so that we can assess 
them and be better about recognizing earlier.
    Again, if someone tweets a few tweets, those things happen 
fast and the damage is done very quickly. I couldn't agree more 
with you that we need our implementers to stay within the scope 
of our agreements because this has to be a nonpartisan issue. 
This is a national security issue, and we have to work together 
as a country.
    Ms. Lee. Thank you, Madam Chair.
    The Chairwoman. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair. And let me, first 
of all, express my appreciation for you holding this hearing. I 
think this is very important.
    I have worried for some time that our government media 
outreach initiatives were in serious need of replenishment and 
regeneration. And, frankly, I am inspired by your 
presentations. Obviously, you all embrace this with a great 
passion, and you are looking at the tools of the modern media 
economy to better leverage successful outcomes here.
    In that regard, let me ask you, Mr. Lansing, you have a 
measurement of 520 million views that you put out. Each week I 
get a report where my own tweets and my own Facebooks, how many 
people have looked at them. And by the time you start adding 
that up, you know, you are in the tens of thousands of people. 
I mean, 2,000 might look at this one. Sometimes one breaks and 
it is 20,000 or 30,000. And so that adds up and piles up quite 
a bit. So I get what you are trying to say with 520 million 
views.
    But going back to what you said, measurement of impact, is 
that really an accurate number? There are other ways in which 
you can determine impact, and I think we ought to unpack that.
    I have several other questions, so if I cut you off it is 
just going to try to get to a whole spectrum of things, so if 
you could give me some assessment of that question.
    Mr. Lansing. No, that is a great question, Congressman 
Fortenberry.
    We hold ourselves accountable, as I said earlier, to impact 
over reach. The reach is measurable because it is social media 
platforms and they report their analytics and so that makes it 
even easier for us to understand the reach versus broadcast 
media.
    But we don't really think reach is the primary measurement 
for us. It is really what do people do having received our 
content. Do they share it? Do they like it? Do they take some 
aggressive or nonaggressive or civic action as a result of it? 
We measure all that through qualitative research that we do in 
the field.
    The most important measurement, in my mind, honestly----
    Mr. Fortenberry. What does that mean? Polling?
    Mr. Lansing. Polling. Yeah, just like in the United States. 
I came out of the private sector as well. It is Gallup and 
other polling companies that do interviews by phone and in 
person.
    Mr. Fortenberry. Okay. Good. And I think this is a softer 
place, a softer science. It is harder. Sometimes we in 
Congress, we look at how much money we are spending and how 
good our intention is, and we determine that that is a 
measurable outcome that it is effective, and that is not 
necessarily the case. So that is one of the areas that 
obviously we need to do work on. You are clearly skilled at 
that.
    Secondly, though, how does our effort compare to Russia's, 
for instance? Now, there is different intentionality, and I 
don't want to say our intentionality is the same at all. There 
is different intentionality. But in terms of the actual 
outreach efforts, by what measure can you compare us to what 
Russia is doing?
    Mr. Lansing. Well, I don't know exactly what they invest in 
RT and in Sputnik and in other Russian media, but I know that 
it is more than what the United States Government invests. Of 
course, all media in Russian is----
    Mr. Fortenberry. Right. Ten times? A hundred times?
    Mr. Lansing. I think it is around a 10X factor, absolutely.
    Mr. Fortenberry. Back to the question that both Ranking 
Member Rogers and Mrs. Lowey also raised, our chair, how can 
you assure us that in, for instance, your use of partners to 
leverage outcome, that that isn't a force multiplier, that that 
may be a force multiplier or it may be indicators of 
fragmentation?
    Again, until you have come along, my impression is of this 
whole entire government effort, that it is very fragmented, and 
that, again, it was in serious need of replenishment and 
updating.
    So explain how your work--and perhaps, Jim and Mr. Lansing, 
your work all go together--or I should say Mr. K, sorry, as we 
used to call you when you worked around here--explain that a 
little bit clearer because it seems like there are a whole-of-
government approach going on here or a fragmented approach 
going on here.
    Ms. Gabrielle. Coordination is certainly one of the biggest 
challenges across any number of institutions. So it is a very 
difficult job, as I am sure you are aware. But that is our 
primary focus, is doing that coordination piece.
    So we have looked at best practices at the Global 
Engagement Center in building a strategy for how we can conduct 
coordination across the government. And since our mission is 
global, we have to focus on every threat of disinformation and 
propaganda and globally how that is applied. So we are building 
an interagency and international coordination cell based on 
best practices that we have seen in doing coordination.
    Mr. Fortenberry. Where? At State Department?
    Ms. Gabrielle. So, again, yes, at the State Department.
    Now, let me clarify. There is some confusion because the 
GEC is at the State Department, but our mandate is the whole-
of-government coordination, not just within the State 
Department. So one of the first things I had my team do when I 
came on board is build a slide for me to show us who are we 
supposed to be coordinating----
    Mr. Fortenberry. Okay. So you have a map of this? I think 
we need to see the map of this. I think my time is up, but----
    Ms. Gabrielle. I am happy to share with you our diagram.
    Mr. Fortenberry. To the degree you can, I get it.
    Ms. Gabrielle. I call it my spaghetti diagram, because 
essentially we are coordinating the entire world of countering 
propaganda and disinformation. But we are using best practices 
to do it. It takes some time.
    And as Mr. Kulikowski was saying, you know, it is not a 
matter of who is in the lead for what specific objective; it is 
a matter of us making sure we are working together and deciding 
who is leading, and for us it is coordinating----
    Mr. Fortenberry. I get it. I have oversimplified it. You 
have laid down a mapping strategy.
    Madam Chair, I think that would be important for the 
committee to see.
    The Chairwoman. Thank you.
    Mr. Fortenberry. Thank you.
    The Chairwoman. And Ms. Meng.
    Ms. Meng. Thank you, Madam Chairwoman and Ranking Member, 
for holding today's important hearing.
    I wanted to ask Mr. Lansing, I know today's hearing is 
about American efforts to combat Russian disinformation 
campaigns, but I wanted to address and to hear about concerns 
over USAGM's management that have risen again in the past few 
days in the news.
    The credibility and transparency of USAGM is critical to 
ensure that we are able to provide a counterbalance to the 
corruption in many of the countries where your programming is 
being broadcast.
    Can you please address for us your plans and ensure us how 
you are fortifying these safeguards at USAGM that ensure that 
your reporters are providing accurate and unbiased news to 
viewers and also now you are conducting oversight in relation 
to financial management, for example?
    Mr. Lansing. Sure. Thank you for that question.
    So we have redoubled our efforts at program review with all 
of our networks and all of our content. We broadcast, as I said 
earlier, in 61 languages to over 100 countries 24/7.
    We have a process in which each of the five networks 
reviews its content on a rolling basis that has already been 
broadcast, reviews it for professionalism, for accuracy, for 
discipline, and for adherence to the highest standards of 
professional journalism. And all of those reports, all of those 
reviews roll up to me to review on a regular basis.
    We have redoubled our effort in that. We have added more 
resources and more people so that we can do that on a more 
consistent basis.
    The most important thing that we have, Congresswoman Meng, 
is our credibility. That is what we are actually exporting to 
the world, honesty and credibility and professional journalism. 
And we hold ourselves to the highest standards of professional 
journalism in our review process, and in our editorial 
development process. It is something that I have done my whole 
professional career.
    We have an excellent team of people leading our networks. 
Amanda Bennett leads the Voice of America, a twice Pulitzer 
prize-winning journalist. Ambassador Alberto Fernandez is 
leading MBN and has really in the last year and a half reshaped 
the entire Arabic strategy for our business. Radio Free Europe 
launched Current Time and has completely rebuilt our Russian 
media strategy. And I can go on and on, so----
    Ms. Meng. Actually, so sorry to cut----
    Mr. Lansing. Yeah.
    Ms. Meng. I wanted to know, you have increased your 
personnel resources; I assume. Do you know how many personnel 
there are? What is the number of the increase? And how often do 
they undergo this kind of review?
    Mr. Lansing. It is a rolling review. It happens constantly 
as we roll forward. Each network is of a different size. Voice 
of America has 43 language services. Radio Free Europe has 21 
language services. MBN has one language; it is in Arabic. We 
have a Latin America Division within Voice of America.
    So each one is tailored to that particular network, so 
there are many more people at Voice of America doing program 
review, for example, than, say, at Middle East Broadcasting 
Network since there are just more languages to review.
    Ms. Meng. What about TV Marti, for example?
    Mr. Lansing. TV Marti, we are currently undergoing a 
complete, bottom-to-top review of all of its editorial 
processes. We put together a panel of five Spanish-speaking 
journalism professors to review the content of OCB over the 
last several months. They put a report together for me that 
indicated there were serious lapses in the professionalism of 
the journalism at OCB.
    And, as a result, I have taken actions to remove several 
people from OCB, and we are currently reviewing the entire 
management structure and the mission of OCB. And we are in the 
process right now of evaluating what steps we will be taking to 
strengthen and fortify the content and journalism coming out of 
OCB.
    Ms. Meng. Okay. Will you be able to report back, as you are 
making improvements, increasing resources on some of the these 
improvements that you might have made, to our committee?
    Mr. Lansing. I absolutely will.
    Ms. Meng. Thank you.
    I yield back.
    Mr. Lansing. Thank you for your question.
    The Chairwoman. Thank you.
    Mrs. Roby.
    Mrs. Roby. Thank you, Madam Chair.
    And thank you to all of the panelists for being here this 
morning for this very important hearing, and I thank the 
chairwoman and the ranking member for holding it.
    And, you know, I, too, along with my colleagues, as you 
have heard, share the concern about this coordination across 
government agencies.
    And I think, Mr. Kulikowski, we talked about--or you 
mentioned in response to one of the questions about reporting 
annually. And I would just like to start and say, I wonder if 
there is an opportunity maybe for you to revisit with this 
committee a little bit more often than just annually with some 
updated information as to how those coordination efforts--
because, again, I think that there is an overlying concern here 
about those coordination efforts.
    So, to the extent that the chairwoman would also agree, I 
think it would be beneficial for this committee to hear more, 
rather than just waiting for a full calendar year or fiscal 
year before we hear back from you.
    But my specific question is for you, Special Envoy 
Gabrielle. I understand that GEC has developed, as in your 
testimony, your own counter-Kremlin strategy. And I would like 
to know, specifically referring to, as you said in your 
testimony, analyze, build, and communicate this model.
    What does that mean? What accountability measures are in 
place? If you could drill down on that. I guess, in other 
words, how do you know that the strategy has been effective?
    And, again, this goes back to these overlying concerns 
about, you know, what are the metrics by which we are grading 
success with all of these efforts.
    Ms. Gabrielle. So, as I mentioned before, the GEC's 
counter-state-sponsored-disinformation mission is still 
relatively new. So we received our first dollars, our first 
funding for this about a year ago.
    So we are building into all of our programs and all our 
initiatives measurements and evaluation techniques. We actually 
have brought on a team that can establish at the beginning of 
each initiative what some of those points are that should be 
evaluated as we go along.
    I think that that is key, having almost somebody from the 
outside but that is within the organization hired specifically 
to be looking at that and helping us identify measurements of 
success. Because evaluating how well you have influenced 
someone or a target audience is not easy to do unless you have 
a specific marker on the board when you start out.
    I think a good example is our support, which we worked with 
Mr. Kulikowski's organization, on the--worked with the North 
Macedonian Government to help ensure a free and fair vote in 
the lead-up to the September 30th naming referendum. We 
actually provided people on the ground there to support, with 
insight reports, giving demographic and micro-targeting 
information, really using data scientists to support that 
effort.
    That is a good example where at the beginning you want to 
know, here is the marker. If people are getting out and voting 
and if that is the measurement of success, well, then that is 
the thing that is easily measurable. Identifying how well 
someone has been influenced is more difficult, but we are 
putting mechanisms in place. That is just one example.
    You asked about the ABC's. So what that really means--and 
thank you for reading this--is, you know, we first begin with 
analyzing. We have to analyze what the tactics are that are 
being used against us by our adversaries, really understanding 
them and understanding what the target populations are and 
whether or not our adversaries are being effective. Because if 
they are not, then we are not going to put our efforts there. 
But analyzing the target audiences and understanding how they 
are being targeted.
    The second is building, really building the capability and 
the capacity of foreign partners to be able to identify 
disinformation and to be able to respond quickly to it. Right 
now, we have a number of international initiatives, including 
working with foreign governments, and then on the ground, 
working with civil society actors and that.
    And the third is really communicate; the ``C'' of the ABC 
is communicate. You know, Russian disinformation takes 
advantage of vacuums of information. So, with our partners, we 
fill that information space with, as directed by Congress, 
fact-based narratives.
    Mrs. Roby. And just real quickly, using that model, have 
you been able to identify areas of the world that are most 
vulnerable to malign information attacks?
    Ms. Gabrielle. Yes, we certainly have. And I think that, 
you know, for the purposes of this committee, you know, we are 
talking about Russia and where Russia is effective.
    We know that Russia specifically targets the U.S. And there 
was a question earlier about, you know, how much effort does 
Russia put at this. Well, the United States, we have to look at 
the entire world, whereas Russia very much focuses its 
adversarial behavior on the U.S.
    So we are constantly using data scientists, data analysis 
to identify what are the most vulnerable audiences and where we 
should focus our efforts. And that is part of our coordination 
piece. As the interagency looks to us to be the experts in 
countering propaganda and disinformation, that data science is 
key in helping them understand where those efforts should go.
    Mrs. Roby. I appreciate it.
    And I have gone over my time, Madam Chair, but I do think 
that there are some good followup questions here, as this is 
being laid out for us, in terms of being able to measure the 
success, not only from State on reporting the impact of the 
coordination of these government agencies, but also, as more 
information becomes available, that this committee be made 
abreast of what is going on and the successes and the 
challenges that you are facing moving forward. I think that 
would be very helpful.
    So thank you, Madam Chair, for holding this hearing today. 
I appreciate it.
    The Chairwoman. Thank you.
    I am going to turn to Mr. Price, but, at another time and 
maybe a followup question, when you said Russia primarily 
targets the United States, it is hard for me to believe that 
they aren't very involved in elections all throughout Europe 
and in other places of the world.
    But I will turn to Mr. Price now, so you can save that for 
another time.
    Mr. Price. Thank you, Madam Chairman.
    Mr. Kulikowski, I want to welcome you back to the committee 
and, particularly, thank you for raising the issue of the 
disinformation efforts underway in the former Soviet states and 
in the former communist states of Central and Eastern Europe. 
You mentioned Montenegro and Moldova, both notorious cases, and 
I assume there are more where those came from.
    And, of course, Mr. Lansing, your outlets are broadcasting 
in most, if not all, of these places.
    And, also, Ms. Gabrielle, if you wanted to chime in on the 
question I am about to ask, you are welcome to do so as well.
    I am interested in what patterns you are seeing in terms of 
Russian efforts in these countries. I know that is a broad 
question. What kind of generalizations can you make?
    And I am particularly concerned about the kind of 
democratic backsliding we have seen in many of these countries. 
Many are fragile democracies to start with, and then others 
that we had thought were joining the Western community of 
nations have backslid in some pretty alarming ways. I wondered 
how that has changed Russia's approach and your approach to 
countering Russian influence.
    I suppose there are a number of things one could ask. Has 
this democratic backsliding made it easier for Russia to 
interfere, or has it altered the character of that 
interference?
    In terms of the local outlets that you champion, Mr. 
Kulikowski, that you try to empower, what kind of threats and 
dilemmas and problems has this posed for them, these 
developments in their own countries?
    And then how do we cover it? How do we deal with this? Let 
me just take Hungary as a case study. How do we describe it 
when President Trump welcomes Viktor Orban to the Oval Office? 
Do we cover the Republican and Democratic Senators when they 
warn him not to do this? Do we, in our broadcasts, indicate how 
controversial this is in our own country? And certainly how it 
relates to what is widely perceived as democratic backsliding 
in Hungary.
    I would love to see transcripts of our coverage of that 
Orban visit to the Oval Office. If they are available, I think 
that would be very useful. I think this would be a pretty 
interesting case study.
    But you see the kinds of issues this raises. And I wonder--
maybe we will start with you, Mr. Lansing--as to how we deal 
with it.
    Mr. Lansing. Thank you for the question, Congressman Price.
    We will absolutely provide you transcripts of our coverage 
of anything, but particularly of the Orban visit to the White 
House.
    Our role, through Voice of America, is to cover America for 
the world. And we do it in a professional, unbiased, 
journalistic manner. We don't carry a particular point of view, 
Republican or Democratic or the administration. Our point of 
view is to give all sides of any particular story and report 
that in parts of the world that don't have a free media.
    I will tell you--it was a multifaceted question. One point 
I wanted to make. You asked, how are the Russians influencing 
parts of the world where we are seeing backsliding in 
democratic institutions? Well, we are seeing that more and 
more, as you know, in even NATO countries like Romania, 
Bulgaria, Turkey, Hungary. And so, just this year, we expanded 
Radio Free Europe's coverage into Romania--Romanian--and 
Bulgaria, so that we are there now, present where we weren't 
before, because it had become more democratic. Now that it has 
backslid, we are in there now confronting Russian 
disinformation and lies with truthful and factual information. 
We are also, at this very moment, exploring an expansion into 
Hungary, as well, for the same reason.
    One of the things I thought the committee might find 
interesting--and I am sure you are already aware of--while we 
saw the malign interests in our 2016 election was done by, you 
know, warehouses full of Russian trolls and robots even, what 
we are seeing now it is stepping up into artificial 
intelligence. And so the Russians are using AI to create 
information, to create personalities, to create actual people 
that don't really exist as a means of communicating and 
disrupting societies--democratic societies or societies that 
are teetering on the edge of a democracy.
    I will reflect back on my testimony earlier, but the very 
fundamental strategy of the Kremlin when it creates an attempt 
to disrupt a democratic society is to just sow chaos. It is 
about making the truth seem so elusive that nothing can be 
believed. And that is what we are really up against.
    You know, they say a lie can go around the world while the 
truth is putting its shoes on. And so it is a very, very 
difficult thing to combat a persistent attempt to just make 
everything seem to be a lie. Because if everything is a lie, 
then the Russians can step in, and then whatever they want to 
do they do.
    And so that is the battlefield that we are on. And we are 
engaged on many, many levels, both in terms of our journalism 
and our content but also through our fact-checking websites 
that are, on an hourly basis, disputing Russian lies with facts 
and truthfulness. It is a battle out there. I mean, I can't say 
we are at the promised land or that we have reached the 
epiphany of making all of this going away, but we are engaged.
    I think the one thing I guess I would ask--and I know you 
get asked a lot since you are on the Appropriations 
subcommittee--is, you know, just help us fund the effort. It is 
becoming more and more expensive, because the Russians are 
sparing no expense in disrupting all of these democratic 
institutions.
    And I hope that answered your question.
    Mr. Price. Yes.
    Mr. Kulikowski. Thank you.
    Just to add to that, I agree very much with the pattern 
that was referred to. The pattern is to create chaos, to seize 
any opportunity to go in and confuse and divert and undermine 
processes that are underway. It is opportunistic, and it is 
opportunistic across the board.
    In terms of backsliding when some of the countries, are EU 
and NATO members in Eastern Europe, the importance is to make 
sure that the institutions and the media capabilities that we 
have built remain in place. And so, when the Secretary was in 
Hungary last February, he announced a program, a regional 
program, to invite investigative journalists from Eastern 
Europe to the U.S. to make sure that they had all the tools at 
their availability to continue to be able to watch out for the 
kind of corrupt influences that is one of the means Russia uses 
to insert its messages.
    So those efforts, those regional efforts are underway. A 
$700,000 grant program has hit the streets. The grant 
applications are in, and we are going through them as we speak 
to make sure that that capability remains.
    We are also able to work with NED, for instance, in the 
region, and NED has several grants funded to promote freedom of 
information and democratic ideals in the region.
    So we have ways of making sure, even as we pursue the 
strategy of engagement with the democratic leaders of those 
countries, to assure that the capabilities that are necessary 
to battle back remain in place and are renewed and 
strengthened.
    Mr. Price. Thank you.
    The Chairwoman. I can't resist again, before I turn to Ms. 
Frankel, but we won USA's soccer match, right? I can't believe 
that, how difficult it is, we can't win this battle. So I am 
really interested in pursuing the questions that Mr. Price 
asked and I think we are all asking. We know it is a battle, 
but we have to win.
    And there is certainly a lot of money being put on the 
table. And the reason we wanted to have this hearing, to ensure 
that we are spending the money in the most effective way and 
not just continuing business as usual. Because I have seen many 
of the buildings, talked to many of the people, and the 
expertise is there, certainly in the private sector. And I am 
hoping that we will clearly focus and win this battle.
    But Ms. Frankel is next. Thank you.
    Ms. Frankel. Thank you. I think you are being kind when you 
call it a battle. I would say we are in a war. And what I would 
be interested in, Madam Chair--and I thank you for this 
hearing--is to have a comparison between how much we are 
spending on military hardware versus how much we are spending 
to counter this cyber warfare. Because it seems to me that this 
is the war of the--are we in the 21st century? Yes.
    I want to ask you specifically, what is the line--the lines 
of Russian propaganda, what are they basically--what kind of 
information are they getting out, specifically? What are the 
tails that they are telling, their fake news? What do you see?
    And let me just--I am going to add something to the 
question. Do the Russians ever use any of our President's 
statements in their propaganda, such as the Russian 
interference in our elections is a hoax or that he believes 
Putin when it comes to Russian interference?
    Ms. Gabrielle. So, as far as the lies that Russia tells, 
you know, Russia is, of course, the most expansive and 
aggressive actor in this space--and I want to clarify what I 
did said earlier. When I say that Russian primarily targets the 
U.S., what I mean is us, our allies, our Western institutions, 
those bonds that we have, anything that basically undermines 
the type of society that they want to have.
    But as far as the lines of effort, you know, we have been 
saying they covertly plant false stories, they use----
    Ms. Frankel. Just give me a couple of examples of fake 
stories. Because we have been talking in generalities. I would 
like to know what kind of information they are spreading. What 
are they saying, for example?
    Ms. Gabrielle. Well, it really depends on the country, and 
I----
    Ms. Frankel. Well, just give me an example. Pick a country 
and give me an example.
    Ms. Gabrielle. Okay.
    Ms. Frankel. Anybody can help her.
    Mr. Lansing. I will help her.
    Ms. Frankel. Go ahead.
    Mr. Lansing. No, she doesn't need help. She is doing a 
great job.
    You know, the thing is, it is interesting, the Russians are 
really not pushing a particular narrative other than ``nothing 
is true,'' that you can't have any faith in any institution, 
that a democracy----
    Ms. Frankel. Well, give it to me. I don't want to be----
    Mr. Lansing. It just matters----
    Ms. Frankel [continuing]. Rude. Just tell me how they do 
it. What do they say? What do they show? What do they----
    Mr. Lansing. For example, when MH17 was shot down in 
eastern Ukraine, the Russian narrative on that was that the 
Americans loaded the plane with a bunch of dead bodies and shot 
it down themselves so they could blame the Russians.
    Ms. Frankel. Okay.
    Mr. Lansing. There is an example.
    Ms. Frankel. Okay.
    Have they ever used any of the words of our President in 
any of their disinformation?
    Mr. Lansing. I am sure they have. Of course.
    Ms. Frankel. Well, you are sure they have; of course. You 
would know. Can you tell us?
    Mr. Lansing. Yeah. I mean, they take the news as we receive 
it--or as we broadcast it, and they distort it and change it 
and----
    Ms. Frankel. Well, how about the President's comments, over 
and over, that the Russian interference with our election is a 
hoax? How about his statements in--was it Helsinki?--where he 
stood up next to Putin and said, ``Well, why shouldn't I 
believe him?'' He said the Russians didn't interfere with the 
election. Have you ever--know of any times where that 
information was spread by the Russians in other countries?
    Ms. Gabrielle. So we are developing analytics and research 
capabilities where we can look into and we can assess things 
like that.
    I want to just answer your question that you asked before 
about some of the other----
    Ms. Frankel. No, no. Answer that.
    Ms. Gabrielle. Okay.
    Ms. Frankel. Okay.
    Ms. Gabrielle. So I will tell you this.
    Ms. Frankel. Yes.
    Ms. Gabrielle. The Russians will use every division 
possible to fragment us as a country. They will use your words, 
they will use my words, they will use the President's words, 
they will use any words they can to divide us and to separate 
us. So, absolutely, any little string we give them of division, 
they will exploit that. That is their tactic.
    Ms. Frankel. Okay. Thank you. I guess you are answering my 
question, is, yes, they have used the President's words.
    All right. So--and thank you for that example. Are there 
any other examples any of you can give me?
    Ms. Gabrielle. The poisoning of the U.K. citizens in 
Salisbury, England; energy development and distribution; NATO 
exercises and deployments; the crisis in Venezuela; and 
countless other topics. Again, they will use your words, they 
will use my words, they will use any words they can to divide 
us.
    Ms. Frankel. Now, how do you pick your targets, which 
countries you are going to be working in?
    Mr. Kulikowski. Well, we pick our targets--we work with 
basically all countries in the region that we work in. We pick 
our targets in conjunction with the guidance that you provide 
us. So our targets are your targets, which prioritize Ukraine, 
Georgia, Moldova.
    But we work with the balance of the countries. The Western 
Balkans are extremely important to us. But we work with you on 
determining where the funds go and how we choose our targets.
    Ms. Frankel. Okay. Thank you.
    Madam Chair, my time has run out, but I do again want to 
just request that I really think it would be interesting to see 
the amount of money we spend on this counterintelligence work, 
because you have different--you are TV, internet, and so forth. 
I would like to see how much we spend and compare it to the 
money we spend on military hardware, and even on our troops.
    And, with that, I yield back. Thank you.
    The Chairwoman. I was just discussing with staff that I 
wish we had a couple more hours, because this panel is so 
invaluable. We are not finished yet. We have Mrs. Torres, and 
then we have another panel. So we will have to bring you back 
another time.
    But Mrs. Torres.
    Mrs. Torres. Thank you. I am going to try to be very brief 
with my questions, piggybacking on what was just asked.
    How is the information and the images of toddlers behind 
jail cells and having nothing but a sheet of aluminum to cover 
themselves, pooping themselves, nobody feeding them, how are 
those images being portrayed to the world about America?
    Mr. Lansing. In the same way that any American journalistic 
enterprise is reporting that story, our journalists report the 
story----
    Mrs. Torres. Are they being truthful about----
    Mr. Lansing. Yes.
    Mrs. Torres [continuing]. What is going on out there, or 
are they spinning that to----
    Mr. Lansing. We don't----
    Mrs. Torres [continuing]. Create an image----
    Mr. Lansing. Congresswoman Torres, we don't spin anything. 
We report the----
    Mrs. Torres. Not you. I am asking how the Russians----
    Mr. Lansing. Oh, how the Russians are----
    Mrs. Torres. Yes.
    Mr. Lansing. Well, I can't give you a specific example of 
how they are covering----
    Mrs. Torres. You are the friendly ones.
    Mr. Lansing. We are the friendlies.
    Mrs. Torres. Yes.
    Mr. Lansing. I don't have a specific example. I can only 
assure you that they are looking for a way to report that story 
in a way that makes America look like it is----
    Mrs. Torres. Will you report back to the committee on----
    Mr. Lansing. Yeah, of course.
    Mrs. Torres [continuing]. How those images are being spun? 
I am very concerned about how----
    Mr. Lansing. How the Russians are reporting on that story? 
Sure.
    Mrs. Torres [continuing]. How the Russians are reporting 
that and how that information is being utilized to diminish, 
you know, our standing as a global leader.
    So I want to bring the conversation back to our hemisphere 
and Latin America. So, beyond Cuba, Venezuela, and Nicaragua, 
where have you detected significant Russian influence in Latin 
America? And to what extent does corruption make countries more 
vulnerable to Russian influence?
    Mr. Lansing. You named the countries that are most 
influenced by the Russians, starting with Cuba and Venezuela, 
Colombia, El Salvador. I think wherever you see a Latin 
American country that is backsliding in democratic ideals, I 
think you will find the Russians there helping to make that 
happen.
    Mrs. Torres. Specifically to the Northern Triangle, how is 
corruption there being----
    Mr. Lansing. The corruption, I think, is something that is 
largely the result of Russian influence.
    Mrs. Torres. All right.
    Any of you have anything else to add to that?
    Ms. Gabrielle. Well, we are certainly seeing Russian 
influence in Venezuela, of course, as well as other adversary 
actors in Venezuela trying to influence their local 
populations.
    And for the GEC, part of our mandate is recognizing and 
understanding where propaganda and disinformation are occurring 
globally. That is part of the reason that we have dedicated 
intelligence officers from the intelligence community who are 
detailed into our spaces of the GEC to assist with us and to 
point out when there are specific areas that we need to look 
at.
    Mrs. Torres. I think we have to pay attention to our 
hemisphere.
    Mr. Lansing. Yeah.
    Mrs. Torres. You know, about 3 years ago, I was in Chile. 
They had a partnership with Russia with satellites, satellite 
infrastructure that was being built there.
    So I think that we need to pay special attention to our 
hemisphere and how this administration is treating migrants 
that are coming here seeking asylum and how that information is 
being utilized against, you know, our moral values as American 
citizens.
    And, with that, I yield back.
    The Chairwoman. I know that all of us would like to 
continue, but we have a second panel waiting. So I certainly 
would like to thank our witnesses. And you can be assured that 
we will invite you back sooner rather than later to continue 
this discussion. Thank you very much for being here today.
    And we will recess just for one moment to transition to the 
second panel, because we took so much time with your excellent 
presentations. Thank you.
    Mr. Lansing. Thank you.
    [Recess.]
    The Chairwoman. Ms. Polyakova, Ms. Jankowicz, I want to 
really thank you for joining us today. If you would be kind 
enough to summarize your written statement, we would be happy 
to place your full testimonies into the record.
    And after your testimony, I will call on members, 
alternating between majority and minority. Each member is asked 
to keep questions to within 4 minutes per round. I do want to 
say, because this subject is of such interest to all of us, we 
get a little carried away, so we are going to have to keep to 
our timeframe.
    And so, after your testimony, I will call on members, 
alternating between majority and minority.
    Ms. Polyakova, please proceed.

                    Opening Remarks of Ms. Polyakova

    Ms. Polyakova. Thank you. Chairwoman Lowey, Ranking Member 
Rogers, distinguished members of the subcommittee, it is truly 
an honor and privilege to address you today on this important 
issue. Thank you for inviting me to testify.
    President Vladimir Putin's Russia seeks to weaken Western 
governments and transatlantic institutions, discredit 
democratic values, and create a post-truth world.
    Russian disinformation doesn't stop when the ballot box 
closes. Elections may provide an ideal, high-impact opportunity 
for a disinformation actor like the Kremlin, but the barrage of 
disinformation against Western democracies, including that of 
the United States, continues long between election cycles.
    Disinformation, as one tool of Russia's political warfare, 
is certainly not new. But what is new is that, today, what used 
to take years simply takes minutes. The advance of digital 
technology and communication allows for the high-speed spread 
of disinformation, rapid amplification of misleading content, 
and massive manipulation via unsecured points of influence.
    I have been working on Russian disinformation long before 
it became the issue du jour 3 years ago. Likewise, Russia's 
democratic and pro-Western neighbors, especially Ukraine, 
Georgia, and the Baltic states, have contended with Russian 
disinformation attacks for years. The United States and Western 
European countries woke up late to the challenge.
    But since the 2016 wake-up call, as you said, Congresswoman 
Lowey, European governments, the European Union, Canada, and 
the United States have moved beyond, quote/unquote, ``admiring 
the problem'' and have entered what I think of as a new period 
of trial and error, where we are trying new efforts and new 
policies to counter this threat.
    Four insights have emerged over the last 3\1/2\ years. 
These are based on my many, many conversations with my European 
colleagues on the research side, European governments, and 
others in the private sector, including the social media 
platforms.
    First, there is no silver bullet for addressing the 
disinformation challenge. Governmental policy on its own will 
not be enough. What we need is a whole-of-society approach that 
includes stakeholders from the private sector, independent 
media, and civil society.
    Second, exposure and identification of specific malicious 
entities like Russian bots and trolls is necessary but not 
sufficient to curb the spread of foreign disinformation. As we 
respond, our adversaries evolve.
    Three, the democratic response to state-sponsored 
information warfare must be rooted in democratic principles of 
transparency, accountability, and integrity. As we learned 
during the Cold War, we need not become them to beat them.
    Lastly, malicious disinformation attacks are not limited to 
one country; all democracies are equally affected. That is why 
the Transatlantic Alliance should be the basis of a counter-
disinformation coalition in which the United States should play 
a leading role.
    Unfortunately, the United States, as you rightfully noted, 
has fallen behind Europe in both conceptualizing the nature of 
the challenge and operationalizing concrete steps to counter 
and build resilience against disinformation.
    In my written testimony, I have detailed the nature of the 
Russian threat, European and U.S. responses, and what else 
needs to be done by this legislative body and the 
administration. Here, I will focus on a few specific policy 
recommendations relevant to this committee and the 
administration.
    I apologize. I will go about 30 seconds over.
    During the Cold War, the United States developed and 
invested in a messaging and media infrastructure that was well-
suited for the communications environment and the time. I can 
speak from personal experience, growing up in the Soviet Union 
in the 1980s, that we relied on Radio Liberty and Voice of 
America to provide truthful information about our own country 
that we certainly did not receive from the Soviet authorities.
    Unfortunately, that is no longer the case. After the Cold 
War, the U.S. ceded that space and, with it, our ability to 
project democratic values and principles into the frontline 
states.
    Today, the communications environment has been 
revolutionized and transformed by the digital revolution, but 
the U.S. media apparatus has not kept up. A 20th-century model 
for countering 21st-century disinformation will fail. We need 
to take urgent and critical steps today.
    First, the U.S. Congress should invest in a real way in 
rebuilding our messaging capabilities to reach vulnerable 
populations in the frontline states. As you have already, but 
on top of that, we need to focus on building and appropriating 
appropriate funds to build capacity of civil society media and 
other nongovernmental organizations.
    To that end, Congress should authorize and appropriate 
funds to further develop RFE/RL's and VOA's ``Current Time'' 
program that we heard about earlier today and allow it to 
expand further into the former Warsaw Pact countries.
    Lastly, this Congress should also continue to put pressure 
on the administration to ensure the administration continues to 
impose sanctions on foreign officials or officially controlled 
purveyors of disinformation and their sponsors.
    I can go on, but just to close, I will say these 
recommendations, as are outlined in my written testimony, are 
low-hanging fruit. They will not, in themselves, curb the tide 
of disinformation. We must take the leadership in this space in 
addressing foreign disinformation specifically. To do otherwise 
will be to leave this arena open to authoritarians to set the 
rules of the game.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you very much.
    Ms. Jankowicz.

                    Opening Remarks of Ms. Jankowicz

    Ms. Jankowicz. Chairman Lowey, Ranking Member Rogers, and 
distinguished members of the committee, it is an honor to 
testify before you today on a topic of utmost importance to the 
United States, our values, and our standing in the world.
    For the past 3 years, I have been on the front lines of the 
information war, most recently in Ukraine, Lithuania, and 
Georgia. I have worked alongside, interviewed, and briefed 
policymakers throughout the region, and these experiences 
present a grim picture: The United States is abdicating its 
leadership in countering Russian disinformation.
    Where we ought to be setting the rules of engagement, the 
tone, and the moral compass in responding to Russia's 
information war, the United States has been a tardy, timid, or 
tertiary player, with much of our public servants' good work on 
this issue stymied by domestic politicization.
    Disinformation is not a political issue; it is a democratic 
one. By convening this hearing, I know the members of this 
subcommittee recognize that, and I hope you continue to reflect 
this sentiment in your appropriations decisions.
    Beyond that challenge, the U.S. has not invested sufficient 
resources to become competitive in this fight. Russian 
information warfare continues to target the U.S. And our allies 
as well as the rules-based international order. It does so 
through increasingly hard-to-track tactics that I outline in my 
written testimony. However, countering it has not been a 
budgetary priority. Russia has not met the same budgetary 
challenge.
    After struggling to gain an informational foothold during 
the 2008 war with Georgia, the editor in chief of RT, Russia's 
state-sponsored foreign propaganda outlet, described the 
conflict as a watershed moment. She said, ``In 2008, it became 
absolutely clear to everyone why we need such a thing as an 
international television channel representing the country, and 
of course they began to pay more attention and understand that 
it costs money,'' end quote.
    The budget for RT, arguably one of the least effective arms 
of Russian disinformation, is $277 million in 2020. I am not 
advocating that the U.S. match the Russian Government's 
spending on information warfare, nor am I arguing that we mimic 
its tactics. Instead, we must invest more in the tools already 
at our disposal, with an eye on empowering individuals, not 
endlessly fact-checking or playing whack-a-troll.
    Congress should invest more in programs that, first, teach 
people how to navigate the modern information environment, 
including through digital literacy training outside of the 
context of Russian disinformation.
    Second, we should inject more reliable information into the 
ecosystem using existing trusted vectors, such as Radio Free 
Europe and the Voice of America, and invest in the 
sustainability of local and independent media outlets rather 
than just training and capability-building.
    Third, we should engage people in countries on the front 
lines of the information war with firsthand exchange 
experiences in and about the United States through programs 
including Fulbright, IVLP, and FLEX. It is time for the U.S. to 
get serious about addressing disinformation and to do so, in 
part, by targeting those most affected by it: regular people.
    None of these initiatives are political. They focus on 
empowering individuals to be active and informed citizens 
through generational investments in democratic discourse, civic 
engagement, and truth. Ultimately, these recommendations are a 
manifestation of America's greatest strength: our values.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairwoman. Well, I want to first thank both of you for 
appearing before us, and I know we will continue our dialogue. 
We appreciate your expertise, and I know that all of us on this 
panel understand the urgency of the messages you are sending.
    So I am going to be brief and turn to my colleagues--or 
maybe I will conclude and turn to my colleagues for their 
questions.
    Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chairman.
    Can you tell us, what is the impact of Russian 
misinformation? What damage is it doing, and to whom, and why? 
Either of you.
    Ms. Polyakova.
    Ms. Polyakova. I will be happy to begin, Congressman, and I 
am sure my colleague will follow up.
    One, if we start asking the question whether Russian 
disinformation leads to specific outcomes, like the outcome of 
an election, that is the wrong way to look at this. I think of 
it as a slow drip of a desire to shape the public narrative and 
the public view around specific events that are of strategic 
national interest to the Kremlin.
    Specifically, when the Maidan revolution was happening in 
Ukraine in 2013 and 2014, the Russian narrative was that a 
democratic demonstration that was peaceful was actually a 
fascist coup led and orchestrated by the United States and 
especially the State Department and the CIA. At the time, this 
view propagated and was amplified in mainstream media, 
including seeping into our mainstream media.
    So, to my mind, the effect is that it damages the United 
States' and our allies' images abroad, it undermines our 
society at home, and it continues to drive wedges between us 
and our allies internally and externally.
    Ms. Jankowicz. And I will follow up with a recent example 
from the Ukrainian elections in 2019.
    I think the main narrative that Russia was trying to push, 
although it was less active in these Ukrainian elections than 
it had been in the past, was that the outcome was already 
decided, Ukrainians shouldn't bother going out to vote, there 
were all this oligarchic interests involved in the election, 
and, really, there was no democracy to be had there. Of course, 
Ukraine proved Russia wrong, right?
    But the idea here is to build distrust in the democratic 
system writ large. It encourages people not to go out and vote, 
not to participate, and to question everything that they are 
saying to a conspiratorial kind of degree, rather than 
participating in democratic debate and discourse to support the 
democratic system.
    And I think that, of course, is damaging to United States' 
interests and damaging to the democratic system writ large 
around the group.
    Mr. Rogers. Thank you.
    I yield.
    The Chairwoman. Ms. Lee.
    Ms. Lee. Thank you very much.
    Thank you both for being here.
    I think I would address this question to Dr. Polyakova.
    I recently traveled to Ukraine, Moldova, and Georgia with 
the bipartisan House Democracy Partnership, where we heard and 
saw firsthand the impact that Russian disinformation has on 
undermining political stability and democratic processes. Of 
course, it was very familiar to me, as an American.
    You stated in your testimony that a democratic response to 
state-sponsored information warfare must be rooted in 
democratic principles of transparency, accountability, and 
integrity and that these principles should be guiding United 
States' policy.
    Now, I have grave concerns about just how transparent and 
accountable the U.S. Government is when it comes to addressing 
the significant challenges around countering Russian 
disinformation machines, particularly in our own country. It 
certainly has done damage here.
    You also stated in your testimony that the U.S. has made 
little progress in addressing the misinformation challenge and 
that it remains unclear who in the U.S. Government owns the 
problem.
    Now, of course, we know Russia took sides in the 
Presidential elections here in America. That is a documented 
fact. And their candidate, Donald Trump, won. That is a fact.
    So let me ask you, how can the United States Government 
better utilize what tools we have, including diplomacy and 
coordination across the whole of government, to ensure our 
success in countering the influence and disinformation by the 
Russians both here at home in America and abroad?
    Ms. Polyakova. Thank you very much for this very good 
question, Congresswoman.
    Firstly, to focus on what we can do here at home, as you 
heard from the earlier panel, there are multiple U.S. agencies 
that coordinate the response to the disinformation problem. It 
remains a problem with no clear high-level political leadership 
at the, say, Under Secretary level or above.
    In a recent report that I co-authored with a longtime State 
Department Foreign Service officer, Ambassador Dan Fried, 
called ``Democratic Defense Against Disinformation,'' we 
outlined a long series of recommendations. And I would be happy 
to share that full report with you, as well, following this 
testimony.
    Some of the highlights that I would include is that best 
practices from European governments that are ahead of the 
United States in this space, notably Sweden--I would point to 
that--Estonia; and, to a certain extent, France has taken the 
international leadership role in crafting a set of common 
understandings of allied and like-minded democracies.
    Some of the best practices from the European context are: 
One, there needs to be high-level political leadership that 
coordinates U.S. governmental efforts at the interagency level.
    Multiple versions of this have been proposed, whether that 
be in last year's minority report from the Senate Foreign 
Relations Committee that proposed an NCTC-style model for 
counter-disinformation. A fusion cell is something it has been 
called as well, to be housed in any of the U.S. agencies, but 
DHS clearly has the homeland mandate. And DHS so far has 
focused on the hard security versus information security.
    So that is on the domestic front. If you will allow me 1 
second on the foreign front, which of course is the main 
concern of this committee, we need to reinvest in supporting 
independent civil society in those frontline states. The 
Balkans I would put as a potential area that will lead to some 
conflict in the near future.
    Russia owns that media space. What I see over and over 
again is RT and other similar services provide the local-
language information in the same way that AP provides cable 
news that is then pasted, usually without any attribution, into 
local newspapers.
    And you can imagine what kind of ``information,'' quote/
unquote--I put that in quotes--that is. It is certainly not 
information that is anything positive about the West or the 
United States.
    Ms. Lee. Madam Chair, I would suggest that if these 
recommendations have been made and if they haven't been 
embraced by the highest level of our government as it relates 
to our own efforts to stop the disinformation, then we are 
complicit in this. And so we need to really figure out why 
these recommendations haven't been addressed, especially with 
elections coming up. Because, otherwise, you know, it is, like, 
hands off, you know?
    Ms. Polyakova. If I may have 1 second, I think if we want 
to understand the kinds of threats that we will face in the 
future here in this country, we must look to those frontline 
states, like Ukraine, who have been undergoing these kinds of 
attacks for decades. And everything that we have seen happen in 
this country has happened there before.
    Ms. Lee. Thank you very much.
    Thank you, Madam Chair.
    The Chairwoman. Thank you.
    I am going to ask a few questions, and hopefully you can 
all sum up, because, clearly, we are going to meet again. And I 
apologize, but there are so many other hearings going on, it 
was not for a lack of interest that colleagues on both sides of 
the aisle have wandered off. So I am going to ask a couple of 
things, and then I know we will meet another day.
    First of all, in the first panel, we heard from CEO Lansing 
of the United States Agency for Global Media. My first question 
is, how can we use their platforms, including the VOA and Radio 
Free Europe, which you touched on, to reach audiences, break 
through the noise and clutter of the 21st-century media 
environment? Or are these agencies not relevant today?
    Secondly, what role can and should U.S.-funded independent 
media play in fighting Russian disinformation and malign 
influence?
    What role does forceful diplomacy play in the battle 
against disinformation? Do the United States and our allies 
adequately prioritize disinformation efforts for our diplomatic 
discussions with Russia, China, and others who engage 
aggressively in these attacks?
    I don't mean to have you taking all these notes, but I 
would like you to sum up addressing these issues.
    And which countries have done the best at responding to 
disinformation campaigns, and can we learn from these lessons?
    And, Ms. Polyakova--or Dr. Polyakova, you have cited the 
EU's Rapid Alert System as an example of progress in Europe in 
fighting disinformation. I thought it was interesting that, 
over the weekend, The New York Times carried an article that 
questions the system's effectiveness to date. How do you 
evaluate the New York Times' piece and the Rapid Alert System's 
effectiveness to date?
    And, Ms. Jankowicz, you have written that Moscow has used 
Ukraine as a disinformation laboratory for years. So, if you 
can, describe Russia's actions in Ukraine, what it learned, the 
results from such actions, and how Russia applies lessons from 
Ukraine elsewhere.
    I would be most appreciative if you could address those 
points. Sum up as best you can. You know we are going to bring 
you before us again, because your information is so vital.
    And as I thank you again, I would like you to sum up--you 
heard the other testimony first from the first panel. I know 
you feel this is urgent. I feel it is absolutely urgent. I know 
Mr. Rogers agrees with me. Help us as to what the next steps 
should be. And perhaps the next steps should be in a classified 
setting so that we can really understand exactly what is going 
on.
    I don't think there is an issue--and I say this all the 
time--that is more important and more urgent than addressing 
what Russia is doing, especially as a result of their actions 
in the last election.
    Please proceed.
    Ms. Polyakova. Thank you, Chairwoman Lowey. And I just want 
to acknowledge your leadership and the leadership of 
Congressman Rogers on the issue of Ukraine, Russia especially. 
You certainly have been an important voice in helping to 
understand Russia's hybrid warfare and political warfare 
against its neighbors.
    And I completely agree with my colleague's written 
testimony. The Ukraine is the testing bed for Russian 
techniques, and this is where we must look to understand what 
is coming to us.
    To address your specific questions regarding the European 
so-called Rapid Alert System, in the report I mentioned 
earlier, we do assess--and that came out before the New York 
Times article--we assess that system as potentially useful if 
it is fully implemented. At the time, it was not fully 
implemented. It remains unimplemented today, which is a 
shortcoming of the EU efforts in this space.
    However, while I agree with the criticism in the New York 
Times article and cite it in my written testimony as well, I 
think it serves as an interesting potential model from where we 
should learn from in the United States. It is basically an 
information-sharing mechanism.
    Obviously, the EU is very different than the United States. 
It is a country with 28 member states that have not been 
sharing information in a productive, concrete process when each 
country faces a disinformation attack or information 
manipulation. So, hopefully, if, with a little bit more time, 
the so-called RAS system will be stood up and will be effective 
for information-sharing, I think we can learn from the mistakes 
and successes of the EU as it seeks out certain solutions.
    In my written testimony, I also recommend that the United 
States, looking at some of the European pitfalls and successes, 
considers implementing a U.S.-style Rapid Alert System as well 
that could only be operational, for example, during election 
cycles, which is not the only time disinformation occurs but is 
certainly a peak and a huge opportunity for malicious actors. I 
think we should look to Europe and to learn from them.
    I already mentioned Sweden as a potential country that we 
should look at for best practices. Again, Sweden is not the 
United States--you know, the scale questions that I don't need 
to go into with you. However, there are some interesting things 
that they have done prior to their elections this past fall.
    One, the Civil Contingencies Agency, which is the Swedish 
equivalent of DHS more or less, has established for the last 
few years a psychological defense agency. So they are deeply 
focused on cognitive security as part of information security 
and part of cybersecurity. I think we have something like this 
in the classified intelligence space, but without clearance, I 
cannot confirm that, to be honest with you.
    One thing that----
    The Chairwoman. Our next hearing will be classified.
    Ms. Polyakova. I will say that the Civil Contingencies 
Agency did two things prior to secure their own elections. One, 
they sent out, I believe to every household in Sweden, a very 
simple information pamphlet: What is disinformation? Why should 
it be something that is of concern to you locally? You know, 
the equivalent being someone in a small town in Georgia and 
Michigan receiving something similar. What do you do if you 
think you are reading information that is inaccurate and is 
trying to manipulate you?
    Second, they sent out similar training materials to 
teachers and schools so that students could be better educated 
on: How do you discern disinformation? What is it? Why is it an 
issue for you?
    So these are just some of the efforts that I think we may 
want to look at.
    And, thirdly, they have developed, again, communication 
information-sharing between local, like, city councils and all 
the way to the Federal level. And they have done trainings with 
civil servants so internally there is awareness within 
government, not just externally in the public.
    I think where we are today and the reason why I say that we 
have lagged behind is, one, there is lack of awareness 
internally within our government and a lack of public awareness 
as a result of that. Because we haven't seen leadership at the 
highest level--at the highest level--here in this country on 
this issue that would define the threat for the American people 
so they can better understand why they should care. Right now, 
I think your average American doesn't understand why they 
should care about Russian disinformation, and that is a big 
problem.
    Lastly, before I wrap up, you asked regarding USAGM and how 
we can better use those resources. In my written testimony, I 
basically outline a proposal in which there is a full audit 
conducted of all of the services with an eye towards 
performance indicators and that those services that are not 
performing in line with those indicators be significantly 
reduced.
    I do think our RFE/RL has been very effective in its 
``Current Time'' program that we saw the presentation of, but 
it is operating on a shoestring budget, as far as I can tell. 
It is not competing in terms of production values with RT by 
far. Again, I am not advocating that we should match RT's 
budget, but I think with a redistribution of resources that 
takes funding away from some programs that are not performing 
and able to refocus on digital, innovative solutions versus 
traditional media--again, this is the 21st century. This is the 
digital century. We are still operating as if we are, you know, 
in the 20th century and everyone is watching the nightly news 
at 6:00 p.m. That is no longer the case.
    And, again, just to point out that these efforts during the 
Cold War were incredibly effective. Again, not just my personal 
experience, but certainly my personal experience and my 
family's experience in the 1980s speaks to that. It was part of 
the reason why we immigrated to this country, because we 
understood what the truth was about our own country that our 
authorities were not providing at the time.
    In my written testimony, I have lots of numbers that you 
can look at to see why we are not competitive with the Russian 
disinformation machine at this time.
    Thank you.
    The Chairwoman. Thank you very, very much.
    Ms. Jankowicz.
    Ms. Jankowicz. Thank you again for having me, Chairwoman.
    I will start with Ukraine. There are a couple interesting 
developments in Ukraine that happened during the recent 
Presidential election, and I would describe them as the Russian 
and other malign actors trying to move underground.
    We have put up a lot of obstacles, both through our 
advocacy as the United States and social media platforms as 
well. And some of this has been a bit of a smokescreen--
right?--so that the social media companies look like they are 
adequately addressing the problem. Malign actors have figured 
out how to exploit these barriers and get around these 
loopholes.
    One way that they are doing this--we talked a lot about ad 
buys and how the Russians bought ads. They do that in Ukraine, 
certainly. They are trying to get around those geographical ad 
restrictions by using ad mules. So they will find people who 
are willing to rent out their authentic Facebook accounts for 
about $100 a month, and those people provide them access to 
those accounts. It looks like, you know, an authentic Ukrainian 
is actually logging in and buying those ads, and then they are 
able to place those political adds.
    I would also say that Facebook has been extraordinarily lax 
in enforcing those policies. And that is something that needs 
to be addressed but, of course, is beyond the oversight of this 
committee.
    In addition, we are seeing a lot more disinformation in 
groups and private messengers. So we have seen that happening 
in Brazil and India on WhatsApp, but recently in Ukraine and 
Lithuania I tracked a lot of disinformation moving in private 
Facebook groups.
    This is extremely worrying to me, because right now the 
social media companies, Facebook in particular, are, again, 
pivoting to privacy, which is a bit of a smokescreen, as I 
said, in order to make people feel more secure about their 
information online after countless errors on the social media 
company's parts. But what that is doing is driving people to 
have conversations in these private fora, which researchers 
like us and journalists cannot track. And even the social media 
companies have a much more difficult time tracking and curating 
that information.
    And, also, they are kind of insular communities. There is a 
lot more trust between these groups because it is people of a 
certain political ideology or a certain background. That trust 
is built up over time, as we saw in the 2016 election, and that 
is exploited to share malign narratives. This is something that 
is extremely worrisome to me. Facebook is incentivizing this 
behavior, and it is where we should look to the future from 
Ukraine.
    Ms. Jankowicz. To address the question about RFE/RL and 
VOA, I have found these resources to be invaluable not only in 
their English language coverage, which is one of the most 
important sources for informing experts like myself when we are 
not on the ground, but, also, their local language services are 
invaluable.
    I know during the Georgian protests, which happened a 
couple of weeks ago, I turned to RFE/RL, my Georgian friends 
were turning to RFE/RL to look for coverage of the protests, 
especially in a politicized media environment like in Georgia.
    I would say that these entities face the same issues that 
U.S. media outlets are facing right now. They are competing in 
a very crowded information environment. They need more funding, 
just like The New York Times and local media outlets in the 
United States need, in order to compete in this environment. It 
is not easy, but we need to understand that journalism is a 
public good and continue investing in that. I think that is 
critical.
    You discussed a little bit U.S. and our allies, are we 
adequately prioritizing dialogue. I think the more dialogue we 
can do with our transatlantic allies, the better.
    The United Kingdom is leading right now, I would say, in 
terms of efforts to counter disinformation abroad. I think a 
great example of how their systems work--and I would add that 
they don't have one specific agency that is leading on this; 
they just have a really good coordination system in place. Look 
at the Salisbury poisonings and the diplomatic response that 
they were able to send in reaction to that tragic event.
    And then, finally, you asked which countries did the best. 
Alina mentioned Estonia before. I love the Estonian example 
because it started with a lot of fact-checking and pushing back 
against the Russian narrative and ended, or is still ongoing, 
with investment in people. If you look at my testimony to the 
Senate Judiciary Committee that I did last year, I go into that 
example in detail. And it is about education, it is about 
outreach--again, what I spoke about in my testimony today. 
These generational investments are going to be the ones that 
win the battle in the long run.
    Ukraine is doing similar things with media literacy. As we 
heard about the Learn to Discern program, I think is a great 
model that is now being tried out in the United States by IREX.
    One thing that I would caution against doing is the 
infringements on freedom of speech that we are seeing in 
Ukraine. I wrote for The Atlantic about some of those issues, 
blocking and banning certain websites and social media. We 
don't want to go down that route.
    And then, finally, I think I will just add that democratic 
systems, the most robust democratic systems, where people trust 
in the system, like Sweden, like Estonia, like Finland, are the 
ones that we see having the strongest resilience to 
disinformation. And so, in that regard, I would encourage the 
committee to think a bit outside of the box and think about 
more investments in organizations like the National Endowment 
for Democracy, programs that DRL, USAID, NDI, IRI are doing. 
Because as we build up those systems, we are going to build 
more resilient populations.
    Thank you so much for having me.
    The Chairwoman. Well, on behalf of Mr. Rogers and myself 
and the entire committee, I am so grateful to you. I thought 
your testimonies were outstanding. And I look forward to 
continuing to work with you as we evaluate the really good work 
of the agencies we currently fund. And, hopefully, based on 
your advice, we can even provide more services to those 
agencies that are so desperately needed today throughout 
Europe. So thank you very much.
    The Subcommittee on State, Foreign Operations, and Related 
Programs stands adjourned. This concludes today's hearing. 
Thank you.

                                           Thursday, July 11, 2019.

 MANAGEMENT CHALLENGES AND OVERSIGHT OF DEPARTMENT OF STATE AND UNITED 
          STATES AGENCY FOR INTERNATIONAL DEVELOPMENT PROGRAMS

                               WITNESSES

ANN CALVARESI BARR, INSPECTOR GENERAL, USAID
STEVE LINICK, INSPECTOR GENERAL, U.S. DEPARTMENT OF STATE

                 Opening Statement of Chairwoman Lowey

    The Chairwoman. Good morning. The Subcommittee on State, 
Foreign Operations, and Related Programs will come to order.
    I am pleased to welcome State Department Inspector General 
Mr. Steve Linick and USAID Inspector General Ms. Ann Calvaresi 
Barr.
    The oversight of programs and operations to ensure 
accountability and effectiveness of taxpayer dollars must be a 
paramount focus of all government agencies, and I am glad you 
are here today to provide your assessment of where improvements 
need to be made at the Department of State and USAID.
    As chairwoman of both the House Appropriations Committee 
and this subcommittee, I was pleased to oversee the passage of 
the fiscal year 2020 House State and Foreign Operations 
appropriations bill, which would provide more than $56 billion 
for our diplomatic and development efforts.
    These programs are not just the right thing to do, they 
support our national security and economic growth and help 
promote democracy abroad.
    The mandate of inspectors general is to provide independent 
oversight that ensures the integrity of our programs and 
prevents the waste, fraud, and abuse of U.S. taxpayer dollars. 
Your particular mandate is even more challenging, given the 
high volume of overseas partners and the unpredictable 
environments in which the State Department and USAID work.
    The offices of the inspectors general must have the 
necessary resources to ensure United States Government 
engagement and investments are efficient and effective, 
especially in areas affected by conflict, humanitarian crisis, 
political instability, or terrorism.
    To this end, our fiscal year 2020 bill would provide $90.8 
million to the Department of State's Office of the Inspector 
General and $75.5 million to USAID's Office of the Inspector 
General to ensure accountability in program implementation and 
operations.
    Ms. Calvaresi Barr, I want to point out that the House 
provided the level your office requested, not the lesser amount 
requested by the President.
    While I support efforts to strengthen civil societies, 
provide sectors and host country health systems, a push for 
local procurement can lead to difficult-to-manage risk, 
especially in areas of instability or when responding to 
humanitarian crises.
    I am also concerned about longstanding management 
challenges your offices have identified at the State Department 
and USAID. We must always strive to do better on behalf of the 
American people.
    Lastly, I also want to emphasize, especially as we near the 
2020 election cycle, that critical attention must be paid to 
Hatch Act compliance. I expect your offices to refer any 
reported violations of the Hatch Act to the Office of Special 
Counsel for enforcement.
    Thank you for your commitment to providing independent 
oversight of our overseas programs today and beyond. We 
encourage transparent coordination with Congress in identifying 
challenges at the State Department and USAID. Your insight and 
recommendations on solutions are most welcome.
    Before we hear your testimony, let me turn to my ranking 
member, Mr. Rogers, for any opening remarks he would like to 
make.
    Mr. Rogers. Thank you, Madam Chair. I join the 
distinguished chairwoman in welcoming our witnesses back to the 
subcommittee.
    As you may recall, the first hearing I held as chairman of 
this subcommittee was with these two inspectors general 
examining critical areas of oversight for the Department of 
State and USAID. I look forward to receiving your update today 
on challenges that continue to hamper the efficiency and 
effectiveness of the agencies that you oversee, as well as 
progress that has been made since we last met.
    I would also like to thank the two of you and your 
colleagues for your continued service to the country. You are 
doing good work and this committee values the objective and 
rigorous oversight that you conduct on behalf of the American 
taxpayer.
    We rely on your expertise to help us kick the tires and 
look under the hood of the Department. What we have found are 
chronic mismanagement challenges. Some are being addressed 
sufficiently, others are not. We need to shine a light on these 
problems and ensure that top leadership of the agencies are 
acting on your recommendations.
    I have been taken aback, frankly, during my time on the 
subcommittee to see the same set of top challenges identified 
year after year. Simply put, it is not acceptable. So I want to 
hear from you both today on what specific things need to be 
done to remedy this management shortfall.
    Mr. Linick, this year you identified seven key management 
and performance challenges at Department of State. They will 
sound familiar to anyone following your work and they include 
these: protection of people and facilities; oversight of 
contracts, grants and foreign assistance; information security 
management; financial and property management; operating in 
contingency and critical environments; workforce management; 
and, promoting accountability through internal coordination and 
clear lines of authority.
    Now that we finally have an under secretary of management 
in place, a fight that we have been fighting it seems like 
forever, finally an under secretary of management in place, 
hallelujah, we will be watching to see how he plans to address 
these challenges I just mentioned that cut across the most 
important and fundamental responsibilities of the Department.
    Ms. Calvaresi Barr, this year you identified four top 
management challenges, including: managing risks inherent in 
providing humanitarian and stabilization assistance; 
strengthening local capacity and improving program planning and 
monitoring; reconciling interagency priorities and functions to 
more efficiently and effectively advance U.S. foreign 
assistance; and addressing vulnerabilities in financial and 
information management.
    I raised these issues, most of which are not new, with 
Administrator Green during our USAID oversight hearing earlier 
this year. He committed to completing the recommendations that 
I just mentioned, so I intend to follow up on that and would 
appreciate your most recent assessment of their work on this. 
We want to see results finally.
    There is no shortage of topics to discuss, so in closing, 
Madam Chairwoman, I want to thank these two witnesses and their 
staffs, as well as your staff, stationed around the world for 
leading the fight against waste, fraud, and abuse. We 
appreciate your continued and meaningful engagement with this 
subcommittee.
    I yield back.
    The Chairwoman. Ms. Calvaresi Barr, Mr. Linick, if you 
would be kind enough to summarize your oral statement, we will 
be happy to place your full testimonies and recommendations 
into the record. After your testimony, I will call on members 
based on seniority present when the hearing was called to 
order. I will alternate between majority and minority. Each 
member is asked to keep their questions to 5 minutes per round.
    Ms. Calvaresi Barr, please proceed.
    Ms. Calvaresi Barr. Madam Chairwoman, Ranking Member, and 
members of the subcommittee, thank you for your invitation to 
testify today.
    USAID frequently relies on other entities to implement its 
programs, particularly in tough environments. It must 
continually balance the imperative to deliver on its mission 
against the risks associated with it. This context demands 
flexibilities, but creates risks.
    To better ensure USAID effectively manages these risks we 
shifted our oversight model from a country-specific one to one 
that is more strategic and crosscutting. This has put us in a 
strong position to make recommendations that get at the root of 
USAID's most persistent challenges.
    Our impact is encapsulated in four top management 
challenges for fiscal year 2019. The first challenge concerns 
managing humanitarian assistance threats. Insufficient risk 
assessments not only leave USAID assistance vulnerable to 
exploitation, but exposes the agency to threats it does not 
fully understand. This allowed bad actors to profit from U.S. 
good will and in some cases to materially support terrorists. 
We have uncovered fraud, corruption and mismanagement in cross-
border relief programs in Syria, stabilization efforts in Iraq, 
and public health response efforts in Africa.
    The second challenge concerns the sustainability of some of 
USAID's largest development investments. We found a lack of 
upfront analyses that fully assess countries' capacity, will, 
and resources long after U.S. involvement ends. Insufficient 
planning and monitoring underlies this all and further 
diminishes sustainability.
    Reconciling interagency priorities to advance foreign 
assistance is the third challenge. Coordination and consensus 
are key to keeping interagency programs on track. Competing 
priorities impede development activities.
    The fourth challenge concerns the integrity of USAID's 
financial and information management systems. It all starts 
here. Without reliable core systems the agency cannot 
successfully execute its mission.
    Our work has prompted foundational changes at USAID. They, 
for example, set strict requirements on implementer awards, 
strengthened standards for overseeing U.N. agencies, shored up 
its supply chain for lifesaving commodities, and promptly 
responded to identified diversions to terrorist organizations. 
It has also doubled down on requirements for reporting sexual 
exploitation and abuse of beneficiaries.
    While positive actions, the agency needs to rethink its 
culture of partnership with implementers. No doubt they are 
critical to USAID's mission, but it must first ensure 
implementers fully understand the requirements that they are 
entrusted with and expected to carry out. Ultimately, USAID 
must be the first line of defense, but they must also hold 
others they rely on accountable.
    This concludes my prepared statement. I am happy to answer 
any questions.
    [The information follows:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairwoman. Thank you.
    Mr. Linick.
    Mr. Linick. Chairwoman Lowey, Ranking Member Rogers, 
members of the subcommittee, thank you for inviting me to 
testify regarding the work of the Office of Inspector General. 
We appreciate your interest in our work.
    We oversee the operations and programs of the Department of 
State and U.S. Agency for Global Media, also known as USAGM, 
which include more than 75,000 employees and 270 oversees 
missions and domestic entities. In fiscal year 2018 alone we 
were responsible for the oversight of more than $70 billion in 
Department and USAGM programs and operations. I would like to 
highlight some of our recent work.
    One of our top priorities is protecting those who work for 
the Department around the world. We continue to find critical 
vulnerabilities that put our people at risk. We have reported 
on facilities maintenance deficiencies at overseas posts, 
weaknesses in emergency preparedness, and health and safety 
concerns related to residential housing.
    We have also reported on the management of specific 
construction contracts where poor oversight led to physical 
deficiencies, some with safety and security concerns for new 
buildings.
    We have also focused on the Department's management of 
contracts, grants, and foreign assistance. This is a continuing 
challenge for the Department that involves substantial 
resources. In fiscal year 2018 alone the Department's 
obligations were more than $30 billion.
    Nearly 40 percent of the investigations we closed in fiscal 
year 2018 were related to contract and grant fraud. And we have 
issued several recent reports that highlighted problems such as 
ineffective performance, monitoring of contractors, deficient 
invoice reviews and approval processes, and insufficient 
program evaluation.
    Our annual FISMA report identified numerous control 
weaknesses that significantly affected program effectiveness 
and increased the Department's vulnerability to cyber attack 
and threat.
    We continue to assess the Department's workforce management 
challenges. We found that across functional and geographic 
regions inexperienced staff, insufficient training, staffing 
gaps, and frequent turnover negatively affect Department 
programs and operations.
    During my tenure at the Office of Inspector General we have 
undertaken many initiatives to improve how we use our limited 
resources to further our oversight mission. Most recently we 
began posting monthly reports on unclassified recommendations 
on our public website. We provide this information as well as 
monthly reports on classified recommendations to the Department 
and to Congress.
    Before closing, I would like to note that we recently 
observed improvements as a result of our work. The Department 
is doing a better job of tracking physical security 
deficiencies, it has upgraded management of its contract file 
inventory, and it has improved armored vehicle programs in 
multiple ways.
    I have included financial information in my written 
testimony that demonstrates the ways that OIG helps return 
money to the American public. We are also proud of our work 
relating to the safeguarding of the lives of those at posts 
abroad and protecting the Department's information, reputation, 
and program integrity.
    I want to thank you all again for your interest in and 
support of our work, and I want to emphasize that OIG's 
accomplishments are really a credit to this talented and 
committed staff that I have had the privilege to lead over the 
last 5 years. I look forward to your questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you.
    I would like to begin with a request from my colleagues 
Chairman Engel and Chairman Cummings, from the Foreign Affairs 
and Oversight Committees, respectively. They suggested, and, in 
fact, they asked me to follow up on their request, they asked 
you to conduct an inquiry into reports that career employees at 
the State Department have been subjected to improper 
retaliation, including for their perceived political views and 
ethnic identity.
    I understand that your office has been carrying out that 
inquiry for well over a year now, and it is critical that facts 
about any prohibited personnel practices at the Department be 
brought to light so that perpetrators can be held to account 
and future retaliation can be deterred.
    Mr. Linick, do you believe prohibited personnel practices 
were carried out against any of the State Department employees 
about whom my colleagues have raised concerns?
    Mr. Linick. Thank you for that question.
    We actually have ongoing work addressing that very issue. 
We have two reports. We are looking at allegations of improper 
personnel practices in the Office of the Secretary and we are 
looking at improper personnel practices in the Office of 
International Relations.
    The Office of International Relations--Organizations, 
excuse me--that report will be going to the Department in the 
next day or two. And the report involving the Office of the 
Secretary I anticipate will be going to the Department in 
August.
    So that very issue that you just raised is part of our 
report. I am not prepared to report on the findings, but I have 
confidence that those findings will be published shortly after 
these reports are finished.
    The Chairwoman. I appreciate that. But I wonder if you can 
share with us, in the context of the investigation, has the 
Department taken any steps to address these allegations? You 
say you are doing a report, but have there been any steps 
specifically taken to deter further retaliation?
    Mr. Linick. I can't comment on any of that until my report 
is published and we address those issues in the reports, and I 
am reluctant to talk about our findings until we have a final 
report.
    The Chairwoman. Well, I was also told that you have decided 
to delay releasing a piece of the report dealing with 
allegations against members of the Secretary's own senior 
staff. Is that correct?
    Mr. Linick. That is not correct. We started with one report 
involving allegations against individuals in international 
organizations and also allegations against the Secretary's 
office. We decided to split the reports up because we are 
basically done with the international organizations report. We 
wanted to get that out to the Department and get that published 
after the Department has a chance to look at it.
    The other report, the allegations involving the Office of 
the Secretary, like I said, which I anticipate will be going to 
the Department in August, that is more complex. There is a 
parallel OSC investigation. And we want to make sure we get it 
right. We want it to be accurate and thorough. It is a top 
priority for our office. And I am confident that once it is 
published you will see that its accurate, thorough, and 
complete.
    The Chairwoman. Now, one last question, because we have 
seen documents indicating that some Department officials use 
their personal rather than their government email accounts to 
discuss employees' political views and background. Did you seek 
these relevant records from both personal and government email 
accounts? Is that a valid concern?
    Mr. Linick. I can say that where appropriate we did 
actually collect private email as well.
    The Chairwoman. Thank you.
    Now, one of my concerns for many years has been the 
protection of people and facilities. And I know it has always 
been a top management challenge to the State Department.
    You have identified systemic issues regarding physical 
security, specifically a lack of coordination between the 
Bureau of Overseas Building Operations and the Bureau of 
Diplomatic Security, both of which have responsibility for 
physical security.
    So I am, as you know, very concerned about these issues. 
Have these two bureaus implemented your office's 
recommendations to address physical security-related 
deficiencies?
    Mr. Linick. So the relationship between Office of 
Diplomatic Security--Bureau of Diplomatic Security, DS, and 
OBO, has improved in terms of coordination.
    I would say the most significant recommendation that has 
not been implemented which we believe would go far in 
addressing security concerns has to do with prioritizing 
physical security deficiencies around the world.
    So in other words, the Department has a universe of 
physical deficiencies and they are prioritized based on risk, 
and then they can use their limited resources to figure out how 
they are going to aim their resources for purposes of planning 
the future. I think it would also give them a way to be more 
proactive as opposed to reactive when security deficiencies 
come up.
    The Chairwoman. Can you just comment or--either. First I 
will start with Mr. Linick--on the hiring freeze and did it 
damage State and USAID's ability to meet diplomatic challenges 
and effectively manage foreign assistance programs around the 
world?
    Mr. Linick. So we have a report that is in its final stages 
on that very issue, on the impact of the hiring freeze. I 
believe you asked us to do that work. And we have looked at the 
impact of the hiring freeze both in 2017 and its impact 
currently. And so that report will be published soon. So I 
can't really talk about the findings of that particular report.
    However, I can share with you anecdotal evidence from our 
inspections in which we have gathered information during our 
overseas work about the hiring freeze. And I can say that there 
is evidence that it has affected staffing, for example, in 
consular operations. It has affected staffing in Bureau of 
Diplomatic Security, which obviously affects our security if we 
have limited staff. It has affected our IT staff. And it is had 
a big impact on our eligible family members and our civil 
service. And as I understand it, we have not recovered yet even 
with our civil service staffing levels at this point.
    The Chairwoman. Now, specifically, has your office 
evaluated the continuing lack of senior leadership at State and 
its impact on policy formation and program execution? Can you 
just share with us briefly your findings on that?
    Mr. Linick. Absolutely. We haven't done a sort of a 
systematic look at the impact of vacancies at the senior 
levels, so we don't have a report or a body of work in one 
place on that.
    However, as I mentioned before, we do inspections all over 
the world. We look at executive direction and leadership. And I 
would say the results are mixed. In the spring we did 13 
inspections and 5 of which were posts without ambassadors. And 
in some instances where we don't have leadership, we have found 
that it has affected the morale, it has affected relationships 
with the host government. We had one situation where particular 
a charge, acting ambassador, could not meet with the foreign 
minister because of the temporary status of the individual. And 
it has also impacted strategic planning.
    And what complicates things is when these vacancies are 
filled by folks who are very well intentioned, but who are 
wearing dual hats, who are perhaps management officers who are 
doing the work of DCMs and things like that. Perhaps they don't 
have the experience and so forth. So that has been a problem.
    On the other hand, we have found a number of posts where 
acting leadership is doing just fine and they are doing a good 
job. So in sum I would say it is mixed.
    The Chairwoman. Before I turn it over to Mr. Rogers, if you 
could just further, on the first case studies where there are 
real problems, what do you do about it? Does anyone care at the 
White House? Who do you report to? And do they respond or do 
they say, ``Okay, it is fine that it is not operating 
effectively''?
    Mr. Linick. Well, as to the first issue, we actually write 
our findings in a report. All of this is public.
    The Chairwoman. Who gets it?
    Mr. Linick. Congress, the American public, and the 
Department, the Secretary of State.
    The Chairwoman. Anybody in the White House that you all 
respond to? The Secretary of State should be concerned about 
this, no?
    Mr. Linick. We don't report to the White House. We report 
to the Congress and to the Secretary of State. And we----
    The Chairwoman. You do report to the Secretary of State?
    Mr. Linick. We do, by law.
    The Chairwoman. Has there been any feedback?
    Mr. Linick. Well, we get feedback on our findings. The 
Department comments on them. Sometimes they do take action. 
Sometimes they have removed leaders in those spots. And they 
are aware of and we get frequent feedback from the Department 
on our findings.
    The Chairwoman. I am going to turn to Mr. Rogers, but if we 
have time, I would like to explore that further. If you are 
doing a careful analysis and you are getting feedback from the 
field, specifically the kind of incidents you spoke about, and 
you don't get any concern or any direct change, seems to me we 
have a real problem here.
    Mr. Rogers.
    Mr. Rogers. It has long been the focus, Mr. Linick, in your 
office on the oversight of contracts, grants, and foreign 
assistance. As the Department engages in very complex 
acquisitions to procure services and supplies, the Department 
continues to face challenges in properly overseeing contractor 
performance. Oversight personnel must monitor and document 
performance, confirm that work is conducted in accordance with 
the terms of the contract, hold contractors accountable for 
nonperformance, and ensure that costs are effectively 
contained.
    In fiscal year 2018 Department obligations included $15 
billion for contracted services and $15 billion in grants and 
fixed charges. Can you tell me that it is being properly 
overseen? Is it your assessment that at the root of many of the 
deficiencies described in your most recent top management 
report are inexperienced, untrained oversight personnel, staff 
rotations that promote inefficiency, and complex programs and 
contracts that simply require more oversight?
    Mr. Linick. That is correct. This has been a persistent 
issue with the Department for many years. At the root of it I 
think it is a cultural issue. They are not really focused on 
program management, they are focused on diplomacy, and there is 
far too much program and far too little oversight. And this 
results in a lack of sustained focus on experienced staff and 
getting contracting personnel properly trained up.
    There are structural issues in the Department as well. We 
have a mix of people who are doing contract oversight, 
including foreign service officers, who are moving from post to 
post, so there is lack of consistency in contract oversight.
    One of the biggest recommendations in this area that we 
have made is the Department needs an electronic inventory 
system so that our contracting officer representatives who are 
in far-flung places can be overseen by contracting officers at 
headquarters in Washington, and that still hasn't happened.
    At the root of this, in my estimation, is they really need 
to professionalize the contracting personnel at the State 
Department, there needs to be a job series for contracting 
officers, contracting officer representatives, and the like.
    So it is a problem, and I think that improvements are at 
the margins.
    Mr. Rogers. Would you do a paper for us on that topic that 
you just covered? Can you prepare for us a summary of the 
problem that we are discussing here and what we can do to fix 
it?
    Mr. Linick. I would be happy to work with your staff in 
coming up with a scope of a paper like that. That would be 
fine.
    Mr. Rogers. I thank you for that. We look forward to 
hearing from you.
    Now, the President's budget request for the Department, and 
in fact in your office, suggests quite a substantial cut in 
your funding levels. What do you say about that?
    Mr. Linick. Well, we requested $90.8 million, which is what 
our budget was last year, and we received $88.8 million. So we 
had a $2 million decrease.
    We need resources. We have worldwide coverage. We have huge 
travel costs. We have mandatory inspections that we have to do 
all over the world. We have whistleblower obligations and 
reporting requirements. We have many requests from Congress to 
do work and everybody wants their work done quickly.
    And we also have our own separate IT network, and we need 
money for that. So we asked for money for that.
    We are independent from the Department. We became 
independent just a few years ago. So we need the resources.
    Mr. Rogers. If later this year the administration acts on 
their proposal to draw down State Department and AID personnel 
in Afghanistan, with parallel reductions in U.S. civilian 
assistance, how would that impact your ongoing oversight 
mission?
    Mr. Linick. Well, we think that there is even more risk 
with a drawdown. We have done work on this in the past--more 
risk of fraud, waste and abuse. We have done work on this in 
the past when there was a drawdown back in 2013 in Iraq and we 
found that the drawdown of personnel was not done in accordance 
with guidelines and so forth and we found $193 million in 
waste.
    So I would argue that oversight is even more critical if 
there is a drawdown, and we are insisting that we continue to 
maintain our current staff both in Afghanistan and Iraq for 
that purpose. And to the extent that there is a drawdown, we do 
plan on auditing that, given the history of issues that we have 
seen in the past.
    Mr. Rogers. Thank you, Madam Chairman.
    The Chairwoman. Thank you.
    Just a quick comment before I turn to Mr. Price. We have 
been in Afghanistan 17 years. Is that correct?
    Mr. Linick. It sounds about right.
    The Chairwoman. It doesn't take a brain surgeon to figure 
out that if you suddenly withdraw there would be problems. And 
we have recently read of girls schools being blown up.
    So I am just wondering, who is listening to you with regard 
to drawdown? Is your input taken seriously by the Secretary of 
State or are they just going about their business?
    Mr. Linick. Well, I can tell you that I have talked about 
this issue of drawdown and the perils of a quick drawdown 
without a systematic look with both the Deputy Secretary of 
State and the Under Secretary for Management. And I have 
actually sent letters to the U.S. Ambassador in Afghanistan, 
John Bass, and I have also sent a letter to the Charge, Joey 
Hood, in Iraq warning them of the dangers, at least from a 
fraud, waste, abuse perspective, of a drawdown that doesn't 
take into consideration cost optimization, foreign policy 
priorities, and so forth.
    The Chairwoman. Have you gotten any response?
    Mr. Linick. They acknowledge--they have acknowledged 
receipt of the information and they appear to understand the 
implications.
    The Chairwoman. Has there been any change in the plans as a 
result of your thoughtful presentation?
    Mr. Linick. I don't know. I haven't looked at it, so it 
would be unfair for me to say yes or no. But I haven't----
    The Chairwoman. Why wouldn't you look at? I would think 
that you have an incredibly important responsibility. And if 
you can document specific problems with the drawdown that is 
being proposed, I would think you have responsibility to scream 
from the rafters to the Secretary of State and to whomever is 
listening.
    Mr. Linick. Well, we do plan on looking at the drawdown. 
What we don't want to do is get involved----
    The Chairwoman. Who is looking it the drawdown?
    Mr. Linick. OIG, State OIG will be looking at the draw down 
once it is done. In other words, we will be auditing it.
    The Chairwoman. Oh, please. So if you are presenting 
information delineating the risks of specific drawdowns, you 
are going to wait until after it is done and you are going to 
assess the damage? I am puzzled by that.
    Mr. Linick. Well, we have, first of all, we haven't seen 
plans for a drawdown, number one. And we don't want to get 
involved in the policy issues. We have warned the Department 
that a drawdown needs to be done carefully to avoid fraud, 
waste, and abuse. So they understand. We have provided them 
with our past work on this. So we have a track record.
    So everybody sort of knows what is at stake here. At the 
end of the day, we can't get involved in the drawdown and say 
you can't do this or you can't do that, because that would be 
beyond our role as an Office of Inspector General. But I 
believe that we have acted responsibly by being very proactive 
in trying to prevent the fraud before it occurs.
    The Chairwoman. Before I turn to Mr. Price, I like to 
personally request, and I certainly would want to share it with 
this committee, your memos regarding concerns about drawdowns.
    Mr. Linick. Absolutely.
    The Chairwoman. And any response that you have gotten from 
the Secretary of State or nonresponse that you have gotten from 
the Secretary of State.
    Mr. Linick. We would be happy to provide them.
    The Chairwoman. For those who have been to Afghanistan and 
been very involved, this is problematic, which is an 
understatement.
    Mr. Price.
    Mr. Price. Thank you, Madam Chairman.
    I would like to turn to Ms. Calvaresi Barr with a related 
question which has to do with the unusually wide gap that has 
opened up in this administration between congressional intent, 
as expressed in the appropriation of funds, and what is 
actually carried out on the ground.
    And I do have some general--I do have some curiosity about 
the extent to which that represents a red flag for you and 
would call for some analysis when we are talking about funds 
being just cut off in the middle of the year; or, for that 
matter, reports about funds moving out very slowly and in ways 
that really frustrate congressional intent.
    But let me turn directly to the cutoffs. These cutoffs--
let's just focus on the West Bank, Gaza cutoff and Triangle 
countries of Central America cutoff, let's focus on those.
    Ostensibly these cutoffs of funds in the middle of the 
fiscal year are linked to foreign assistance reviews, very 
broad reviews, not about specific programs, but about whole 
countries. And they have been accompanied with rhetoric that 
suggests a punitive intent. You know, the Central American 
countries aren't doing enough to stop the flow of migrants and 
so we cut off the funds designed to help them prevent the flow 
of migrants. I am not saying it makes sense, I am just saying 
it suggests a punitive intent.
    The same with the Palestinian aid. These people supposedly 
aren't cooperating satisfactorily in a process that has totally 
marginalized them.
    So there is a punitive intent that is suggested. There is 
this ostensible tie to a review. I want to ask you about that. 
There was a review, as I understand, the Trump administration 
undertook a review of assistance to South Sudan, but the 
funding continued during that review. And I wonder what the 
normal practice is, first of all, how narrowly focused these 
reviews normally are and if they usually involve a total cutoff 
of funds.
    And then I want to, if we have time, want to get into the 
question of what does this kind of abrupt cutoff do to the way 
these programs work or don't work on the ground.
    But if it you could answer me about the cutoffs and the 
line, the ostensible link to reviews, and what your office has 
to say about this to the extent to which you have looked at it 
or would intend to.
    Ms. Calvaresi Barr. Thank you very much for that question. 
And I will start by saying that policy decisions that are made, 
as Steve indicated, are something that the IG comes at from an 
oversight perspective and we stay clear of commenting on sort 
of policy decisions. But what we need to do as an IG, as an 
effective, independent IG, is to look at the effect of those 
decisions, the effect of those drawdowns.
    I want to start with where you ended on your question, 
which is----
    Mr. Price. Before you do that, I do want you to talk about 
that and I appreciate that, and I don't expect you to comment 
on my comments about the rhetorical overlay here, but the 
process is a legitimate question. And I am asking you about the 
process and what the normal process is and the ostensible tying 
of a total cutoff across a whole region or across a whole 
country to some kind of broad review. I mean, what is the 
process here?
    Ms. Calvaresi Barr. So decisions are oftentimes made. 
Sometimes these decisions are made and they take the diplomats 
overseas and other mission folks overseas by surprise.
    As we saw, Steve and I, along with the DOD IG, travel into 
theater quite a bit, and our lead IG construct, and when we met 
with diplomats as well as senior career folks, both at State, 
DOD, and USAID, you could see that they were struggling to 
figure out how to adjust to the cuts that were coming in.
    In the case of USAID, I have seen the impact that it has on 
the implementer community. USAID relies on implementers 
oftentimes to do its work, particularly in those tough 
environments. And that type of ``one day we are on, one day we 
are off'' creates very chaotic operations in terms of what are 
we supposed to do next.
    So what you see happen on the ground is you see, whether it 
be State, DOD, or USAID, looking at what the directive is, what 
the cut is, and coming up with scenarios about how they will 
manage to that.
    On your questions with regard to West Bank, Gaza, the 
Northern Triangle countries, and South Sudan, we have ongoing 
work in those areas. In West Bank and Gaza, obviously key 
consideration is all the money that goes into conflict 
mitigation, risk mitigation, peacekeeping kind of efforts, and 
we have looked at over 100 grants there that were in place for 
that.
    That program will be affected by decisions about funding 
cuts. Our job, and we are looking at what is the impact of 
those decisions on those programs. In my opening statement I 
talk about the importance of and the Administrator talks about 
the importance of getting to a point where there is an end for 
the need for foreign assistance.
    So what that means is there has to be consistency, there 
has to be sustainability, there has to be local capacity built 
up. If program decisions go on ebb and flow and ebb and flow, 
it really impedes the ability to get to that sustainable end 
for a need for foreign assistance.
    So we are on it. We are looking at the close down of West 
Bank Gaza funding, looking at that process there.
    For the Northern Triangle countries, we have staff in San 
Salvador. We have been very, very concerned with the CARSI 
initiative, which is the security initiative, given the flow, 
migration, and the real security risks that work there. We are 
looking at the impact of those programs on what that means for 
that entire region.
    We are also very, very concerned about the program money 
getting into nefarious hands. Therefore we have many of our 
agents out conducting fraud awareness briefings, trying to 
identify where the money is going, and making sure, to many of 
the points made earlier, that there are strong procurement, 
strong award protections in money that flows. At USAID alone 
$17.6 billion goes into awards per year. We have got to get 
this right.
    So the final point that I would make is that oftentimes 
while there is a cut in funding or there is proposals for cuts 
in fundings, some of these programs have long pipelines. They 
have money that is still in them and that the programs will 
continue to go on. That is why we keep our eye in that area. 
Those funding cuts doesn't mean OIG out, it means OIG in even 
more.
    So we are on the programs in those regions. We are going to 
look at the effect of any type of drawdown, we will look at the 
pipeline of funds, and hope to assess have we lost the ground 
that our good investment up to this point has provided. And it 
goes to my top management challenge about sustainability.
    Mr. Price. Thank you.
    I think what we have heard is very important, Madam 
Chairwoman, about the kind of analysis that needs to be done, 
of course of these programs effectiveness in general, but the 
effects of draconian cuts of the sort that have been made, just 
in the middle of the fiscal year all the money stops. Of course 
it doesn't immediately stop on the ground. But our 
understanding is that it is pretty well having a detrimental 
effect now in both in Central American situation and the West 
Bank, Gaza situation.
    I think we have discovered on this committee that we don't 
have perhaps as many options as we thought we did when this 
kind cut comes down in the middle of the fiscal year.
    The chairwoman, to her credit, has written our bills for 
next year in a much tighter way, in a way that will not permit 
the administration to be as fast and loose with this funding as 
they have been. But in the near term, not so clear, not so 
clear what our options are.
    But your assessment is extremely important to us at this 
moment as we contemplate this and also go forward.
    The Chairwoman. And I know this issue is of great concern 
to members on both sides, and so we will continue the 
discussion.
    Mrs. Roby.
    Mrs. Roby. Thank you, Madam Chair.
    And thank you both for being here.
    And Inspector General Calvaresi Barr, I am going to read 
directly from your testimony before I get to my question.
    ``Our work continues to show that USAID's upfront analyses 
of multimillion dollar projects fall short of fully assessing 
beneficiary countries' internal controls, environmental 
threats, and ability to strengthen local skills and secure 
public- or private-sector commitment to sustain U.S. efforts. 
In addition, we identified gaps in USAID's ongoing monitoring 
and evaluation that limit its ability to apply past lessons to 
better ensure sustainability of future development efforts.''
    To the chairwoman's comments earlier about Afghanistan, I 
have had the privilege of going with my colleague Susan Davis 
from California on a bipartisan women's CODEL, now eight times, 
around Mother's Day. What is unique about this codel is not 
only do we spend time with our troops and encourage them and be 
with them and hear about their challenges, but also what is 
unique about this codel is that we get to spend a lot of time 
with Afghan women and folks from USAID that are administering 
programs.
    My concern is that the purpose of the initiative which has 
been in place since 2014 to promote women in the Afghan 
economy, to provide a new generation of Afghan women with 
leadership skills to make contributions to their government, 
society, economy, and I enthusiastically support the mission of 
these programs, but what I am concerned about is the metrics by 
which we are assessing the success of these programs.
    So it is one thing to say, Madam Chairwoman, that we have 
enrolled X number of women in school. It is another thing to 
say, okay, well, where are they now? How are they contributing 
to the Afghan economy? What are the reasons that they--if we 
have a job placement program and these women are able to either 
work in security forces and be trained effectively or have a 
job, a small business startup, whatever it may be, if they are 
removed from the workforce, what are the reasons why?
    If an Afghan girl is in a school and she is given the 
opportunity for an education, what happens to her next?
    And do we have the appropriate metrics in place--and I 
don't know that we do--to assess the contributions and the 
success of these women or the instances in which they were 
unable to continue either in their education efforts or in 
their support of the economy?
    So if you would address that. I know that is a very 
specific question to Afghanistan. I think you could apply it 
around the world, although the challenges are different based 
on what country we are talking about.
    But I have real concerns as a member of this committee as 
to how we are assessing outcomes as opposed to just enrollment. 
If that is a real simplification, I understand. But if you 
could address that for me, I would really appreciate it.
    Ms. Calvaresi Barr. Sure. Thank you very much.
    Let me begin by saying that our office has covered the 
waterfront of work from both an audit perspective and an 
investigations perspective in Afghanistan. If I could start 
just by saying a little bit about that.
    We have looked at--and it gets to the heart of your 
question about metrics--monitoring and evaluation, whether it 
was on the Afghanistan Reconstruction Trust Fund, whether it is 
on the New Development Partnership work that they have that you 
have to prove that you have done what you have done in order to 
receive funding for program sustainability going forward, and 
we continue to look at that.
    We found significant deficiencies in the ability to 
measure, the ability to monitor, and really show the types of 
outcomes that you are talking about that should be achieved.
    On the investigations side of the house in Afghanistan, 
these are challenging environments to work in and the 
programming does cut across the gamut, right, of what 
populations like this are in need of. I can tell you, our 
investigations work in Afghanistan has uncovered corruption and 
fraud to such a great scale just in the public utility power 
industry. Our work resulted in the removal of the Ministry of 
Economy and the CEO of that public utility company.
    Our work on AUAF with the Special Inspector General for 
Afghanistan Reconstruction has pointed to weak systems to be a 
good recipient of U.S. taxpayer money which has been invested 
for a long time there resulted in an administrative agreement 
to make sure AUAF gets its house in order.
    With all of that said, we look at those programs, we look 
at other programs regarding health, education, women's 
empowerment going forward. And I think you are right when you 
say, and we read this in the press oftentimes and we find it in 
our reports when we do it, when they talk about success there 
could be disagreements on the measure, how successful or how 
bad, and we sort of see it all over the map.
    So it definitely goes to the heart of needing to have for 
these programs right up front what is important, what is the 
goal of the program, what is it that we are trying to measure. 
If these programs are about building capacity and 
sustainability, we don't just look at the number of women that 
were educated, we go beyond that. We look at how has that 
resulted in a different state of living for them, job 
opportunities for them, security, a whole range of things, and 
we found that those metrics are often missing.
    The Administrator has, I want to get this point in, has 
recognized the importance of metrics, he is very metrics 
driven, and you are seeing now in many of the programs that are 
being rolled out on his journey to self-reliance, he makes 
sure--he wants to make sure that those metrics are established 
correctly in the first place.
    Mrs. Roby. And I appreciate that.
    And, Madam Chair, if I may, I would appreciate any detailed 
information that you can provide specific to programs for 
Afghan women and girls. And I want to see the good, the bad, 
and the ugly, anything specific that you can drill down there 
for me. I would appreciate that.
    But, Madam Chairwoman, I would just say, I express your 
concerns on an abrupt drawdown. And I think part of what we are 
hearing right now is the ability to assess a lot of these 
dollars that are being spent on behalf of Afghan women and 
girls has to do with the security situation and our ability to 
get to certain parts of the country where it is volatile.
    We have made tremendous gains, but it is extraordinarily 
fragile. And so it is very important that as these dollars are 
being implemented, that this committee takes a keen interest on 
these metrics and the success, not just of who is being 
enrolled and how many are being enrolled, but following those 
women and those girls throughout their contribution to the 
country.
    So thank you very much, and I look forward to continuing to 
work with you.
    The Chairwoman. Thank you. And I look forward to working 
with you and following up. Thank you.
    Ms. Meng.
    Ms. Meng. Thank you, Madam Chair and Ranking Member Rogers, 
for holding this hearing.
    I wanted to ask Mr. Linick a question. Just yesterday our 
subcommittee held a hearing in which one of the witnesses was 
John Lansing, CEO of USAGM, who testified that the purpose of 
Voice of America and other USAGM programming is to provide 
those who live under corrupt and nondemocratic regimes access 
to unbiased and accurate reporting. These programs are critical 
to our soft power all around the world, but have a very 
important role to play in restricted countries like Russia, 
Iran and Cuba.
    USAGM has proven to be riddled with corruption and grift. A 
New York Times article just on Monday reported that a high 
ranking adviser had been found guilty of stealing $37,000. The 
same report noted that reporters have accepted bribes from 
foreign officials and have faked new stories. This undermines 
the whole purpose of USAGM.
    I wanted to know if your office will be investigating these 
issues. Have you looked into them? And what underlying 
management concerns do you think exist in USAGM that might 
contribute to such negligence?
    Mr. Linick. Thank you for the question.
    The individual you mentioned who stole $37,000, that was 
our investigation, it was an OIG investigation, and we 
presented it to DOJ who ultimately prosecuted that individual, 
the chief strategy officer.
    We oversee USAGM and through that Federal entities who 
receive money, as well the grantees, as well as the language 
services. So we are involved in overseeing USAGM in a very 
broad sense. We oversee them through inspection--excuse me--
through investigations, through audits.
    On USAGM, we have focused on governance and resource 
management, as well as misconduct, as I previously indicated. 
And with respect to USAGM, since that was the focus of your 
question, in terms of resource management we have found a lot 
of issues over the years in our management challenges. We have 
identified that IT has been ineffective, their information 
system, they have deficiencies in all the major domains that we 
look at. We found problems with property and accounting and 
hiring practices. So they span the gamut of issues.
    I will say on the governance front, though, we did a report 
in 2014 where we looked at the board. We found that the 
structure, the then structure, was dysfunctional. It was a 
part-time board. At the time there were chronic vacancies, 
there was no CEO managing day-to-day operations, and there were 
perceptions of favoritism because folks who were on the board 
were also sitting on some of the grantees boards, and then 
there was a perception that they steering their favorite grants 
to the grantees.
    Mr. Linick. Since then we made a number of recommendations. 
We recommended that there be a full-time CEO managing day-to-
day operations. There has been a law that since passed for a 
presidentially appointed CEO and an advisory board. We did 
assess that recently, and we did find that they are on the 
right track.
    In terms of governance, we found that the board was 
cohesive and collaborative, that they have eliminated the 
perceptions of favoritism because all of the board members now 
sit on all of the grantees, so they weren't cherry-picking.
    We found there was increased use of digitization and media, 
social media, YouTube, things like that, and the editorial 
independence of the grantees and the Federal entities were 
being respected.
    So that is sort of a big--an overview of our work over the 
last 5, 6 years.
    Ms. Meng. Thank you. I appreciate all that information. I 
would just ask that your office stay on top of this. Yesterday, 
when we asked him, he didn't, to my memory, mention any of 
this. He mentioned reshifting or improvement in personnel 
allocations, for example, but didn't really mention IT, 
accounting, or even board issues specifically. So I would look 
forward to continuing to look into this.
    My second question, if I have some extra time, is for 
Inspector General Calvaresi Barr.
    Over the last 2 years, your office has investigated 
failures in the contract administered by USAID and implemented 
by Chemonics. This contract, as you know, was intended to 
support the Global Health Supply Chain, is worth $9.5 billion, 
and was the largest contract ever awarded by USAID.
    And, according to an October 2018 advisory published by 
your office, this contract experienced major delays in the 
delivery of health commodities and was exposed to 
vulnerabilities related to commodity tracking, supply chain 
data access, reporting, commodity inventory access, labeling, 
and other issues.
    At the time of the memo's publication, your office was 
encouraged by increased engagement between the bureau and 
Chemonics. So I wanted to find out what types of safeguards 
might be in place to ensure that this doesn't happen again. Do 
you believe that the aggressive oversight required over 
contracts of this size is possible?
    Ms. Calvaresi Barr. Yes. Thank you. I thank you for that 
question. This is a very, very large contract at $9.5 billion 
and being an IDIQ at that.
    Let me begin by pointing to some of the risks that we found 
in that realm of that contract and the work, which is on the 
Global Health Supply Chain in Africa. There we have uncovered a 
number of risks with regard to the logistics as we know that is 
happening with those commodities in Africa, the storage, the 
facilities of those, the recordkeeping of those.
    Our work has resulted in, as a result of weaknesses in the 
Global Health Supply Chain, has resulted in 41 arrests, 30 
indictments, and has prompted the Global Health Bureau to have 
a third-party monitor overseeing the programming for health 
supply commodities within Africa. Our work spanned eight 
countries.
    So that raised an eyebrow, right? The investigation's work 
points to the effect of something gone wrong. That is the 
effect. Now my office is engaged in trying to figure out, why 
is that happening? What are the root causes of it?
    So you may be pleased to hear that we are looking at--we 
are doing two audits going forward. One is we are looking back 
at the contract and how it was awarded. So that is the first 
audit.
    The second audit that we are doing is, because of those 
weaknesses that we have uncovered in the supply chain, we are 
following up to look at, how have those weaknesses been 
addressed? What is being done different from USAID's 
perspective in terms of its oversight of the contract and that 
work?
    But we also have to look to, and it gets to an issue we 
discussed earlier about capacity of some of these host 
countries. So I don't want to paint the picture that all these 
problems that we found necessarily rely--or lie with Chemonics. 
But when you are transferring funds and supplies that are very, 
very needy and very valuable, particularly in Third World 
countries, you need to make sure that the host government has 
the capacity to receive them, to do their own inventory 
controls, has strong internal controls.
    So when we look at this and we dissect this, we are going 
to look at the contract and how it was awarded, because we, 
too, have concerns about award management at USAID, and we are 
going to peel that onion back.
    But secondly we are going to look at the weaknesses that we 
found through our investigations, which are eight countries, 
and again, those numbers are 41 arrests, 30 indictments, and 
there is more that go on as a result of that. We are going to 
look at how well those weaknesses are being addressed in terms 
of local capacity, the implementer's responsibility, as well as 
USAID's effectiveness at overseeing those.
    Ms. Meng. Thank you.
    The Chairwoman. Thank you. We look forward to your report, 
and thank you for addressing the issue.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair. I appreciate your 
willingness to hold this important hearing.
    Thank you for joining us.
    I am going to make some broad comments that can apply, have 
multiple levels of application. I hope my colleagues will 
agree.
    I think these hearings really ought to start with some type 
of schematic, map, diagram of your overall authorities drilled 
down into agency and programmatic levels. Now, at USAID and 
State, that might fill this wall over here, but it will make 
it--take these important discussions, but can tend to be 
abstract or so narrow that they are not generalizable to the 
bigger principles that we ultimately have to legislate around, 
which are policy perspectives, mission ideals.
    And in that regard, I want to ask you, Ms. Calvaresi Barr, 
regarding two questions. Regarding the reform plans that are 
underway at USAID, one particular point is this, that there is 
an attempt to implement a new risk management approach that 
will look at the most significant impact, what programs have 
the most significant impact. In other words, how well foreign 
assistance actually works under certain scenarios, what are the 
templates. That, to me, is the most important question here.
    Secondly, I want to turn to the migration of the Overseas 
Private Investment Corporation to the new International 
Development Finance Corporation and hear your perspective on 
how that is going, with particularly one question--and I think, 
Madam Chair, at an earlier hearing you tasked me with this, and 
I think it is very important: the equity investment question 
that is developing at the International Finance Development 
Corporation, how we are going to leverage our limited funds 
potentially into equity investments with private sector partner 
to achieve the very goals of the earlier OPIC mission in a more 
substantial way.
    Are you familiar with what I am talking about there?
    Ms. Calvaresi Barr. I am.
    Mr. Fortenberry. Okay. Good.
    Ms. Calvaresi Barr. Okay. All right. Thank you.
    Let me begin with sort of enterprise risk management and 
the importance of that, and it has a couple of different legs 
to that stool. So when you think about risk management, you 
have to think about when you are investing in these countries, 
and for the most part where USAID space is. We are going to be 
investing in countries that we know might not have the 
strongest foundation from a financial, internal control, 
procurement, or legal perspective.
    Mr. Fortenberry. So we tend to measure outcomes by how much 
money we have spent and what our intention is.
    Ms. Calvaresi Barr. Yes.
    Mr. Fortenberry. I recognize what you are saying, that the 
risk factors are compounded given the nature of certain----
    Ms. Calvaresi Barr. Yes.
    Mr. Fortenberry [continuing]. Weaknesses of systems in 
other places. It is the very point of the assistance in the 
first place. So we have to tolerate in a nontraditional sense--
--
    Ms. Calvaresi Barr. Absolutely.
    Mr. Fortenberry [continuing]. A different type of risk 
profile.
    But the question is, what really works and is sustainable 
over the long term?
    Ms. Calvaresi Barr. So I think what----
    Mr. Fortenberry. And then can be lifted as a template 
elsewhere.
    I am sorry to keep giving you speeches, but the reality is 
we direct country by country different types of things, and so 
the job is made all the harder to find a standardization of 
template that actually works, but I thought that ought to be 
the goal.
    Ms. Calvaresi Barr. Yes.
    So, again, starting with the point of recognizing the 
environment that you are working in, you have to factor that in 
when you are talking about, so what are we getting out of this, 
right? You have to factor in, these are the problems, and you 
have to plan accordingly. What are the risks that mitigate 
those? That is what the Administrator is focusing on now.
    Where there are successful models, and if I can sort of 
segue to your second question on OPIC and the DFC going 
forward, I think there is a general recognition, and it is part 
of the USAID's look forward, that leveraging private capital 
for foreign assistance is something that needs to be done and 
needs to be part of the equation. Not just the U.S. coming in, 
putting money in, because we oftentimes find, and our work has 
found, as soon as we leave, then what happens? You know, long 
afterwards those investments go down.
    Mr. Fortenberry. If I could interrupt you. I think we 
really need to be careful with our language. Foreign capital 
investments. That implies--that has certain implications to it 
that sound very remote from the poorest of the poor, and yet it 
is not if we talk in the right types of language, that using 
the mechanisms of lending and capital, even on a micro scale, 
actually can be very empowering to people who are in very 
vulnerable circumstances and lend itself to long-term 
sustainability versus just writing a check year after year.
    Ms. Calvaresi Barr. Yes.
    Mr. Fortenberry. So I am just giving a little note of 
caution because the language of Western liberal economics in 
speaking of these abstract ideas of capital don't necessarily 
relate to the mission structure of what we are trying to do 
through USAID to help persons in very vulnerable circumstances.
    So there is a task here--this is way beyond you, but you 
have got me talking now--there is a task here to update 
vocabulary as well when we talk in terms of both the 
implementation as well as the review of this. So just a little 
note of caution.
    Ms. Calvaresi Barr. Okay. No, that is fine. And I was 
referring to the DFC and the establishment of the DFC as a way 
to sort of make us a player in that global platform, to 
leverage that capital for these organizations going forward. 
Let me get to that specifically because I know that you are 
interested in that.
    We have done two audits now with regard to OPIC as it 
stands now. We looked at OPIC's goals and successes in 
producing energy in that sector in Chile. As a result of that, 
we found that there were problems with this, not only in the 
policies and the processes, but they weren't reaching the end 
goals that they had hoped to through that programming.
    Our auditors then said: Why is that? What is getting in the 
way? Why aren't they doing this in Chile?
    As a result of our deeper dive into it, we found systemic 
issues with OPIC's internal controls. And you look at what the 
FAR calls for, some of the most basic things were not in place. 
We had a number of recommendations, I think 16 to be exact. Two 
have been closed so far. So we have a ways to go.
    We just released a report actually today where at the 
request of this committee looked at OPIC's compliance with 
appropriations requirements, and that report essentially found 
the same thing that we noted in the Chile look, which is that 
the internal controls need to be fixed. And if I might say, 
before we go to the DFC model, those are issues that should be 
worked on now before the transition occurs.
    [The information follows:]

          <bullet> In fact, the audit report made 16 recommendations. 
        All recommendations were open as of July 11, 2019, but OIG had 
        received and was evaluating a request from OPIC to close two of 
        them (recommendations 12 and 13).
    As of July 18, the two recommendations (recommendations 12 and 13) 
have been closed and 14 of the 16 recommendations remain open.

    Mr. Fortenberry. Okay. So that is helpful. But I think it 
needs to lend itself again to the sense of mission of what we 
are trying to do here with the Development Finance Corporation 
in terms of a new mechanism of leveraging moneys that are out 
there that actually will create the outcomes we are achieving 
potentially with less cost and better penetration and better 
continuity for the long term.
    So I am asking you to do something that may be beyond the 
mission of your own organization, is to not look at this in 
terms of punitive, problematic notations that are found in an 
audit, but saying, okay, these are the challenges that we need 
to build into the program as it transitions to something else 
based upon learned experience.
    Ms. Calvaresi Barr. I think we share the same concern and I 
think we are sharing the same language. DFC, we want to see 
that succeed. Any system that is in place, it goes to our top 
management challenge four, that has fundamentally flawed 
systems, such as internal controls, OPIC will be part of the 
DFC, that needs to be remedied.
    So that success and that hope that is there for the DFC can 
be addressed. So these aren't minor issues, these are systemic 
issues that, quite frankly, are substantial and need to be 
addressed.
    Mr. Fortenberry. Madam Chair, there is not a member that 
has gone to visit Africa that doesn't come back and say: China 
is everywhere. What are we doing? And here is a big part of the 
answer.
    The Chairwoman. Thank you.
    Mr. Fortenberry. Thank you.
    The Chairwoman. And they are here with their own people.
    Mrs. Torres.
    Mrs. Torres. Great questions. And thank you for covering 
that piece.
    Thank you both for being here.
    I have spent the majority of my life in public service 
addressing issues of public corruption at many levels, from the 
local, State, and now at the Federal level. And as you both 
know, there are many layers associated with that, and not all 
of it includes money exchanges. Some of it comes in different 
forms.
    I would like to follow up on Chairwoman Lowey's question on 
your investigation into political retributions. The State 
Department strongly supported the International Commission 
Against Impunity in Guatemala, known as CICIG, since it began 
operations in 2007. However, between 2017 and 2018, the 
Department's policy changed. It is unfortunate. It pushed for 
reform, CICIG, and did not object when the Government of 
Guatemala took a number of aggressive actions against the 
commission and its staff.
    Did you look into what role political appointees at the 
Bureau of International Organizations, including Mari Stull, 
played in changing the Department's policy toward CICIG?
    Mr. Linick. No, we haven't looked at that issue. We may 
have received an inquiry about CICIG some time ago and I would 
have to get back to you, but that particular question we did 
not look into.
    Mrs. Torres. I hope that you will look into it in the 
future. CICIG is in the process of being completely shut down. 
It will be at the end of this month. It is not surprising to me 
that we have so many people from Guatemala fleeing at many 
different levels. Not only have Department employees worked 
against improving conditions there that I think have resulted 
in the number of more migrants fleeing the area in our southern 
border.
    So I hope that I can follow up with you, whether it is 
here, in a private meeting, in a classified briefing, but I 
think it is something that we need to seriously look at.
    My other question it relates to the lines, blurring the 
lines of political corruption. I understand that Secretary 
Pompeo has been traveling quite a bit to the Midwest, including 
to Kansas. I also understand that he may be considering a run 
for a Senate seat in Kansas. I am concerned that the Secretary 
may be using official resources for political purposes, which 
would not only constitute a possible Hatch Act violation, but 
also would fall within the Inspector General's mandate to 
investigate waste, fraud, and abuse. Have you looked into the 
Secretary's travel to Kansas?
    Mr. Linick. We have not. We will look into any credible 
allegations of misconduct, and happy to work with your staff if 
you have information about that.
    Mrs. Torres. If someone is looking to run for a political 
office and specifically taking certain trips to boost their 
profile within that State, I think that that is something that 
you ought to be concerned, since this is your area that you 
oversee.
    I am a fan of USAID. I have been in the trenches with them 
throughout the Western Hemisphere. I am very concerned about 
what is happening with the personnel. They are understaffed. 
They are stressed. They have very little resources.
    As it relates to the Northern Triangle, cutting off 
humanitarian assistance with partners that they have worked 
with in the region for several years now, I am very concerned 
about what will happen to those programs and how that will 
continue to impact our crisis at our southern border.
    So I hope that you will continue to pay special attention 
to that, and you will come back to our committee with some real 
ways that we can address that for the future.
    Ms. Calvaresi Barr. As I mentioned, we have staff in 
Salvador and both on the audit side and the investigation side 
of the house. We continue to monitor the programs that are 
being funded in that region and particularly concerned about 
the security aspects of this. And as long as the programs are 
continuing and up and running, there is always a place for the 
IG's office. So we are there in full force.
    Mrs. Torres. My glass is always half full, and as it 
relates to El Salvador, they have a new President who seems to 
really be taking the issues of public corruption there 
seriously. He seems to want to work with everyone who is able 
and willing to help him address those issues, the issues of 
security within the region. I hope that we don't let this 
opportunity go to waste. I think that if we had been a little 
bit more willing to assist Morales might have not gone sideways 
in Guatemala as he did.
    So, with that, Madam Chair, I yield back.
    The Chairwoman. I am going to turn to Mr. Rogers, but I 
just wanted to follow up with Mrs. Torres' comments, because it 
seems to me throughout the course of this hearing you are doing 
the reports. The question is, what is the executive branch, 
what is the Secretary of State doing? Is there any response? 
Does anyone care?
    And this is the challenge for all of us. You are doing the 
reports. We are getting the information. My colleagues 
mentioned West Bank and Gaza. We see dozens of examples where 
there aren't people in responsible positions who can make these 
changes.
    So I am going to turn to Mr. Rogers now, but I do hope that 
we can follow up and make sure that this isn't just a hearing 
telling us that you are doing your job. But the question is, 
who are you reporting to and what are they doing about it?
    Mr. Rogers.
    Mrs. Torres. Madam Chair, can I interrupt for a minute and 
ask for unanimous consent to enter two articles to the record 
that specifically relate to the questions that I was asking?
    The Chairwoman. Thank you. Of course. So be it.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Mr. Rogers.
    Mr. Rogers. Mr. Linick, a recent audit of the State 
Department's Directorate of Defense Trade Controls, the office 
that is responsible for licensed exports of defense items, 
articles, the audit revealed that the Department does not have 
a standard training program for embassy officers who conduct 
those end use checks on U.S. weapons sold abroad.
    Why would the Department charge foreign service officers 
with the responsibility of end use monitoring, a program to 
prevent the unauthorized acquisition or use of U.S. military 
articles and technology, without having required training in 
that subject prior to a posting overseas?
    Mr. Linick. That is a great question. That particular 
report, not only wasn't there sufficient training for this end 
use monitoring, but we found that, as a result of staffing 
issues at the time, the Department lacked certain internal 
controls to assure that applications that were made for arms 
contained proper information and accurate information. We 
looked at 21 applications; 20 of them were approved without the 
required information of them.
    We also found, as a result of lack of staffing, that the 
Department wasn't providing certifications to Congress as it is 
required to for arms exports over a million dollars in about 17 
export deals.
    Again, this was really a function of a staffing issue at 
the time, and I would assess that the reason there wasn't the 
training was because of a staffing issue. I am not sure. You 
would have to ask the Department.
    But clearly there were some problems. I understand now that 
they have remediated those concerns and have addressed our 
recommendations.
    Mr. Rogers. Well, security assistance is a substantial 
enterprise, DOD and State providing about $18 billion annually, 
of which $8 billion are State Department funds.
    DOD, the Department of Defense, has started workforce 
reform requirements which was mandated in the 2017 Defense 
Authorization Act, and they continue to build an enhanced 
school for security cooperation training. State does not have 
any such place to my knowledge. Is that correct?
    Mr. Linick. I am not sure about that. Clearly, if they 
don't, this might be a good model for State, but I would have 
to get back to you on that.
    Mr. Rogers. Well, it is important that we protect American 
military secrets and equipment, and we need people who have 
training to oversee and watch that practice and the embassies 
of the countries where these items are to be shipped. Do you 
agree with that?
    Mr. Linick. I agree.
    Mr. Rogers. Madam Chair, I yield back.
    The Chairwoman. Mr. Price.
    Mr. Price. Thank you, Madam Chairman.
    Mr. Linick, I want to raise a case that has recently come 
to light about a State Department intelligence officer who was 
apparently blocked by the White House from submitting written 
congressional testimony.
    On the way to asking you about that, let me just back off 
and say, to the extent you can kind of translate our discussion 
today into some specific statistics that would put a finer 
point on some of the management challenges, I want to request 
that you do that. Maybe you know some of this off the top of 
your head.
    I liked Mr. Rogers' understatement that we have a 
management shortfall here that we have dealt with for years. 
Secretary Pompeo took office a little over a year ago. He has 
made claims to the effect that a lot of this management 
shortfall is being dealt with, that the appointments, senior 
appointments are being made, that morale is up, that diplomacy 
is again being respected.
    I wonder what kind of specific figures do you have. How 
many ambassadorships are unfilled, for example.
    Mr. Linick. I don't have that----
    Mr. Price. How many----
    Mr. Linick. Go ahead. I am sorry.
    Mr. Price. How many are unconfirmed? How many are not 
named? Do you have that figure actually?
    Mr. Linick. I don't. I mean, you would have to ask the 
Department. I don't know. I don't keep a running tally of that.
    Mr. Price. I think that is a legitimate request of the IG's 
office, that you could provide that kind of basic baseline 
information.
    What about the pace of retirements?
    Mr. Linick. I don't have that information. Again, the State 
Department would have that.
    Mr. Price. All right. Well, I am asking you if you could 
get that information and furnish it to us.
    The morale is harder to get at, but surveys are taken about 
morale in one Federal department or another or in all the 
departments. Do we have information about any kind of measures 
of morale levels?
    Mr. Linick. Well, we are about to--we are finalizing a 
report on the hiring freeze and it does get at that issue. I am 
not in a position to sort of report on that now. But I can tell 
you, based on our inspections at posts, I mean in terms of the 
hiring freeze, that did have an impact on morale around the 
world.
    Mr. Price. And there are other possible measures that I am 
not thinking of, I am sure. But, Madam Chairman, I think one 
way or another we need this basic information about the 
progress we are making or not making on these very serious 
management challenges. I think we need that for our hearing 
record.
    So one way or another we ask you to help us get that 
information.
    Now, let me ask you about an extraordinary case that just 
comes to light recently in news stories. Ron Schoonover, who 
worked in the Bureau of Intelligence and Research's Office of 
the Geographer and Global Issues, spoke before the House 
Intelligence Committee on June 5 about the security risks the 
U.S. would face by virtue of climate change. But now, 
apparently, the White House has said that he can't submit the 
Bureau's written statement that climate impacts could be 
possibly catastrophic, quote, possibly catastrophic.
    Now, the State Department, apparently, stood by Mr. 
Schoonover, but the quashing of his testimony came from three 
divisions of the White House: Legislative Affairs, Management 
and Budget, and the National Security Council. In the meantime, 
the chairman of the Intelligence Committee demanded that the 
heads of two Federal intelligence agencies provide documents 
about this incident, the Bureau of Intelligence and Research 
and the Office of the Director of National Intelligence. 
Neither of them have complied.
    I am not necessarily asking you to comment on this specific 
case, but I do want to ask you if this is the sort of case that 
you and your office would attend to. I mean, this isn't just a 
policy disagreement, this is a quashing of testimony to a 
congressional committee. How does a case of this sort come 
before you?
    Mr. Linick. So, I mean, our jurisdiction, obviously, 
extends to the Department's programs and operations, and when 
we assess whether we are going to do work, obviously, we cannot 
do programmatic or policy work, we don't have oversight over 
the White House.
    But what we do is we look to see whether there are any 
rules. And I don't know, I haven't studied this at all, and 
this has not come before me. Are there criteria? Are there 
rules? Are there Foreign Affairs Manual violations? Are there 
regulations that have been violated? That is sort of how we do 
our assessment.
    I can't comment as to these particular facts. You know, 
whether we would play a role in this depends on the answer to 
those questions.
    Mr. Price. Well, I will ask you to take a look at this. I 
will ask that [inaudible] Story from the July 10 Washington 
Post be put in the record. But in the meantime we would 
appreciate your attention to this and advising us as to what 
your role----
    Mr. Linick. Sure.
    Mr. Price. Thank you.
    Thank you, Madam Chair.
    The Chairwoman. Thank you.
    I just want to close on what I think is an issue that has 
been brought up by many of my colleagues, and I know we share a 
serious concern.
    Now, of course, this bill has not been through the Senate. 
We hope one day soon we will be able to conference. But we have 
appropriated in our bill $56 billion. That is a lot of money. 
And I know my colleagues take that responsibility very, very 
seriously.
    Mr. Linick, your office has identified that the oversight 
of foreign assistance funding is a recurring challenge and 
noted in both 2015 and 2017 that the State Department's core 
financial management systems were not designed to track and 
report on foreign assistance funds. While both State and USAID 
have improved their financial management systems over the 
years, accuracy and transparency around how appropriated 
funding is spent is paramount.
    And I want to make it very clear, we just can't tolerate 
waste, fraud, and abuse. It becomes a cliche because we talk 
about it so much. But we all take this very, very seriously. It 
is our responsibility.
    So maybe you can tell me what improvements has the State 
Department made to track and improve the management of foreign 
assistance programs since these reports were issued? Is this a 
problem, a result, or representative of any systemic management 
issues? And can the State Department both track funds at the 
project and country levels and manage projects effectively?
    So, for me, I have been on this committee for quite a 
while, I just don't get it. Both of you can respond. This is 
your responsibility. How can you say you can't track the funds? 
I know it is difficult in many of these countries where wars 
are going on, disease abound. But it seems to me if we can't 
keep track, how can I, as the chair, continue to argue for 
increased investments in foreign aid?
    Take turns.
    Mr. Linick. You make a very good point. We have identified 
this problem, and they cannot still track by program, project, 
sector, in a management friendly way or in a way which would 
give them the kind of data to make important decisions about 
foreign assistance and how unspent fund are used.
    The Chairwoman. Do you accept that?
    Mr. Linick. I think it is unacceptable.
    The Chairwoman. Good.
    Mr. Linick. And we have done two reports already and we are 
going to follow up on this. I mean, they have made modest 
improvement. We have basically said: Look, you need to, one, 
identify the data that needs to be collected, and they have. 
But that is only the first step. They need to harness the data. 
And this is a long expensive project, so it is not something 
that can be done overnight.
    And the second thing is it needs sustained leadership to 
drive implementation of this. They have designated the F Bureau 
as the designated sort of bureau to lead this. The problem is 
there has been an acting--back to your original question--an 
acting director of F, and there hasn't been a lot of sustained 
focus on this particular issue. So while there have been 
improvements, there is still a lot of work that needs to be 
done.
    The Chairwoman. Would you like to comment on it as well?
    Ms. Calvaresi Barr. I would be happy to comment on that.
    I want to say, this goes to the heart of our fourth top 
management challenge, which is addressing vulnerabilities in 
financial management and information security.
    You are right in saying that the, in the case of USAID, has 
made improvements over time. There is only one material 
weakness that is left with regard to fund balance 
reconciliation between the books at USAID and that with 
Treasury. And it may take too long to go into those 
distinctions about that $235 million that hasn't been able to 
be reconciled, but we are happy to report that for the amount 
that can be reconciled, which is slightly over $100 million, 
they have made tremendous progress in getting that 
reconciliation figured out, and that amount is down to $60 
million now.
    The problem and why this happened is because of legacy 
systems. A hundred missions around the world, legacy systems, 
different data dictionaries, different migration tools. They 
have now adopted a controlled system known as Phoenix to track 
their financial management, their programming as it goes out. 
They have new tools in place which are cash reconciliation 
tools.
    So we are hopeful that these kinds of balances or inability 
to track the funds will be addressed with some of these 
changes. But I am here to say we, again, are on that, we do our 
annual financial statements work every year and we drill down 
on the issues there.
    And there still remains that one material weakness, but 
from when I started to where we are today, at least we are down 
to one material weakness. So we will be diligent about 
overseeing that, to your point and to your concern.
    The Chairwoman. Well, let me just say on behalf of Mr. 
Rogers and myself, we take our responsibility seriously. We 
lead this committee because we really care about the work that 
this committee does. And we are passionate about making sure 
that this money is spent effectively, as it should be, around 
the world.
    And I would like to follow up with you in a month. I would 
like to know how improvements have been made. As far as I am 
concerned it is just unacceptable. If I go into a meeting and I 
am arguing for $58, $56 billion, that is a lot of money.
    And I am not sure how we are going to end up in the Senate. 
But, frankly, it doesn't strengthen our case in helping people 
who desperately need our help in the world. And, to me, that is 
what the United States of America stands for and is all about.
    So I hope you can follow up with us. We intend to follow up 
with you. And as far as I am concerned, if we can't account for 
the dollars that are spent, it makes it difficult for us to 
appropriate. And if all these open positions remain open, then 
it makes your job even more difficult, because who is doing the 
work, who is doing the oversight, here or around the world?
    So thank you again for testifying. This concludes today's 
hearing. The Subcommittee on State, Foreign Operations, and 
Related Programs stands adjourned.
    Thank you.


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                         [all]
                         
                         
</pre></body></html>
